<html>
<title> - THE IMPACT OF SEQUESTRATION ON EDUCATION</title>
<body><pre>[Senate Hearing 112-717]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-717

                THE IMPACT OF SEQUESTRATION ON EDUCATION

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JULY 25, 2012--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE

75-443 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH MCCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
DANIEL K. INOUYE, Hawaii             RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          LAMAR ALEXANDER, Tennessee
RICHARD J. DURBIN, Illinois          RON JOHNSON, Wisconsin
JACK REED, Rhode Island              MARK KIRK, Illinois
MARK PRYOR, Arkansas                 LINDSEY GRAHAM, South Carolina
BARBARA A. MIKULSKI, Maryland        JERRY MORAN, Kansas
SHERROD BROWN, Ohio
                           Professional Staff

                              Erik Fatemi
                              Mark Laisch
                            Adrienne Hallett
                             Lisa Bernhardt
                            Michael Gentile
                             Robin Juliano
                      Laura A. Friedel (Minority)
                     Sara Love Rawlings (Minority)
                      Jennifer Castagna (Minority)

                         Administrative Support

                              Teri Curtin



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Tom Harkin..........................
  1..............................................................
Sequestration's Across-the-Board Cut.............................
  1..............................................................
Sequestration's Impact on Nondefense Jobs and Services...........
  1..............................................................
Report on Sequestration's Impact.................................
  2..............................................................
Sequestration Study Shows Negative Impact on Gross Domestic 
  Product........................................................
  2..............................................................
Statement of Senator Richard C. Shelby...........................
  3..............................................................
Too Few Facts From Administration on Precise Impacts.............
  3..............................................................
Chairman's Sequestration Report..................................
  3..............................................................
Budget Control Act of 2011.......................................
  4..............................................................
Indiscriminate Cuts to Programs..................................
  4..............................................................
Federal Deficit..................................................
  4..............................................................
Education Budget Request.........................................
  5..............................................................
Prepared Statement of Senator Barbara A. Mikulski................
  5..............................................................
Impact of Sequestration on Education.............................
  5..............................................................
Statement of Arne Duncan, Secretary of Education, Department of 
  Education......................................................
  6..............................................................
Timeframe for Sequestration......................................
  7..............................................................
Arbitrary Cuts Affect Effective and Ineffective Programs.........
  7..............................................................
Short-Term Fix to Long-Term Budget Problems......................
  7..............................................................
Sequestration Cuts Would Undermine Equity and Reform.............
  8..............................................................
Cuts to Education Impact Military Preparedness...................
  8..............................................................
K-12 Education Impact Would Begin in Fall 2013...................
  8..............................................................
7.8-Percent Cut and Some Specific Impacts........................
  8..............................................................
Title I, Elementary and Secondary Education Act Impact...........
  8..............................................................
Special Education Impact.........................................
  9..............................................................
Impact Aid Cuts Would Take Effect January 2......................
  9..............................................................
Student Loans Impact.............................................
  9..............................................................
Other Federal Agency Cuts Also Impact Education..................
  9..............................................................
Head Start Program Impact........................................
  9..............................................................
National Institutes of Health and National Science Foundation 
  Impact.........................................................
  9..............................................................
Sequestration Should Be Avoided..................................
  9..............................................................
Prepared Statement of Arne Duncan................................
  10.............................................................
Congressional Budget Office Estimate of Sequestration Impact.....
  10.............................................................
Impact on State Formula Grant Programs...........................
  11.............................................................
Impact on Student Aid Administration.............................
  11.............................................................
Immediate Effect on Impact Aid and Vocational Rehabilitation.....
  12.............................................................
Effect on Education if Defense Is Made Exempt....................
  12.............................................................
Congressional Budget Office Estimates--Basis for Projected 
  Education Cuts.................................................
  13.............................................................
Priorities Assuming Cuts.........................................
  14.............................................................
Education Budget an Investment in the Future.....................
  14.............................................................
Pell Grant Exempt From Sequestration.............................
  15.............................................................
Joint Subcommittee on Deficit Reduction..........................
  15.............................................................
Damaging Impact on Families and Communities......................
  16.............................................................
Impact of Sequestration on U.S. Competitiveness..................
  60.............................................................
Foreign Countries Increasing Their Competitiveness...............
  61.............................................................
Balanced, Bipartisan Action Needed...............................
  61.............................................................
Impact of Exempting Defense From Sequestration...................
  62.............................................................
Sequester's Impact on Already Tight State/Local Budgets..........
  62.............................................................
Important To Maintain Current Reform Efforts.....................
  63.............................................................
Competitiveness Important to National Security...................
  63.............................................................
Impact of Sequester on School Reform.............................
  63.............................................................
Broad, Indiscriminate Impact on Education in All Local Education 
  Agencies.......................................................
  64.............................................................
Potential To Undermine Reforms Achieved and Planned..............
  65.............................................................
Change Since the Last Balanced Budget............................
  65.............................................................
Examples of Impact on Chicago Schools............................
  66.............................................................
Access to After-School Activities Among Cuts.....................
  66.............................................................
Relationship Between After-School Activities and Drop in Crime...
  66.............................................................
All Options for Fiscal Cuts Must Be on the Table.................
  67.............................................................
Importance of Compromise.........................................
  67.............................................................
Implementation of Education Budget Cuts..........................
  67.............................................................
Across-the-Board Cut to Education................................
  68.............................................................
Global Competitors Increasing, Not Cutting Budgets...............
  68.............................................................
Education Cuts Absent Sequestration..............................
  68.............................................................
Education Is an Investment, Not an Expense.......................
  69.............................................................
Guidance to Local Education Agencies If Sequester Is Enacted.....
  69.............................................................
Impact on Rural Areas and Students With Disabilities.............
  69.............................................................
Sequestration Effect on Impact Aid...............................
  69.............................................................
Education Budget Increases Since 2008............................
  70.............................................................
Nondepartmental Witnesses........................................
  71.............................................................
Statement of June Atkinson, State Superintendent of Public 
  Instruction, Raleigh, North Carolina...........................
  71.............................................................
    Prepared Statement of........................................
      73.........................................................
Statement of Billy Walker, Ed.D., Superintendent, Randolph Field 
  Independent School District, University City, Texas............
  76.............................................................
    Prepared Statement of........................................
      77.........................................................
Statement of Neal P. McCluskey, Associate Director, Center for 
  Educational Freedom, The Cato Institute, Washington, DC........
  79.............................................................
    Prepared Statement of........................................
      81.........................................................
Inflation-Adjusted Federal K-12 Spending Per Pupil and 
  Achievement of 17-Year-Olds, Percent Change Since 1970.........
  82.............................................................
Inflation-Adjusted Cost of a Complete K-12 Public Education and 
  Percent Change in Achievement of 17-Year-Olds Since 1970.......
  82.............................................................
Percent Change in Public School Employment and Enrollment Since 
  1970...........................................................
  83.............................................................
Statement of Tammy L. Mann, Ph.D., President and CEO, The 
  Campagna Center, Alexandria, Virginia..........................
  85.............................................................
    Prepared Statement of........................................
      87.........................................................
Additional Committee Questions...................................
  97.............................................................
Questions Submitted by Senator Tom Harkin........................
  97.............................................................
Are Federal Education Programs Effective? Would Sequestration 
  Harm Federal Education Programs?...............................
  97.............................................................
Impact on Education Programs of Sequestration if Pell Grant 
  Program Is Exempt..............................................
  97.............................................................
Question Submitted by Senator Herb Kohl..........................
  98.............................................................
Sequestration Guidance for Institutions of Higher Education......
  98.............................................................
Questions Submitted by Senator Mary L. Landrieu..................
  98.............................................................
Impacts on Reform................................................
  98.............................................................
Preparation for Sequester........................................
  98.............................................................
Preventing Sequestration.........................................
  99.............................................................
Questions Submitted by Senator Richard C. Shelby.................
  99.............................................................
Education Program Priorities if Sequestration Takes Effect.......
  99.............................................................
Actions Taken To Increase Program Efficiencies Given Potential 
  Sequestration..................................................
  99.............................................................
Sequestration Impact on Unobligated Balances, Hold-Harmless, and 
  Maintenance-of-Effort Provisions...............................
  100............................................................
Option for New State and Local Flexibilities Under Sequestration?
  100............................................................
Sequestration Impact on Local Education Agencies With Greater 
  Reliance on Federal Funding....................................
  100............................................................
Sequestration Impact on Origination Fees for Student Loans.......
  100............................................................
Questions Submitted by Senator Mark Kirk.........................
  101............................................................
Sequestration Impact on Local Education Agencies Heavily 
  Dependent on Impact Aid Funds..................................
  101............................................................
Departmental Guidance To Impact Aid Districts on Planning For 
  Sequestration..................................................
  101............................................................

 
                THE IMPACT OF SEQUESTRATION ON EDUCATION

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Murray, Durbin, Reed, Pryor, 
Mikulski, Brown, and Shelby.


                opening statement of senator tom harkin


    Senator Harkin. The Subcommittee on Labor, Health and Human 
Services, Education, and Related Agencies will come to order.


                  sequestration's across-the-board cut


    As everyone here is aware, under the Budget Control Act of 
2011, virtually all Federal programs face an across-the-board 
cut in January 2013 if the Congress does not enact a plan 
before then to reduce the national debt by $1.2 trillion over 
the next 10 years.
    So far we've heard a great deal about sequestration's 
effects on Pentagon spending. The defense industry has 
highlighted the potential impact of an across-the-board cut on 
defense-related jobs and services. Some Members of Congress are 
now demanding that we exempt the Pentagon from sequestration 
either by finding offsets for the defense cuts only or by 
making nondefense programs bear the full brunt of the entire 
$1.2 trillion in cuts.


         sequestration's impact on nondefense jobs and services


    But sequestration wouldn't apply only to defense. It would 
also have destructive impacts on the whole array of programs 
that undergird the middle class in this country, everything 
from education to job training, medical research, childcare, 
food safety, national parks, border security, safe air travel, 
and on and on. These essential Government services and programs 
directly touch every family in America, and they will be 
subject to deep, arbitrary cuts under sequestration.
    Some Members of Congress warn that defense contracting 
firms will lay off employees if sequestration goes into effect. 
But they say nothing of the tens of thousands of teachers, 
police officers, and other public servants in communities all 
across America who would also lose their jobs.
    As far as I'm concerned, a laid-off teacher is just as 
unemployed as a laid-off defense contractor, and they're both 
paid by the taxpayers.


                    report on sequestration's impact


    So it's important that we have an accurate assessment of 
the potential impact of sequestration on the nondefense side of 
the budget. To that end, this morning, I am releasing a report 
that provides a detailed analysis of sequestration's effects on 
dozens of labor, health, education, and related programs under 
the jurisdiction of this subcommittee that would happen in 
fiscal year 2013. Among the highlights of this report. States 
and local communities would lose $2.7 billion in Federal 
funding for just three critical education programs alone, Title 
I, Special Education State grants, and Head Start, that serve a 
combined 30.7 million children. Nationwide, these cuts would 
force roughly 46,000 employees to either lose their jobs or 
rely on cash-strapped States and localities to pick up their 
salaries instead.
    In health, 660,000 fewer people would be tested for HIV; 
49,000 fewer women would be screened for cancer; 212,000 fewer 
children would be vaccinated.
    At a time when the unemployment rate is still above 8 
percent, 1.6 million fewer adults, dislocated workers, and at-
risk youth would receive job training, education, and 
employment services. And the families of 80,000 fewer children 
would receive childcare subsidies, making it harder for parents 
to find work.
    This report is available online and much of this 
information is available on a State-by-State basis. For 
example, you can go there and you can click on my State of Iowa 
and see that sequestration will result in about 4,700 fewer 
people being admitted to substance abuse treatment programs, or 
500 fewer veterans receiving job assistance next year.
    So I urge you to go to the Senate Appropriations Committee 
Web site and view the report. And once you have read it, you'll 
understand why my colleagues and I adamantly oppose any 
unbalanced approach that protects the Pentagon and the 
wealthiest 2 percent in our society while ignoring cuts to 
nondefense services, including education, that's so critical to 
the middle class.
    I want to point out one paragraph that's in the foreword of 
this study. The study is called ``Under Threat''. You can get 
it on my official Web site also. We just released it this 
morning.
    [The information follows:]

    ``In fact, the economic effects of cuts to nondefense programs 
could be worse than cuts to Pentagon spending. A December 2011 study 
found that investing $1 billion in healthcare or education creates 
significantly more jobs within the United States economy than spending 
$1 billion on the military. In healthcare, the difference is 54 percent 
more jobs; in education, 138 percent more jobs.''

  SEQUESTRATION STUDY SHOWS NEGATIVE IMPACT ON GROSS DOMESTIC PRODUCT

    Senator Harkin. A July 2012 study commissioned by the 
Aerospace Industries Association found that sequestration's 
cuts to nondefense spending would reduce the U.S. gross 
domestic product (GDP) during fiscal years 2012 to 2021 by a 
greater amount than cuts to defense spending. The study 
commissioned by the Aerospace Industries Association said that 
sequestration's cuts to nondefense discretionary spending, 
under the jurisdiction of this subcommittee, would reduce our 
GDP during the next 10 years by a greater amount than cuts to 
defense spending.
    I did not commission that study. It was done by the 
Aerospace Industries Association. The links to both of the 
reports mentioned above are available in our subcommittee 
report ``Under Threat''.
    So a better and fairer solution is needed. That is the way 
we solved our previous budget crises in 1982, 1984, 1990, 1993, 
with a balanced approach that includes both spending reductions 
and new revenue.
    In the 5 years following the 1993 deficit-reduction law, 
the U.S. economy created more than 15 million new jobs. Not 
only did we balance the budget, we were on a course to 
completely eliminate the national debt within a decade. So 
again, we can repeat this success. We don't have to reinvent 
the wheel.
    So I hope that this report and today's hearing will 
motivate members of both parties to embrace a spirit of 
compromise. The time for ideological posturing is past. We all 
agree that sequestration would be tremendously destructive. We 
all want to avoid it. That means we all must come together with 
good will to hammer out a balanced agreement that will not only 
prevent sequestration but reduce our deficit and protect 
America's families.
    Today's hearing examines the impact of across-the-board 
cuts specifically on education, but it could have just as 
easily focused on health or labor. But I think education will 
provide an instructive example of the kinds of arbitrary cuts 
that would be required in nondefense services if sequestration 
goes into effect.
    We will hear first from Secretary of Education Arne Duncan 
and then from a second panel of educators who can explain the 
local and State impacts of sequestration.
    I now yield to Senator Shelby for his opening remarks.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for joining us again today to 
discuss very hot topics like sequestration on the Department of 
Education.

          TOO FEW FACTS FROM ADMINISTRATION ON PRECISE IMPACTS

    I am disappointed that the administration to date has not 
provided the Congress any details on the impact of 
sequestration. While most of the attention has focused on the 
devastating and disproportionate cuts to our national security, 
sequestration will cause considerable impact to all parts of 
our Federal budget. The across-the-board cuts that are mandated 
under sequestration are not the answer to confront our fiscal 
problems.

                    CHAIRMAN'S SEQUESTRATION REPORT

    I appreciate the chairman's focus on sequestration and the 
work of his staff on the sequestration report he is releasing 
today. However, I am concerned this report does not present an 
accurate portrayal of the impact of sequestration, because we 
have not been provided any concrete information by the 
administration to make these assumptions.
    For example, the Congress does not know the amount of the 
across-the-board cut. As the chairman's report states, it could 
be anywhere between 7.8 and 8.4 percent. In real terms, this is 
a difference of $1 billion in the Labor-HHS program reductions.
    Second, we have no clarity on which Labor-HHS programs are 
exempt from sequestration. The more programs that are exempt 
Governmentwide, the higher the sequestration percentage 
becomes.
    Third, the report specifies job cuts across programs and 
States, yet we simply have too little definitive information to 
know if these numbers are accurate. The only thing we do know 
is that agencies, programs, and States will have some 
flexibility to determine how reductions are taken and that all 
cuts will not necessarily lead to layoffs.
    Finally, while the report shows some of the potential 
impacts of sequestration, it makes significant assumptions, 
based on unknown data, as to how these cuts will be 
implemented.
    While the chairman has tried to show the effects of 
sequestration on Labor-HHS programs, in fact, it's only the 
Office of Management and Budget (OMB) that can accurately 
provide this type of information. Unfortunately, they have 
remained silent on the issue. It is as if the administration 
might want Members of Congress to be both blind and mute on 
sequestration. This cannot continue.
    Mr. Secretary, I look forward to us having a frank and a 
specific discussion about the impact of sequestration with you.

                       BUDGET CONTROL ACT OF 2011

    Mr. Chairman, like you, I did not vote for the Budget 
Control Act of 2011. I opposed the bill, because, as we are now 
seeing firsthand, it was a compromise on our financial future. 
The Super Committee was a failure. It was unable to garner even 
$1 of savings. And as a result, our entire Government is now 
facing the possibility of severe cuts that will impact all 
aspects of our society.

                    INDISCRIMINATE CUTS TO PROGRAMS

    The across-the-board cuts that result from the Super 
Committee's epic failure last year will be broad, blunt, and 
slash all programs indiscriminately.
    Sequestration is not the right approach, I believe, to end 
our fiscal turmoil. In fact, its mere existence has caused huge 
financial uncertainty around the country.
    I believe we need to find a solution to this problem now 
and end the uncertainty crippling school districts, small 
businesses, and education providers. We should not delay a 
solution to score political points.

                            FEDERAL DEFICIT

    And while the chairman and I agree that sequestration will 
have a severe and detrimental impact on the Department of 
Education, we cannot forget how we got to this point in the 
first place. Our Nation is $15.8 trillion in debt, a number 
that grows by $42,000 every second.

                        EDUCATION BUDGET REQUEST

    In the past few years, the Federal Government has been 
recording the largest budget deficits since 1945. Yet the 
Department of Education's budget request for 2013 did little to 
curb spending to put our Nation on a fiscally sustainable path. 
In fact, it asked for an increase of $1.7 billion in 
discretionary spending and then went on to request $62.9 
billion in new mandatory funding for the so-called American 
Jobs Act.
    And while it is my understanding, Mr. Secretary, that 
departments were directed to disregard the possibility of 
sequestration in their budget requests, you should have not 
disregarded, maybe, economic reality.
    Our Nation, I believe, cannot continue to spend money we 
don't have. And as we work to solve the sequestration issue, 
it's important to remember that a resolution today does not 
exempt programs from constraints tomorrow.
    Mr. Chairman, we need to reign in Federal spending and put 
our Nation back on the path to fiscal sustainability.
    Senator Harkin. Thank you very much, Senator Shelby. Any 
other opening remarks received will be inserted into the record 
at this point.
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
                  impact of sequestration on education
    Thank you, Senator Harkin, for convening this important hearing. 
Senator Murray, I would also like to thank you for your ongoing efforts 
to provide clarification, work on the impact of sequester cuts, and 
ensure sufficient aid is being provided to nondefense discretionary 
programs.
    Maryland is a sequester-stressed State. Apart from our Federal 
assets in defense, the National Security Agency and Bethesda Naval 
Hospital, we're also home to the National Institutes of Health (NIH), 
the Goddard Space Center, the Food and Drug Administration, the 
National Institute of Science and Health, and the National Oceanic and 
Atmospheric Administration. These Federal agencies, along with the 
employees that work there, make a significant difference in the lives 
of Americans on a daily basis, and those agencies will unfortunately be 
gutted if the sequester goes forward.
    First, let's talk about what a sequester means for education and 
the impact it would have on students and families. Federal spending in 
education accounts for less than 10 percent of overall spending in K 
through 12 education. However, the investments we do make are targeted 
at making a significant difference in supporting our most vulnerable 
populations. Our largest discretionary programs in this age group have 
a huge impact on kids who need the most help. Most notable of these are 
Title I, which helps low-income families, and the Individuals with 
Disabilities Education Act (IDEA), which helps more than 100,000 kids 
with disabilities in Maryland. And although IDEA pays for only 10 
percent of the cost of special education in Maryland, in my rural 
counties located on the Eastern Shore and in western Maryland, where 
there are decreasing or seasonal populations, IDEA helps pay for more 
than 20 percent of special education related costs and materials. I am 
worried that they, and other counties, won't be able to make up for $16 
million cut to special education programs with their limited county 
budgets.
    Along with Maryland's needs when it comes to education, Maryland 
holds a strong military presence when it comes to bases like Fort Meade 
and Fort Detrick, Andrews Air Force Base, and Naval Air Station at 
Patuxent. The military and civilian personnel at these bases have 
children who attend local schools. However, because they don't 
contribute to local property tax, the Federal Government gives small 
appropriations to districts intended for meeting the needs of military 
students. With cuts to the Impact Aid program, districts will be forced 
to make up the cost of children that come from military families. In 
Maryland, this would mean a cut of $395,000 to a program that helps 
educate children who are essentially there by directive of the Federal 
Government.
    In terms of health programs, we need a balanced approach to deficit 
reduction that isn't a job killer and doesn't annihilate programs. An 
approach that helps women and children, improves education, and 
healthcare for American citizens. A sequester means that most 
discretionary Department of Health and Human Services programs will be 
hammered with a 7.8-percent budget cut on January 2, 2013. NIH will be 
hit hard along with efforts to combat waste and fraud. Along with these 
startling possibilities, sequestration will delay biomedical 
innovation. 325,000 researchers at 3,000 universities and companies 
could face cuts, along with a $2 billion cut to NIH's budget and a $186 
million cut for the State of Maryland. This not only hurts patients but 
also hinders the discovery of new cures, eliminating 2,300 research 
grants and financial support of clinical trials. NIH biomedical 
research investments means fewer bench-to-bedside discoveries that top 
Maryland biotech companies will develop into lifesaving drugs and 
diagnostics, some of which help with detecting cancer and infectious 
diseases early and ensures patients get efficient care.
    Mothers, infants, and children will lose access to critical 
healthcare and social services when maternal and child health programs 
are cut by $1 billion, a potentially devastating blow to kid's growth 
and development. Patients will experience the disastrous effects of 
sequestration for years to come because of cuts, ultimately limiting 
kid's access to Children's Hospital Graduate Medical Education program, 
which trains 5,600 pediatric residents each year. As for supplemental 
nutrition programs, WIC accounts for less than 0.2 percent of the 
Federal budget, and yet with sequestration 750,000 people will be 
thrown off this program that provides nutritional food to mothers and 
their children.
    I'm for fiscal discipline--not fiscal austerity, especially when it 
comes to investments we make in programs that assist our most 
vulnerable populations. Today's hearing focuses on what sequestration 
means for education. In a nutshell, the answer is sequestration will be 
disastrous. But it won't just be disastrous for education, it will be 
disastrous for all domestic programs; those which work to help families 
out of poverty, children to grow up healthy, and seniors stay in their 
communities. It will also be disastrous for job growth. According to 
the Center on Bipartisan Policy, these cuts will result in more than 1 
million jobs being lost over the course of 2 years. Sequester is no way 
to govern, sequester is a way to fail. We must do better.

    Senator Harkin. We'll start with our first panel.
    Secretary Arne Duncan has served as Secretary of the U.S. 
Department of Education since 2009. He was confirmed by the 
U.S. Senate on Inauguration Day, January 20, 2009.
    Prior to his appointment as Secretary of Education, 
Secretary Duncan served as a chief executive officer of the 
Chicago Public Schools, a position to which he was appointed by 
Mayor Richard M. Daley from June 2001 through December 2008, 
becoming the longest-serving big city education superintendent 
in the country.
    Secretary Duncan graduated magna cum laude from Harvard 
University in 1987, majoring in sociology. He was co-captain of 
Harvard's basketball team and was named a first team Academic 
All-American.
    Secretary Duncan, you've been before this subcommittee many 
times before. We welcome you again. Your statement will be made 
a part of the record in its entirety, and we ask you just to 
please proceed as you so desire.
STATEMENT OF ARNE DUNCAN, SECRETARY OF EDUCATION, 
            DEPARTMENT OF EDUCATION
    Secretary Duncan. Thank you so much.
    I want to thank the chairman, the ranking member, and other 
members of the subcommittee for your support. Over the past 3 
years, we have protected students at risk while investing in 
education reform that supports bold and courageous leadership 
at both the State and at the local level. And I welcome the 
opportunity to discuss the potential devastating impact of 
sequestration.
    We hoped that the prospect of deep, indiscriminate, across-
the-board cuts would spur the Congress to take a balanced 
approach to deficit reduction. Obviously, so far that hasn't 
happened. But there is still time to act, and we remain hopeful 
that we can avoid these cuts.

                      TIMEFRAME FOR SEQUESTRATION

    Fiscal year 2013 is a little more than 2 months away, and 
sequestration kicks in 3 months after that on January 2, 2013, 
so it's critically important that we and the American people 
fully understand the consequences of sequestration and take 
steps to avoid it now.
    As all of you here know, sequestration will force across-
the-board budget cuts on almost every discretionary program. 
Education, Defense, Homeland Security, and all other Federal 
agencies would indiscriminately cut services that are essential 
to every State and community.

        ARBITRARY CUTS AFFECT EFFECTIVE AND INEFFECTIVE PROGRAMS

    The sequestration will put at risk all that we have 
accomplished in education and weaken programs that help 
children, that serve families, that send young people and 
adults to college, and make the middle-class American dream 
possible.
    Sequestration is absolutely the wrong way to make policy. 
It does not let the Congress or the administration set 
priorities. It attacks both ineffective and effective programs 
with the same blunt budget knife.

              SHORT-TERM FIX TO LONG-TERM BUDGET PROBLEMS

    Perhaps worst of all, it is another short-term fix to our 
long-term budget challenges. If sequestration happens, it 
simply means we didn't do our jobs in Washington, that we 
shirked our collective responsibility, and the people of 
America will pay the price.
    Essentially, we are playing chicken with the lives of the 
American people--our schools, communities, small businesses, 
farms, public safety, infrastructure, and national security. It 
further erodes what little faith remains in our elected 
leadership to put partisan politics aside and do the right 
thing for children and families.
    Clearly, it is time for the Congress to work together with 
the administration to create a long-term plan to reduce the 
deficit while simultaneously supporting the economic recovery 
that is underway.
    We have had 28 consecutive months of private-sector job 
growth because we have been thoughtful and ambitious in the way 
we balance new investments with spending cuts. Today, in fact, 
domestic discretionary programs are at their lowest level as a 
share of GDP since the Eisenhower administration.
    The Congress now has 5 months to work together to create a 
deficit reduction plan. President Obama has proposed a 
responsible way to do that when he submitted a plan that 
includes more than $4 trillion in deficit reduction. It 
maintains the Budget Control Act of 2011 caps, and calls for 
significant, yet targeted, cuts in discretionary spending. 
We've tightened our belts in a responsible way.
    Most importantly, the President's plan is a long-term fix. 
It will put an end to the seesaw budgeting that leaves State 
and local officials wondering if they can count on the Federal 
Government to be a partner with them on education and other 
vital programs.
    Let me begin with education. President Obama and I, and so 
many Members of Congress, recognize that education is the 
cornerstone to our economy. A good education leads to a good 
job and a lifetime of higher earnings. A strong educational 
system and a strong economy, those two things are inextricably 
linked.

          SEQUESTRATION CUTS WOULD UNDERMINE EQUITY AND REFORM

    Over the past 3 years, we've made investments in Race to 
the Top, the Investing in Innovation Fund, and other efforts to 
reform our schools so today's students are truly prepared to 
succeed in the global economy and to keep high-wage, high-
skilled jobs right here in the United States.
    Sequestration sends a signal that the United States is 
backtracking on its commitment to reform and its long-standing 
promise to promote equity for poor children through Title I and 
the Individuals with Disabilities Education Act (IDEA) to 
support students with special needs.

             CUTS TO EDUCATION IMPACT MILITARY PREPAREDNESS

    Education is also essential for our military preparedness. 
A staggering 75 percent of young Americans today are unable to 
enlist in the military because they have either failed to 
graduate from high school, they have a criminal record, or they 
are physically unfit.
    And I've met with so many military leaders who recognize 
that the best way to address the dropout crisis is to start 
early and invest in early childhood education. They don't want 
to see cuts in Head Start, Child Care and Development Block 
Grants, and other programs serving children.

             K-12 EDUCATION IMPACT WOULD BEGIN IN FALL 2013

    The biggest impact in K-12 education will be felt starting 
in the fall of 2013. And in a recent poll of school district 
leaders, the vast majority, 80 percent of them, said they would 
not be able to use State and local funding to replace 
potentially lost Federal funds.

               7.8-PERCENT CUT AND SOME SPECIFIC IMPACTS

    Based on the Congressional Budget Office's (CBO) projection 
that sequestration will reduce programs by 7.8 percent, here's 
what we know will be at risk.

         TITLE I, ELEMENTARY AND SECONDARY EDUCATION ACT IMPACT

    First, Title I funding would be cut by $1.1 billion, 
cutting off funding to more than 4,000 schools serving an 
estimated 1.8 million disadvantaged children. The jobs of more 
than 15,000 teachers and teacher aides would be at risk. 
Students would lose access to individual instruction, 
afterschool programs, summer school, and other interventions 
that help to close achievement gaps.

                        SPECIAL EDUCATION IMPACT

    Funding for special education would be reduced by $900 
million. That would translate into the layoffs of more than 
10,000 teachers, aides, and other staff who provide essential 
instruction and other support to 6.6 million children with 
disabilities in every one of our home States.

              IMPACT AID CUTS WOULD TAKE EFFECT JANUARY 2

    On January 2, schools serving our military families through 
the Impact Aid program would have immediate cuts to their 
budgets. For example, the Killeen Independent School District 
in Texas receives about $53 million in Impact Aid and would 
lose $4.6 million, directly affecting 18,000 children from 
military families. And everyone here knows military families 
make so many sacrifices for our country. Their children deserve 
a world-class education.

                          STUDENT LOANS IMPACT

    In higher education, our Department would need to slash 
spending on contracts to support the processing and the 
origination of student loans, which could cause delays that 
will hurt students as they make those critical decisions about 
college and could reduce services for borrowers seeking to 
repay their loans.

            OTHER FEDERAL AGENCY CUTS ALSO IMPACT EDUCATION

    In addition to these cuts at our department, other agencies 
will be forced to reduce spending in ways that will slow our 
Nation's educational progress.

                       HEAD START PROGRAM IMPACT

    Up to almost 100,000 low-income children would be denied 
access to the Head Start program, which is critical to 
preparing them for success in kindergarten and in life. Eighty 
thousand children would lose access to high-quality childcare 
through the Child Care Development Block Grants.

  NATIONAL INSTITUTES OF HEALTH AND NATIONAL SCIENCE FOUNDATION IMPACT

    The National Institutes of Health (NIH) would issue 700 
fewer grants to medical researchers, slowing the progress in 
the search for treatments and cures to cancer, diabetes, 
Alzheimer's, and other diseases in research labs at hospitals 
and universities across the country. And up to 1,500 grants 
would be cut from the National Science Foundation (NSF).

                    SEQUESTRATION SHOULD BE AVOIDED

    While it is absolutely our hope and intention to avoid 
sequestration, our Department, along with all other agencies, 
will be ready to implement cuts if sequestration happens. But 
we all know that there are steps we can take now so we don't 
have to start down the path that would put so many critical 
services to students, families, and communities at risk.
    Sequestration does not have to happen, and it should not 
happen.

                           PREPARED STATEMENT

    President Obama and all of us on his team stand ready to 
work with you to create a long-term path to reduce the deficit 
while investing in the programs that will secure our country's 
economic prosperity and global leadership. Together, let's do 
the right thing.
    Thank you so much. I'm happy to take any questions you 
might have.
    [The statement follows:]
                   Prepared Statement of Arne Duncan
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to talk about the impact on America's students and teachers 
of a sequestration of fiscal year 2013 funds under the Budget Control 
Act of 2011. That act created a bipartisan Joint Select Committee 
charged with developing a plan for comprehensive deficit reduction, in 
order to avoid the prospect of deep and indiscriminate across-the-board 
cuts in Federal spending, including both defense and nondefense 
programs. We all hoped that the breadth and depth of these prospective 
cuts would spur the Joint Committee to complete its task, through a 
balanced approach to deficit reduction, and stave off the blind and 
damaging cuts that would result from sequestration.
    Unfortunately, the Joint Committee did not succeed in coming up 
with a deficit reduction plan, and our day of fiscal reckoning is 
drawing near. President Obama has been clear that the Congress must 
avoid sequestration by passing a balanced measure that includes at 
least as much deficit reduction as the $1.2 trillion that was required 
of the Joint Committee by the Budget Control Act of 2011.
    The President's fiscal year 2013 budget contains such a balanced 
proposal, and we will continue to work with the members of this 
subcommittee as well as others in the Congress to pursue legislation 
that would implement the President's proposal and cancel sequestration. 
There would still be deficit reduction but not the mindless and harmful 
across-the-board cuts that could be required by sequestration.
    With the beginning of fiscal year 2013 just around the corner and 
no sign of meaningful progress toward a deficit reduction agreement, we 
can no longer afford to ignore the dire impact of sequestration. As you 
will hear from others at today's hearing, the public is appropriately 
worried about sequestration, and both the business community and State 
and local governments--including our school districts and institutions 
of higher education--are now posing questions about what sequestration 
could mean for their students, teachers, and faculty and how to plan 
for this possibility. In this context, and since there is both 
uncertainty and some misinformation regarding how sequestration would 
work and the impact that it could have, we think it will be helpful to 
outline, in broad terms, how the Department of Education and, by 
implication, the Federal Government as a whole, would implement a 
sequestration of fiscal year 2013 funds.
      congressional budget office estimate of sequestration impact
    The Congressional Budget Office (CBO) has estimated that 
sequestration would require a 7.8-percent reduction in funding for 
nondefense discretionary programs that are subject to the sequester 
under the Budget Control Act of 2011. The cuts would be applied to the 
funding levels available in fiscal year 2013, with most reductions 
coming from fiscal year 2013 appropriations bills, which have not yet 
been enacted.
    The administration believes that such a large, across-the-board 
reduction in spending would be extremely harmful. This should not come 
as a surprise because sequestration, by design, is bad policy. The 
resulting deep cuts carry the very real threat of significant harm to 
the ongoing economic recovery and our current and future 
competitiveness in the global economy.
    It's also important to note that even without sequestration, 
domestic discretionary spending has already been declining. Nonsecurity 
discretionary spending is now on a path to reach its lowest level as a 
share of gross domestic product (GDP) since the Eisenhower 
administration. In addition, State and local spending has been cut due 
to the recent financial crisis and economic downturn. At a time when we 
are just starting to see signs of renewed economic growth, as well as 
the positive impact of historic education reforms in programs like Race 
to the Top and School Improvement Grants that will contribute to future 
growth and prosperity, it just makes no sense at all to undermine this 
progress through sequestration of Federal funds.
    The long-term impact of sequestration could be even more damaging, 
as it would jeopardize our Nation's ability to develop and support an 
educated, skilled workforce that can compete in the global economy. 
Indeed, it would be hard to overstate the devastating impact of 
sequestration as a signal not just to the Nation but to the world, that 
we are no longer able or willing to prioritize investment in the best 
guarantee of our future success and prosperity: The education of our 
children.
    Before I talk about some specific examples of how sequestration 
would affect Federal education programs, I want to clarify that because 
four of our largest elementary and secondary programs are forward-
funded, most cuts in funding resulting from sequestration next January 
would not hit classrooms until the 2013-2014 school year. Most Federal 
support for education in the 2012-2013 school year is funded through 
the fiscal year 2012 appropriation, which would be unaffected by 
sequestration. This means that if sequestration occurs, States and 
school districts would have roughly the first one-half of next year to 
plan for the impact of reduced Federal funding beginning in the 2013-
2014 school year. We have communicated this information in a letter to 
Chief State School Officers from Deputy Secretary Tony Miller.
                 impact on state formula grant programs
    However, I want to be clear that the delay in impact does not make 
the prospect of sequestration any less harmful to students, families, 
teachers, or schools: A recent poll showed that 80 percent of school 
districts would not be able to make up the funding lost to 
sequestration. And the effect of the funding lost would be significant. 
For example, a 7.8-percent reduction in funding for large State-formula 
grant programs that serve more than 21 million students in high-poverty 
schools and 6.6 million students with special needs could force States, 
school districts, and schools to lay off teachers and reduce services 
to these needy children.
    More specifically, a $1.1 billion reduction to title I could mean 
cutting off funding to more than 4,000 schools serving more than 1.8 
million disadvantaged students, and more than 15,000 teachers and aides 
could lose their jobs. Similarly, for the critical Part B Grants to 
States program under the Individuals with Disabilities Education Act 
(IDEA), a 7.8-percent reduction in funding would mean the loss of more 
than $900 million, eliminating Federal support for about 11,000 special 
education teachers, aides, and other staff providing essential 
instruction and other support to children with disabilities.
                  impact on student aid administration
    Another area where students, families, and schools would feel the 
impact of sequestration is in the administration of Federal student 
aid. A cut to Student Aid Administration could affect the processing of 
the Free Applications for Federal Student Aid (FAFSA), which millions 
of students and families use to apply for postsecondary student 
financial assistance. Our student aid contractors would likely have to 
lay off or furlough many of the contract employees who work for the 
Department in States with contractor facilities--such as Alabama, 
Arizona, Georgia, Iowa, New Mexico, and New York--that provide customer 
services to students and borrowers. This could mean that many students 
would not receive financial aid determinations and awards in time to 
make enrollment decisions. In addition, students who do enroll could 
experience delays in the processing and origination of Federal student 
loans, since the Department also could be forced to slash spending on 
contracts that support these essential activities. And the Department 
could be hampered in its ability to collect student debt and provide 
quality services to borrowers once they are out of school, due to cuts 
in the contracts with the private-sector entities that service Federal 
student loans. Just to be clear about the magnitude of the risks here, 
during the 2011-2012 award year the Department delivered or supported 
the delivery of approximately $172 billion in grant, work-study, and 
loan assistance to almost 15 million postsecondary students attending 
more than 6,000 postsecondary institutions. In addition, since the 
Department would likely need to furlough many of its own employees as 
well, sequestration would significantly harm the Department's ability 
to prevent fraud, waste, and abuse in these very large, complex student 
financial assistance programs.
      immediate effect on impact aid and vocational rehabilitation
    It is also important to point out that the impact of sequestration 
would not be delayed until the 2013-2014 school year for all Federal 
education programs. Sequestration would have a more immediate effect on 
individuals and schools served through programs like Impact Aid and the 
Vocational Rehabilitation (VR) State Grants, which are not forward-
funded.
    The $1.2 billion Impact Aid Basic Support Payments program would 
lose almost $90 million under sequestration, a significant blow in the 
middle of the school year for districts that serve federally connected 
children, including military dependents and Native American students. 
For example, in Texas, the Killeen Independent School District receives 
about $53 million in Impact Aid support for 23,000 federally connected 
children--including 18,000 military dependents--who make up one-half of 
the student population in the district. Sequestration would cut 
Killeen's Impact Aid payment by more than $4.6 million.
    The Gallup-McKinley County Public Schools in Gallup, New Mexico, 
receives about $35 million from the Impact Aid program, or about 35 
percent of the district's total budget, to help meet the needs of 7,500 
federally connected children, including 6,700 students who live on 
Indian lands. Sequestration would result in a mid-year cut of more than 
$3 million to Gallup-McKinley's Impact Aid payment.
    In the VR State Grants program, sequestration would require an 
immediate reduction of approximately $240 million for activities that 
help about 1 million individuals with disabilities at any given time to 
prepare for, obtain, or retain employment. Sequestration of VR funding 
would likely result in higher-counselor caseloads and increased wait 
times for individuals to receive essential services. At a time when the 
unemployment rate for people with disabilities is significantly higher 
than the general population, this cut would be devastating.
    While it is our hope and intention that we avoid sequestration, the 
Department of Education, along with all other agencies, will be 
prepared to implement sequestration if necessary. Reductions of this 
magnitude in critical Federal education programs would betray our 
longstanding commitment to improving educational opportunity for the 
neediest students and their families, and are absolutely the wrong way 
to address our Nation's fiscal challenges. Support for disadvantaged 
elementary and secondary students in high-poverty schools; efforts to 
turn around thousands of low-performing schools, including so-called 
``dropout factories'' that help put nearly a million teenagers a year 
at risk of social failure and a lifetime of poverty; programs that help 
students and adults with disabilities meet educational and independent 
living goals; work-study jobs for college students, many of them first-
generation college students--all would be put at risk by sequestration.
    I hope you will agree that sequestration is no way to achieve our 
shared goal of fiscal responsibility, and no way to set priorities for 
Federal spending, either in education or any other area of the Federal 
budget. I also hope that this hearing will help to jumpstart renewed 
discussions, both here in the Congress and outside the beltway, on how 
we can work together to achieve comprehensive deficit reduction while 
continuing to make the investments we need to safeguard our people and 
our future.
    Thank you, and I will be happy to take any questions you may have.

             EFFECT ON EDUCATION IF DEFENSE IS MADE EXEMPT

    Senator Harkin. Thank you very much, Mr. Secretary. We'll 
start a series of 5-minute questions.
    Mr. Secretary, there's been a lot of discussion about the 
impact of sequestration on national security. Senators have 
been going to the floor talking about it. I understand there's 
a road trip planned. But I guess, I have to say that isn't 
education, and isn't a highly skilled workforce important to 
our security, too?
    Let me just elaborate a little bit on that. Some have 
suggested that Defense alone should be exempt from 
sequestration. I'm not sure that people realize that if we 
exempt defense alone, the entire burden for finding the $1.2 
trillion in cuts would fall on, basically, this subcommittee.
    Mr. Secretary, you just described the devastating impact of 
a 7.8-percent cut to education. But if nondefense programs 
alone had to bear the brunt of it, and defense is exempted from 
sequestration, then the cut would not be 7.8 percent but more 
like 17.6 percent.
    So instead of 15,000 Title I teachers that are laid off, 
more than 34,000 would lose their jobs; instead of 96,000 
students losing Head Start services, the figure would be more 
like 217,000.
    So can you give us just a sense, in your own mind, what 
this would mean for our Nation's education system and our 
national security?
    Secretary Duncan. It's staggering to think what that impact 
would be. And we're at a time when, Mr. Chairman, we have to 
get better educationally faster than ever before. If you look 
at any of the international rankings in reading and math and 
other things, we're somewhere between 15th and 30th, depending 
on the metric. We are 16th in the world in college graduation 
rates. We have a 25-percent dropout rate in this country. None 
of those facts are acceptable.
    We have to again lead the world in college graduation 
rates. If we have devastating cuts in early childhood 
education, in K-12 reform, in access to higher education, we 
are absolutely cutting off our nose to spite our face.
    I always say I think a strong military is about defense. I 
think a strong public education system, strong education 
system, is about defense and about global competitiveness, 
about economic security, and about keeping great jobs in this 
country. And if we fail to make the investments, I worry 
gravely about what that means for our Nation's future.
    Senator Harkin. I am on the Defense Appropriations 
Subcommittee. I spent a good part of my life in the military. 
And it seems that the military of today and of the future is 
going to be much more highly technical, much more requiring our 
troops to be more highly educated and highly trained. And it's 
not like the Army of even when I was there 30, 40 years ago.
    And so doesn't this also mean that we have to think about 
the military of the future and what we're doing today in our 
educational system? So that we have the individuals who know 
how to operate the systems that we're going to rely on in the 
future? I've had so many military people tell me that, that 
they're having a hard time finding qualified young men and 
women that can actually fill those kinds of slots.
    Secretary Duncan. That's exactly right, and you have 
outside groups like the Council on Foreign Relations, which 
recently had a task force co-chaired by Condoleezza Rice. And 
in their report, they argue that educational failure in the 
United States puts future economic prosperity, global position, 
and our Nation's physical safety at risk. So the stakes here 
are extraordinary.
    Senator Harkin. Thank you, Mr. Secretary.
    I yield to Senator Shelby.

 CONGRESSIONAL BUDGET OFFICE ESTIMATES--BASIS FOR PROJECTED EDUCATION 
                                  CUTS

    Senator Shelby. Mr. Secretary, before we can make 
meaningful decisions, we need to understand the full scope of 
the issue, don't we, on just about anything?
    Secretary Duncan. Yes, Sir.
    Senator Shelby. Why has your Department not provided 
sequestration information to the subcommittee?
    Secretary Duncan. We're happy to provide all the 
information. I think the chairman put out a report today that 
looks at the numbers briefly. The numbers seem to basically 
correspond to where we are. And any additional information you 
would like from us, we're happy to provide.
    But our estimates are based upon a 7.8-percent across-the-
board cut, so the math here is, frankly, not that difficult.
    Senator Shelby. Are you working with OMB in getting to 
these numbers you're talking about?
    Secretary Duncan. We got these numbers from CBO.
    Senator Shelby. CBO.
    Secretary Duncan. Yes.
    Senator Shelby. Okay. And they're helpful on this regard?
    Secretary Duncan. Yes. And again, to be clear, whether it's 
7.8 percent or 7.9 percent, I think the point is these cuts 
would be absolutely devastating. So there's no good answer 
here.

                        PRIORITIES ASSUMING CUTS

    Senator Shelby. What would be your priorities, assuming 
that you're going to have to cut things in the future? And we 
all believe we're going to have to do some of that. What would 
be several of the areas that you believe you--you don't want to 
cut, I understand that, but if you had to cut, what would----
    Secretary Duncan. To be very clear, we tried to hold 
ourselves accountable. We've made tough cuts. We have 
eliminated 49 programs. We've created annual savings of $1.2 
billion.
    I have a lengthy list of programs that we have cut that we 
felt were ineffective. Again, no one enjoys making those cuts, 
but we're all asked to make hard decisions. And we would 
absolutely continue to do that and expect you to hold us 
accountable for that.
    We have 49 programs here that we eliminated--and some were 
politically difficult to eliminate, because we want to use 
taxpayer dollars wisely.

              EDUCATION BUDGET AN INVESTMENT IN THE FUTURE

    Senator Shelby. But are the programs, the money that we 
appropriate in the Government's borrowing--in other words, your 
spending each year is going up. It's not going down, correct?
    Secretary Duncan. Well, we think, the President believes, 
that education is an investment.
    Senator Shelby. We understand.
    Secretary Duncan. And so we need to invest in quality early 
childhood education. We need to invest in K-12 reform. We need 
to make college more accessible and affordable.
    The fact that we're 16th in the world in college graduation 
rates is nothing to be proud of, and we want to again lead the 
world.
    Now, money alone is never the answer, as you know, but we 
have to continue to invest in reform.

                  PELL GRANT EXEMPT FROM SEQUESTRATION

    Senator Shelby. It is my understanding that the Pell grant 
program is predicted to need an additional $6 billion next 
year, and it remains unclear whether the Pell grant is exempt 
from sequestration. What's your judgment on that?
    Secretary Duncan. We think the Pell grant is exempt.
    Senator Shelby. Is exempt.
    Secretary Duncan. Yes, Sir.
    Senator Shelby. Do you believe it's in the best interest of 
this country to try to deal with our fiscal challenges now or 
kick the can down the road?
    Secretary Duncan. Now, Sir.
    Senator Shelby. Okay. That's what we're trying to do.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you.
    I just might add that, a year ago in April, I went down to 
the United States Chamber of Commerce. Their affiliate had 
issued a report calling for more investment in this country in 
early childhood education. This is the U.S. Chamber of Commerce 
calling upon us not to cut but to invest more in early 
childhood education.
    I have an order of arrival. I have Senator Murray, Senator 
Reed, Senator Brown, Senator Mikulski, Senator Durbin, Senator 
Pryor.
    Senator Murray.
    Senator Murray. Thank you very much, Chairman Harkin and 
Ranking Member Shelby, for holding this hearing. I think it's 
really important that we learn more about the impact of these 
automatic cuts on our students and our families across the 
country.
    As the chairman mentioned, sequestration was included in 
the bipartisan Budget Control Act of 2011 in order to give both 
parties an incentive to compromise. And the goal really was to 
bring both sides to the table, willing to make concessions that 
were required to get to a balanced and bipartisan deal.

                JOINT SUBCOMMITTEE ON DEFICIT REDUCTION

    Unfortunately, as we all know, it hasn't worked out yet. We 
haven't been able to get to that deal. As you know, I served as 
chair of that Joint Subcommittee on Deficit Reduction, and what 
I saw firsthand was that, on our side, we were willing to put 
some pretty tough concessions on the table when it came to 
cutting budgets and entitlements. But what we were not able to 
get was a comparable concession on the other side that included 
revenue from the wealthiest Americans to help pay for what this 
country needs to be strong both in defense and in nondefense 
moving forward.
    Everybody wanted all the deficit from sequestration but 
without any of the shared sacrifice that is really needed to 
come to a deal. And, on our side, we were not going to throw 
the middle class under the bus if we did not have that balance 
and bipartisan deal.
    We weren't willing to do it then, and I think that's still 
true today. In fact, I know it's still true today.
    So we have to keep working to replace sequestration. No one 
wants sequestration to happen, but that replacement has to be 
bipartisan, it has to be balanced, and it is going to have to 
be fair for the middle class in this country who have suffered 
so much.

              DAMAGING IMPACT ON FAMILIES AND COMMUNITIES

    So, here in the District of Columbia, now we're hearing a 
lot about the defense side of the equation, and it's getting a 
lot of attention. But I think it's really important, Mr. 
Chairman, that Americans do understand the deeply damaging 
impact to families and communities on the nondefense side as 
well.
    About 3,000 national, State, and local organizations signed 
a letter that they sent to the Congress. I have it with me and 
I would like to submit it for the record, Mr. Chairman, urging 
us to adopt that balanced approach onto deficit reduction that 
does protect middle-class families and the most vulnerable 
Americans.
    So I would submit that for the record.
    [The information follows:]

July 12, 2012

Dear Member of Congress:
    There is bipartisan agreement that sequestration would be 
devastating to the nation. The nearly 3,000 undersigned national, 
state, and local organizations--representing the hundreds of millions 
of Americans who support and benefit from nondefense discretionary 
(NDD) programs--couldn't agree more. Congress and the President must 
work together to ensure sequestration does not take effect. We strongly 
urge a balanced approach to deficit reduction that does not include 
further cuts to NDD programs, which have already done their part to 
reduce the deficit.
    NDD programs are core functions government provides for the benefit 
of all, including medical and scientific research; education and job 
training; infrastructure; public safety and law enforcement; public 
health; weather monitoring and environmental protection; natural and 
cultural resources; housing and social services; and international 
relations. Every day these programs support economic growth and 
strengthen the safety and security of every American in every state and 
community across the nation.
    NDD programs represent a small and shrinking share of the Federal 
budget and of our overall economy. The NDD budget represented just 3.4 
percent of our country's Gross Domestic Product (GDP) in 2011, 
consistent with historical levels. Under the bi-partisan Budget Control 
Act, by 2021 NDD funding will decline to just 2.5 percent of GDP, the 
lowest level in at least 50 years.
    NDD programs are not the reason behind our growing debt. In fact, 
even completely eliminating all NDD programs would still not balance 
the budget. Yet NDD programs have borne the brunt of deficit reduction 
efforts.
  --Since fiscal 2010, NDD programs have been cut by 10 percent on 
        average, with many programs cut by as much as 50 percent.
  --By 2021, the remaining discretionary caps (2013-2021) in the 
        bipartisan Budget Control Act will reduce NDD programs by an 
        additional 7 percent, relative to 2012 levels.
  --If sequestration is allowed to take effect, nonexempt NDD programs 
        will be reduced by another 8.4 percent in fiscal year 2013.
    In total, if Congress and the President fail to act, between fiscal 
2010 and 2021 NDD programs will have been cut by 20 percent overall. 
Such indiscriminate cuts threaten the entire range of bipartisan 
national priorities. For example, there will be fewer scientific and 
technological innovations, fewer teachers in classrooms, fewer job 
opportunities, fewer National Park visitor hours, fewer air traffic 
controllers, fewer food and drug inspectors, and fewer first 
responders.
    America's day-to-day security requires more than military might. 
NDD programs support our economy, drive our global competitiveness, and 
provide an environment where all Americans may lead healthy, productive 
lives. Only a balanced approach to deficit reduction can restore fiscal 
stability, and NDD has done its part. Please work together to find a 
balanced approach to deficit reduction that does not include further 
cuts to NDD programs.
    If you have questions about this letter, please contact Emily 
Holubowich, Executive Director of the Coalition for Health Funding 
(202-484-1100 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e184898e8d94838e96888289a18582cc829385cf828e8c">[email&#160;protected]</a>) or Joel Packer, Executive 
Director of the Committee for Education Funding (202-383-0083 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b415b6a68606e794b686e6d2564796c">[email&#160;protected]</a>). An electronic copy of this letter is also available 
at http://publichealthfunding.org/index.php/action/campaigns/
ndd_united/.
             national organizations (listed alphabetically)
8th Day Center for Justice
9to5, National Association of Working Women
A World Fit For Kids!
Academic Pediatric Association
Academy of Medical Surgical Nurses
Academy of Nutrition and Dietetics
Academy of Radiology Research
AcademyHealth
ACCESS
Ad Hoc Group for Medical Research
Adult Congenital Heart Association
Advocates for Youth
African American Health Alliance
African American Ministers in Action
AFSE
Afterschool Alliance
AIDS Community Research Initiative of America
AIDS Healthcare Foundation
AIDS Treatment News
AIDS United
Alliance for a Just Society
Alliance for Aging Research
Alliance for Biking & Walking
Alliance for Children and Families
Alliance for Retired Americans
Alpha-1 Association
Alpha-1 Foundation
Alzheimer's Association
Alzheimer's Foundation of America
American Academy of Child and Adolescent Psychiatry
American Academy of Family Physicians
American Academy of Neurology
American Academy of Nursing
American Academy of Pediatrics
American Alliance for Health, Physical Education, Recreation and Dance
American Art Therapy Association
American Association for Adult and Continuing Education
American Association for Cancer Research
American Association for Dental Research
American Association for Geriatric Psychiatry
American Association for Health Education
American Association for Marriage & Family Therapy
American Association for Psychoanalysis in Clinical Social Work
American Association for the Advancement of Science
American Association for the Study of Liver Diseases
American Association of Classified School Employees
American Association of Colleges for Teacher Education
American Association of Colleges of Nursing
American Association of Colleges of Osteopathic Medicine
American Association of Colleges of Pharmacy
American Association of Community Colleges (AACC)
American Association of Community Theatre
American Association of Critical-Care Nurses (AACN)
American Association of Physics Teachers
American Association of Poison Control Centers
American Association of Port Authorities
American Association of Radon Scientists and Technologists
American Association of School Administrators
American Association of School Librarians
American Association of Service Coordinators
American Association of State Colleges and Universities
American Association of University Professors
American Association of University Women (AAUW)
American Association on Health and Disability
American Astronomical Society
American Brain Coalition
American Cancer Society Cancer Action Network
American Chemical Society
American College of Clinical Pharmacy (ACCP)
American College of Preventive Medicine
American Council on Education
American Council on the Teaching of Foreign Languages (ACTFL)
American Counseling Association
American Dental Education Association
American Diabetes Association
American Educational Research Association
American Epilepsy Society
American Federation for Medical Research
American Federation of School Administrators, AFL-CIO
American Federation of Teachers, AFL-CIO
American Forests
American Geophysical Union
American Heart Association
American Institute of Biological Sciences
American Library Association
American Lung Association
American Mathematical Society
American Medical Rehabilitation Providers Association
American Medical Student Association
American Music Therapy Association
American Nephrology Nurses' Association
American Nurses Association
American Occupational Therapy Association
American Organization of Nurse Executives
American Pediatric Society/Society for Pediatric Research
American Physical Therapy Association
American Planning Association
American Psychiatric Association
American Psychological Association
American Public Health Association
American Rivers
American School Counselor Association
American Social Health Association
American Society for Bone and Mineral Research
American Society for Clinical Pathology
American Society for Engineering Education
American Society for Microbiology
American Society for Pharmacology & Experimental Therapeutics
American Society of Agronomy
American Society of Hematology
American Society of Nephrology
American Society of Pediatric Nephrology
American Society of PeriAnesthesia Nurses (ASPAN)
American Society of Plant Biologists
American Society of Tropical Medicine and Hygiene
American Society on Aging
American Sociological Association
American Speech-Language-Hearing Association
American Statistical Association
American Therapeutic Recreation Association
American Thrombosis and Hemostasis Network
American Urogynecologic Society
Americans for Nursing Shortage Relief (ANSR) Alliance
Americans for the Arts
America's Service Commissions
amfAR, The Foundation for AIDS Research
Amputee Coalition
Arthritis Foundation
Asian & Pacific Islander American Health Forum
Asian & Pacific Islander Institute on Domestic Violence
Asian & Pacific Islander Wellness Center
Asian American Justice Center, Member of Asian American Center for 
    Advancing Justice
Associated Universities, Inc.
Association for Ambulatory Behavioral Healthcare
Association for Career and Technical Education
Association for Prevention Teaching and Research
Association for Psychological Science
Association for Radiologic & Imaging Nurses (ARIN)
Association for Research in Otolaryngology
Association for Research in Vision and Ophthalmology
Association for Women in Mathematics
Association of Academic Health Centers
Association of Academic Health Sciences Libraries
Association of Ambulatory Behavioral Healthcare
Association of American Cancer Institutes
Association of American Medical Colleges
Association of American Universities
Association of American Veterinary Medical Colleges
Association of Assistive Technology Act Programs (ATAP)
Association of BellTel Retirees, Inc.
Association of Departments of Family Medicine
Association of Educational Service Agencies
Association of Environmental & Engineering Geologists
Association of Family Medicine Residency Directors
Association of Farmworker Opportunity Programs
Association of Jesuit Colleges and Universities (AJCU)
Association of Jewish Aging
Association of Maternal and Child Health Programs
Association of Medical School Pediatric Department Chairs
Association of Minority Health Professions Schools
Association of Nurses in AIDS Care
Association of Prosecuting Attorneys
Association of Public and Land-grant Universities
Association of Public Health Nurses
Association of Rehabilitation Nurses
Association of Research Libraries
Association of School Business Officials International
Association of School Psychologists
Association of Schools and Colleges of Optometry
Association of State & Territorial Public Health Nutrition Directors
Association of State and Territorial Health Officials
Association of Teacher Educators
Association of University Centers on Disabilities
Association of Women's Health, Obstetric and Neonatal Nurses
Asthma and Allergy Foundation of America
Attention Deficit Disorder Association (ADDA)
Autism National Committee
Bat Conservation International
Bazelon Center for Mental Health Law
Be the Change, Inc.
Benetech
Benign Essential Blepharospasm Research Foundation
Berkeley Media Studies Group
Biophysical Society
Brain Injury Association of America
Bread for the World
Break the Cycle
Briar Cliff University TRIO Upward Bound
Building Educated Leaders for Life (BELL)
Business Industrial Network
California Institute of Technology
Campaign for Public Health Foundation
Campaign for Youth Justice
Campaign to Invest in America's Workforce
Campus Compact
CARE
Casa de Esperanza: National <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c18da0b5a8af81">[email&#160;protected]</a> Network for Healthy Families and 
    Communities
C-Change
Center for Biological Diversity
Center for Employment Training
Center for HIV Law and Policy
Center for Law and Social Policy (CLASP)
Center for Science in the Public Interest
Center for Women Policy Studies
Cerebral Palsy International Research Foundation
Charles R. Drew University
Child Care Services Association
Child Welfare League of America
Children and Adults with Attention-Deficit/Hyperactivity Disorder
Children's Defense Fund
Children's Environmental Health Network
Children's HealthWatch
Children's Leadership Council
Children's Mental Health Network
Christopher & Dana Reeve Foundation
Citizen Schools
Citizens United for Rehabilitation of Errants--Women Incarcerated
City Year
Clean Water Action
CLEARCorps USA
Climate Change is Elementary
Clinical Social Work Association
Coalition for a Secure Driver's License
Coalition for Health Funding
Coalition on Human Needs
Coalition for Imaging and Bioengineering Research
Coalition for Juvenile Justice
Coalition for Workforce Solutions
Coalition of Higher Education Assistance Organizations
Coalition to End Childhood Lead Poisoning
Coastal States Organization
College Board
College Summit
Colleges That Change Lives
Commission on Adult Basic Education (COABE)
Commissioned Officers Association of the U.S. Public Health Service
Committee for Education Funding
Communities Advocating Emergency AIDS Relief (CAEAR) Coalition
Community Action Partnership
Community Anti-Drug Coalitions of America
Community Economic Development Partners, LLC
Conference of Educational Administrators of Schools and Programs for 
    the Deaf
Consortium for Citizens with Disabilities
Consortium for Ocean Leadership
Consortium for School Networking
Consortium of Social Science Associations
Cooley's Anemia Foundation
COPD Foundation
Corporate Hepatitis Alliance
Corporation for a Skilled Workforce
Corporation for Supportive Housing
Council for Adult and Experiential Learning
Council for Advancement of Adult Education
Council for Exceptional Children
Council for Opportunity in Education
Council of Administrators of Special Education, Inc. (CASE)
Council of State and Territorial Epidemiologists
Council of State Community Development Agencies
Council of the Great City Schools
Council on Social Work Education
Covenant House International
Crohn's and Colitis Foundation of America
Crop Science Society of America
Defeat Diabetes Foundation
Defenders of Wildlife
Dermatology Nurses Association
Digestive Disease National Coalition
Directors of Health Promotion and Education
Disability Rights Education & Defense Fund
District 1199C Training & Upgrading Fund
Division for Early Childhood of the Council for Exceptional Children 
    (DEC)
Drugs for Neglected Diseases initiative (DNDi)
Dystonia Advocacy Network
Dystonia Medical Research Foundation
Early Care and Education Consortium
Earth Day Network
Earthquake Engineering Research Institute
Easter Seals
Ecological Society of America
Education Industry Association
Education Law Center
Educational Talent Search
Educational Theatre Association
Elderly Housing Development and Operations Corporation (EHDOC)
Emergency Nurses Association
Endangered Species Coalition
Enterprise Community Partners, Inc.
Epilepsy Foundation
Equal Justice Works
Evangelical Lutheran Church in America (ELCA)
Every Child By Two--Carter/Bumpers Champions for Immunization
FairTest: National Center for Fair & Open Testing, Inc.
Families USA
Family Caregiver Alliance
Family Promise of Lycoming County
Fanconi Anemia Research Fund
Federal Law Enforcement Officers Association
Federation of Associations in Behavioral & Brain Sciences
Federation of Materials Societies
Fellowship Health Resources, Inc.
Fight Colorectal Cancer
First Focus Campaign for Children
Food Research & Action Center (FRAC)
Foster Family-Based Treatment Association
Franklin County Head Start
Fred Hutchinson Cancer Research Center
Friends Committee on National Legislation
Friends of the Earth
Friends of Agency for Healthcare Research and Quality
Friends of National Center for Health Statistics
Friends of the National Institute of Child Health and Human Development 
    (NICHD)
Friends of UNFPA
Futures Without Violence (formerly Family Violence Prevention Fund)
Gay Men's Health Crisis
Gay, Lesbian & Straight Education Network (GLSEN)
Genetics Policy Institute
Goodwill Industries of the Valleys
Gray Panthers
Greenpeace
Half in Ten
Harm Reduction Coalition
Health & Disability Advocates
Health Professions and Nursing Education Coalition
Healthcare Leadership Council
HealthHIV
Heifer International
Helen Keller International
Hemophilia Federation of America
Hepatitis B Foundation
HIGH IMPACT Mission-based Consulting & Training
Higher Education Consortium for Special Education
HighScope Educational Research Foundation
HIV Law Project
HIV Medicine Association (HIVMA)
HIV Prevention Justice Alliance
Human Rights Campaign
Human Rights Project for Girls
iCAST (International Center for Appropriate & Sustainable Technology)
Idea Fuel
IDEA Infant Toddler Coordinators Association (ITCA)
Illinois Campus Compact
Infectious Diseases Society of America
Innocence Project
Innovate+Educate
Innovations in Civic Participation
Insight Center for Community Economic Development
Institute for Educational Leadership
International Association of Jewish Vocational Services (IAJVS)
International Certification and Reciprocity Consortium (IC&RC)
International Essential Tremor Foundation
International Foundation for Functional Gastrointestinal Disorders
International Myeloma Foundation
International Reading Association
International Society for Technology in Education
Interstitial Cystitis Association
Iron Disorders Institute
Jeffrey Modell Foundation
Jewish Council for Public Affairs
Jewish Labor Committee
Jobs for the Future (JFF)
Joint Advocacy Coalition of ACRT, APOR, CRF, and SCTS
Juma Ventures
Jumpstart
KaBOOM!
Knowledge Alliance
Leadership Conference on Civil and Human Rights
League of Conservation Voters
Learning Disabilities Association of America
Legal Action Center
Legal Momentum
Local Initiative Support Corporation
Long-term Ecological Research Network
Lupus Foundation of America, Inc.
Lupus Research Institute
Lutheran Services in America
Magnet Schools of America
Mal de Debarquement Syndrome Balance Disorder Foundation
Manufactured Home Owners Association of America
March of Dimes
Marie Stopes International--US (MSI-US)
Marine Conservation Institute
Materials Research Society
Mathematical Association of America
Meals On Wheels Association of America
Medical Library Association
Meharry Medical College
Mental Health America
Mercy Housing, Inc.
Mesothelioma Applied Research Foundation
Metro TeenAIDS
Mexican American Legal Defense and Educational Fund
Military Impacted Schools Association
Monarch Housing Associates
Morehouse School of Medicine
NAACP
NAADAC--The Association for Addiction Professionals
NAfME: National Association for Music Education
NAFSA: Association of International Educators
National Academy of Elder Law Attorneys
National Advocacy Center of the Sisters of the Good Shepherd
National African American Drug Policy Coalition, Inc.
National AIDS Housing Coalition
National Alliance for Eye and Vision Research
National Alliance for Media Arts & Culture
National Alliance of Black School Educators
National Alliance of Community Economic Development Associations 
    (NACEDA)
National Alliance of State & Territorial AIDS Directors
National Alliance on Mental Illness
National Alliance to End Homelessness
National Alliance to End Sexual Violence
National Area Health Education Center (AHEC) Organization
National Assembly on School-Based Health Care
National Association for Bilingual Education
National Association for Biomedical Research
National Association for Children's Behavioral Health
National Association for College Admission Counseling
National Association for County Community and Economic Development
National Association for Geriatric Education and National Association 
    of Geriatric Education Centers
National Association for Hispanic Elderly
National Association for Music Education
National Association for Public Health Statistics and Information 
    Systems
National Association for Rural Mental Health
National Association for Sport and Physical Education
National Association for the Education of Homeless Children and Youth
National Association for the Education of Young Children
National Association of Area Agencies on Aging
National Association of Chronic Disease Directors
National Association of Clinical Nurse Specialists
National Association of Community Health Centers
National Association of Councils on Developmental Disabilities
National Association of County and City Health Officials
National Association of County Behavioral Health and Developmental 
    Disabilities Directors (NACBHDD)
National Association of Development Organizations (NADO)
National Association of Drug Court Professionals
National Association of Elementary School Principals
National Association of Federally Impacted Schools
National Association of Housing Cooperatives
National Association of Human Rights Workers
National Association of Local Housing Finance Agencies
National Association of Marine Laboratories
National Association of Nutrition and Aging Services Programs (NANASP)
National Association of People with AIDS (NAPWA)
National Association of Private Special Education Centers
National Association of Professional Geriatric Care Managers
National Association of Pupil Services Administrators
National Association of Rural Mental Health
National Association of School Nurses
National Association of School Psychologists
National Association of Secondary School Principals
National Association of Social Workers (NASW)
National Association of State Alcohol and Drug Abuse Directors
National Association of State Directors of Career Technical Education 
    Consortium
National Association of State Directors of Special Education
National Association of State Emergency Medical Services Officials
National Association of State Head Injury Administrators
National Association of State Long-Term Care Ombudsman Programs (NASOP)
National Association of State Mental Health Program Directors
National Association of States United for Aging and Disabilities
National Association of Thrift Savings Plan Participants
National Association of Workforce Boards (NAWB)
National Association of Workforce Development Professionals (NAWDP)
National Black Nurses Association
National Center for Healthy Housing
National Center for Technological Literacy
National Center for Transgender Equality
National Center for Victims of Crime
National Center on Domestic and Sexual Violence
National Coalition Against Domestic Violence
National Coalition for Literacy
National Coalition for Promoting Physical Activity
National Coalition of STD Directors
National Community Development Association
National Community Reinvestment Coalition
National Community Tax Coalition
National Congress of American Indians
National Consumer Voice for Quality Long-Term Care
National Council for Advanced Manufacturing
National Council for Community and Education Partnerships (NCCEP)
National Council for Community Behavioral Healthcare
National Council for Workforce Education
National Council of Jewish Women
National Council of La Raza
National Council of State Directors of Adult Education
National Council of State Housing Agencies
National Council of Women's Organizations
National Council on Aging
National Council on Independent Living
National Disability Rights Network
National Ecological Observatory Network, Inc. (NEON)
National Education Association
National Education Association Student Program
National Employment Law Project
National Estuarine Research Reserve Association
National Fair Housing Alliance
National Family Planning & Reproductive Health Association
National Federation of Families for Children's Mental Health
National Forum for Heart Disease and Stroke Prevention
National Fragile X Foundation
National Fund for Workforce Solutions (NFWS)
National Head Start Association
National Health Care for the Homeless Council
National Healthy Start Association
National Health Care for the Homeless
National Hemophilia Foundation
National High School Equivalency Program/College Assistance Migrant 
    Program Association
National Hispanic Council on Aging
National Hispanic Media Coalition
National Hispanic Medical Association
National Housing Law Project
National Housing Trust
National Human Services Assembly
National Immigration Law Center
National Juvenile Justice Network
National Kidney Foundation
National Latina Institute for Reproductive Health
National Latino Alliance for the Elimination of Domestic Violence 
    (Alianza)
National Latino Behavioral Health Association
National Law Center on Homelessness & Poverty
National League for Nursing
National Low Income Housing Coalition
National Lung Cancer Partnership
National Marfan Foundation
National Marine Sanctuary Foundation
National Minority AIDS Council
National Multiple Sclerosis Society
National Network for Youth
National Network of Public Health Institutes
National Network of Sector Partners (NNSP)
National Network to End Domestic Violence
National Organization of Social Security Claimants' Representatives
National Parks Conservation Association
National Partnership for Women & Families
National Partnership to End Interpersonal Violence
National Pediatric AIDS Network
National Psoriasis Foundation
National PTA
National Resource Center on Domestic Violence
National Rural Education Advocacy Coalition
National Rural Education Association
National School Boards Association
National Senior Corps Association
National Skills Coalition
National Spasmodic Dysphonia Association
National Spasmodic Torticollis Association
National Student Nurses' Association, Inc.
National Summer Learning Association
National Superintendents Roundtable
National Task Force to End Sexual and Domestic Violence
National Title I Association
National Tourette Syndrome Association
National Transitional Jobs Network (NTJN)
National Trust for Historic Preservation
National Urban League
National Violence Prevention Network
National Viral Hepatitis Roundtable
National WIC Association
National Women's Conference Committee
National Women's Health Network
National Women's Law Center
National Writing Project
National Youth Employment Coalition (NYEC)
National Youth Leadership Council
Natural Resources Defense Council
Nemours
NephCure Foundation
New Leaders
North American Primary Care Research Group
Nurse-Family Partnership
Nurses Organization of Veterans Affairs
Oceana
Oncology Nursing Society
Pancreatic Cancer Action Network (PanCAN)
Parents As Teachers
Parkinson's Action Network
Peace Action
Pediatric Stroke Network, Inc.
People For the American Way
PFLAG National (Parents, Families and Friends of Lesbians and Gays)
Planned Parenthood Federation of America
Points of Light
Population Action International
Population Association of America/Association of Population Centers
Population Connection
Population Institute
Positive Education, Inc.
Prevent Blindness America
Preventive Cardiovascular Nurses Association
Professional Association of Social Workers in HIV and AIDS
Project Inform
ProLiteracy
Provincial Council of the Clerics of St. Viator (Viatorians)
Public Allies, Inc.
Public Education Network
Public Health Foundation
Public Health Institute
Public Health Solutions
Public Lands Service Coalition
Pulmonary Hypertension Association
Racial and Ethnic Health Disparities Coalition
Racine County Older Adult Nutrition Program
Rape, Abuse & Incest National Network (RAINN)
Reading Partners
Research Allies for Lifelong Learning
Research!America
Resources for Human Development, Inc.
Restore America's Estuaries
RESULTS
Robert F. Kennedy Children's Action Corps
Rose F. Kennedy University Center for Excellence in Developmental 
    Disabilities
RTI International
Rushmere Community Development Corporation
Ryan White Medical Providers Coalition
Safe States Alliance
Sargent Shriver National Center on Poverty Law
Save the Children
School Social Work Association of America
Scleroderma Foundation
Scripps Institution of Oceanography
Sea Grant Association
Southwest Educational Development Laboratory (SEDL)
Senior Service America, Inc.
Services and Advocacy for GLBT Elders (SAGE)
Sexuality Information and Education Council of the United States 
    (SIECUS)
Sisters of Charity of Nazareth Congregational Leadership
Sisters of Mercy of the Americas
Sjogren's Syndrome Foundation
Sleep Research Society
Society for Advancement of Violence and Injury Research
Society for Healthcare Epidemiology of America
Society for Industrial and Applied Mathematics
Society for Medical Decision Making
Society for Neuroscience
Society for Public Health Education
Society for Women's Health Research
Society of General Internal Medicine
Society of Gynecologic Oncology
Society of Teachers of Family Medicine
Society of Urologic Nurses and Associates
Soil Science Society of America
Southeast Asia Resource Action Center
Special Olympics, Inc.
Spina Bifida Association
Stand Up for Rural America
State Educational Technology Directors Association
Stem Cell Action Coalition
Strategic Applications International
STRIVE National
Student Conservation Association
Sugar Law Center for Economic & Social Justice
Teach For America
Teaching Strategies, LLC
Technical Assistance Collaborative
Telecare Corporation
TESOL International Association
The Advocacy Institute
The AIDS Institute
The American Society for Cell Biology
The Arc of the U.S.
The Aspen Institute Workforce Strategies Initiative
The Borgen Project
The Center for the Celebration of Creation
The Coalition for the Life Sciences
The Community Builders, Inc.
The Corps Network
The Education Trust
The Eisen Group
The Endocrine Society
The Every Child Matters Education Fund
The Gerontological Society of America
The Imani Project
The Myelin Project
The National Center for Learning Disabilities
The National Center on Family Homelessness
The National Crittenton Foundation
The National Indian Head Start Directors Association
The Polycystic Kidney Disease Foundation
The Salvation Army
The United Methodist Church
The Wilderness Society
Treatment Action Group
Treatment Communities of America
Treatment Systems Development
Trust for America's Health
Tufts University
Tuskegee University's College of Veterinary Medicine, Nursing, and 
    Allied Health
U.S. Water Fitness Association
U.S. Positive Women's Network
U.S. Soccer Foundation
Union for Reform Judaism
Unite 2 Fight Paralysis
United Cerebral Palsy
United Church of Christ
United Church of Christ Justice and Witness Ministries
United for Medical Research
United Neighborhood Centers of America
United Spinal Association
United States Breastfeeding Committee
UNITY, Society for the Advancement of Violence & Injury Research
Universities Research Association, Inc.
University Corporation for Atmospheric Research
U.S. Climate Action Network
U.S. Hereditary Angioedema Association
USAction
VALUEUSA
Vasculitis Foundation
Vera Institute of Justice
Voices for America's Children
Voices for National Service
Voices for Progress
W. Haywood Burns Institute
WestEd
Wider Opportunities for Women (WOW)
Women Employed
Women in Film
WomenHeart: The National Coalition for Women with Heart Disease
Women's Action for New Directions
Wonderlic, Inc.
Woodhull Sexual Freedom Alliance
Workforce Learning Strategies
World Education, Inc.
World Wildlife Fund
Young Invincibles
YouthBuild USA
YWCA USA
ZERO TO THREE
  regional, state, and local organizations (listed alphabetically, by 
                                 state)
Alabama
AIDS Alabama, Birmingham
Alabama Association for Career and Technical Education, Montgomery
Alabama Association of Secondary School Principals, Montgomery
Alabama Council of Administrators in Special Education, Guntersville
Alabama Disability Advocacy Program, University of Alabama, Tuscaloosa
Alabama School Counselor Association, Montgomery
Alabama Disabilities Advocacy Program, Tuscaloosa
Auburn Housing Authority, Auburn
Eastside Mental Health, Birmingham
Learning Disabilities Association of Alabama, Montgomery
Low Income Housing Coalition of Alabama, Birmingham
National Alliance on Mental Illness (NAMI) Shoals, Florence
Southwest Alabama Behavioral Healthcare Systems, Monroeville
The Concerned Citizens of Atmore ``Unity in the Community,'' Atmore
Unity Wellness Center Housing Department, Auburn
VOICES for Alabama's Children, Montgomery
YWCA Central Alabama, Birmingham
Alaska
Akeela Development Corporation, Anchorage
Alaska Association of Secondary School Principals, Fairbanks
Alaska Council of Administrators of Special Education, Fairbanks
Alaska Occupational Therapy Association, Anchorage
Cook Inlet Housing Authority, Anchorage
Denali Family Services, Anchorage
Disability Law Center of Alaska, Anchorage
Kawerak, Inc., Nome
Kenai Peninsula Food Bank, Soldotna
Kenai Senior Services, Kenai
Southeast Alaska Regional Health Consortium (SEARHC), Juneau
University of Alaska Anchorage, Center for Human Development, Anchorage
American Samoa
American Samoa Office of Protection & Advocacy for the Disabled, Pago 
    Pago
Arizona
Arizona Association for Lifelong Learning, Phoenix
Arizona Center for Disability Law, Tucson
Arizona Council of Administrators of Special Education, Phoenix
Arizona Housing Alliance, Phoenix
Arizona Justice Project, Phoenix
Arizona School Counselors Association, Sahuarita
Arizona State Impact Aid Association, Sacaton
Arizona Institute for Peace, Education, and Research, Tempe
Association for Career and Technical Education of Arizona (ACTEAZ), 
    Tucson
Association for Supportive Child Care, Tempe
Association of Arizona Food Banks, Phoenix
Blackwater Enterprises, Rdc, Higley
Booker T. Washington Child Development Center, Inc., Phoenix
Cedar Unified School District, Keams Canyon
Cocopah Head Start, Somerton
Community Intervention Associates, Inc., Yuma
Compass Affordable Housing, Tucson
Cornucopia Community Advocates, Sedona
Early Head Start, Littlefield
Fellowship Square Tucson, Tucson
Fort Thomas Unified School District, Fort Thomas
Foundation for Senior Living, Phoenix
Holbrook Unified School District #3, Holbrook
Hospice Family Care, Inc., Prescott
Housing America Corporation, Somerton
Local Initiative Support Corporation Phoenix, Phoenix
Mayer Elders Club, dba Mayer Area Meals on Wheels, Mayer
McDowell Healthcare Center, Phoenix
Old Pueblo Community Services, Tucson
Our Family Services, Tucson
Peach Springs USD #8, Peach Springs
Pinal County Public Health Services District, Florence
Prescott Meals on Wheels, Prescott
Sacaton Elementary School District #118, Sacaton
Teens, Training and Taxes, Parks
Tuba City Unified School District #15, Tuba City
Tucson Planning Council for the Homeless, Tucson
United Food Bank, Mesa
Valley Interfaith Project, Sun City
Whiteriver Unified School District, Whiteriver Unified School District
Window Rock Unified School District No. 8, Fort Defiance
Yarnell Senior Community Center, Yarnell
Arkansas
Area Agency on Aging of Southeast Arkansas, Inc., Pine Bluff
Arkansas Advocates for Children and Families, Little Rock
Arkansas Association of Secondary School Principals, Springdale
Arkansas Association of Student Assistance Programs, Fayetteville
Arkansas Council of Administrators in Special Education, North Little 
    Rock
Arkansas Education Association, Little Rock
Arkansas Federation of Families for Children's Mental Health (AFFCMH), 
    Little Rock
Disability Rights Center of Arkansas, Little Rock
Family Violence Prevention, Inc., Batesville
Henderson State University, Arkadelphia
Little Angels Childcare, Prescott
Little Rock Community Mental Health Center, Little Rock
Pinon Unified School District #4, Pinon
National Alliance on Mental Illness (NAMI) Arkansas, Springdale 
    Affiliate, Siloam Springs
Universal Housing Development Corporation, Russellville
California
Advocates for Peace and Justice, Irvine United Congregational Church, 
    Irvine
Affordable Housing Network of Santa Clara County, San Jose
Age Well Senior Services, Inc., Laguna Woods
AIDS Legal Referral Panel of San Francisco, San Francisco
AIDS Project Los Angeles, Los Angeles
Armona Union Elementary School District, Armona
Association of California School Administrators, Sacramento
California Association of Alcohol and Drug Abuse Counselors (CAADAC), 
    Sacramento
California Center for Public Health Advocacy, Davis
California Coalition for Rural Housing, Sacramento
California Community Colleges Chancellor's Office, Sacramento
California Council of Administrators of Special Education (CA CASE), 
    Santa Rosa
California Council of Community Mental Health Agencies, Sacramento
California Department of Public Health, Sacramento
California Hepatitis Alliance, San Francisco
California Housing Partnership, San Francisco
California Innocence Project, San Diego
California Lutheran University, Thousand Oaks
California Small School Districts' Association, Sacramento
California Teachers Association, Burlingame
California WIC Association, Sacramento
California Workforce Investment Board, Sacramento
California Association for Micro Enterprise Opportunity (CAMEO), San 
    Francisco
Central Union Elementary School District, Lemoore
Children Now, Oakland
Children's Defense Fund-California, Oakland
Church of All, Burbank
Citizen Schools California, Redwood City
Community Action Napa Valley, Napa
Community Action Partnership Food Bank of San Bernardino County, San 
    Bernardino
Community Action Partnership of San Luis Obispo County, Inc., San Luis 
    Obispo
Community Research Foundation, San Diego
Council of University of California Faculty Associations, Berkeley
Desert Manna, Barstow
Disability Rights California, Sacramento
Disability Services & Legal Center, Santa Rosa
East Bay Housing Organizations, Oakland
Epilepsy Foundation of Northern California, San Francisco
Fair Housing Council of Central California, Fresno
Fair Housing of Marin, San Rafael
First Baptist Church Head Start, Pittsburg
Foundation for Successful Solutions, Los Angeles
Fresno County EOC Head Start, Fresno
HIV ACCESS, Alameda County
Housing Authority of the City of Calexico (HACC), Calexico
Housing Authority of the City of Santa Barbara, Santa Barbara
Housing Authority of the City of Upland, Upland
Housing California, Sacramento
Housing Rights Committee of San Francisco, San Francisco
Independent Living Resource Center San Francisco, San Francisco
Interdisciplinary Leadership Education in Neurodevelopmental and 
    Related
Disabilities Training Program (CA-LEND), Los Angeles
Irvine Meals on Wheels, Irvine
Jewish Labor Committee Western Region, Los Angeles
Kalusugan (Good Health) Community Services, National City
Kings County Charter--Association of California School Administrators, 
    Hanford
Kings County Office of Education, Hanford
Kings River-Hardwick Elementary School District, Hanford
KyotoUSA, Berkeley
Lake Family Resource Center, Kelseyville
Lakeside Union Elementary School District, Hanford
Lemoore Union High School District, Lemoore
Lincoln Child Center, Oakland
Local Child Care Planning Council, Oroville
Local Government Commission, Sacramento
Local Initiatives Support Corporation Bay Area, San Francisco
Local Initiatives Support Corporation Los Angeles, Los Angeles
Local Initiatives Support Corporation San Diego, San Diego
Los Angeles Area Chamber of Commerce, Los Angeles
Los Angeles Unified School District (LAUSD), Los Angeles
Meals-on-Wheels Greater San Diego, Inc., San Diego
Mending Wheel, Fortuna
Mental Health America of California, Sacramento
Mexican American Opportunity Foundation, Montebello
Mizell Senior Center, Palm Springs
Momentum for Mental Health, San Jose
Monterey County Health Department WIC Program, Salinas
Muroc Joint Unified School District, Edwards
Napa Valley Community Housing, Napa
National Alliance on Mental Illness (NAMI) Yolo County, Davis
National Council of Jewish Women, Contra Costa Section, Walnut Creek
National Council of Jewish Women, Long Beach Section, Huntington Beach
National Council of Jewish Women, Los Angeles
National Council of Jewish Women, Sacramento
National Council of Jewish Women, Topanga
New Life Advocacy, Los Angeles
Northern California Innocence Project, Santa Clara University School of 
    Law, Santa Clara
Oceanside Unified School District, Oceanside
Oldtimers Housing Development Corporation--IV, Huntington Park
Pacific Asian Consortium in Employment (PACE), Los Angeles
Parent Voices El Dorado County Chapter, South Lake Tahoe
Parent Voices Southern Alameda County, Hayward
Parents' Place Family Resource and Empowerment Center, West Covina
Peninsula Volunteers Inc, Menlo Park
Portia Bell Hume Behavioral Health and Training Center, Concord
PowerWorks, San Francisco
Project Sister Family Services, Pomona
RESULTS Domestic, Los Angeles
Sacramento Housing Alliance, Sacramento
San Diego Housing Federation, San Diego
San Fernando Valley Community Mental Health Center, Inc, Van Nuys
San Gaberial Valley/Whittier Chapter of NOW, Fontana
San Mateo County HIV Program Community Board, San Mateo County
Santa Cruz Community Counseling Center Head Start, Santa Cruz
Senior Network Services, Santa Cruz
Senior Services Coalition of Alameda County, Oakland
Shasta Senior Nutrition Programs, Redding
Sierra Cascade Family Opportunities Head Start, Susanville
Sierra Cascade Family Opportunities, Inc., Quincy
Sierra Senior Providers, Inc., Sonora
Silver Valley Unified School District, Yermo
SRO Housing Corporation, Los Angeles
State of California Office of AIDS Surveillance Section, Fresno
Stop the GA Cuts Coalition, Oakland
Tarjan Center at UCLA, Los Angeles
The Non-Profit Housing Association of Northern California, San 
    Francisco
The Occupational Training Institute, Foothill-De Anza Community College 
    District, Cupertino
The Public Interest Law Project, Oakland
The Wall Las Memorias Project, Los Angeles
Time for Change Foundation, San Bernardino
United Administrators of San Francisco, San Francisco
University of California (U.C.) Riverside Faculty Association, 
    Riverside
University of California (U.C.) Berkeley Faculty Association, Berkeley
University of California at Davis Faculty Association, Davis
University of California Santa Cruz Faculty Association, Santa Cruz
University of Southern California School of Pharmacy
Violence Prevention Coalition of Greater Los Angeles, Los Angeles
Volunteers of America Los Angeles, Los Angeles
Watts/Century Latino Organization, Los Angeles
Westside Progressives, Los Angeles
Women Organized to Respond to Life-threatening Diseases (WORLD), 
    Oakland
Rural Community Assistance Corporation, West Sacramento
Colorado
Academy School District #20, Colorado Springs
Adams County School District #14, Commerce City
Adams County Workforce and Business Center, Brighton
Boulder County Network, Boulder
Colorado Association for Career and Technical Education, Denver
Colorado Association of School Executives, Englewood
Colorado Campus Compact, Denver
Colorado Center on Law and Policy, Denver
Colorado Chapter of ASPIRE, Denver
Colorado Children's Campaign, Denver
Colorado Education Association, Denver
Colorado School Counselor Association, Denver
Colorado School Social Work Association, Fort Collins
Colorado Thespians--Educational Theatre Association, Denver
Colorado Urban Workforce Alliance, Denver
Community Reach Center, Thornton
Community Strategies Institute, Denver
Denver's Great Kids Head Start, Denver
Federation of Families for Children's Mental Health, Colorado Chapter, 
    Denver
FRESC: Good Jobs, Strong Communities, Denver
Healthy Colorado Youth Alliance, Denver
Housing Resources of Western Colorado, Grand Junction
Ignacio School District 11JT, Ignacio
LeaderQuest, Denver
Mental Health America of Colorado, Denver
Occupational Therapy Association of Colorado, Denver
Occupy Greeley, Greeley
Public Allies at Eagle Rock School, Estes Park
Regis University, Denver
Rocky Mountain Wild, Denver
Servicios de La Raza, Inc., Denver
Sexual Assault Response Advocates (S.A.R.A)., Inc., Fort Morgan
Southern Ute Indian Tribe, Ignacio
The Bell Policy Center, Denver
The Legal Center for People with Disabilities and Older People, Denver
The Pendulum Foundation, Denver
Connecticut
1199NE Training and Upgrade Fund, Hartford
All Our Kin, Inc., New Haven
BHcare, Ansonia
Bridgeport Council of Administrators and Supervisors, Bridgeport
Center for Latino Progress--CPRF, Hartford
Collaborative Center for Justice, Inc., Hartford
Connecticut AIDS Resource Coalition, Hartford
Connecticut Association of Directors of Health, Hartford
Connecticut Association of School Psychologists, Bridgeport
Connecticut Association of School Social Workers (CASSW), New Haven
Connecticut Association of Schools, Cheshire
Connecticut Community College System, Hartford
Connecticut Education Association, Hartford
Connecticut Federation of School Administrators, Cromwell
Connecticut Food Bank, East Haven
Connecticut Housing Coalition, Wethersfield
Connecticut Voices for Children, New Haven
Connecticut Women's Education and Legal Fund (CWEALF), Hartford
Eastern Highlands Health District, Storrs
Family Services of Greater Waterbury, Waterbury
FSW, Bridgeport
Gilead Community Services, Middletown
Holy Family Home and Shelter, Inc., Willimantic
LAMPP Project- Connecticut Children's Medical Center, Hartford
Local Initiatives Support Corporation, Hartford
National Alliance on Mental Illness (NAMI) Farmington Valley, Avon
Norwich School Administrator's Association, Norwich
Our Piece of the Pie, Hartford
Public Assisted Housing Resident Network (PHRN), Norwalk
Region 16 Administrators Association, Prospect
Regional School District 16, Prospect
Saint Francis Hospital and Medical Center, Hartford
Sexual Assault Crisis Center of Eastern CT, Inc., Willimantic
St. Philip House, Plainville
University of Connecticut A.J. Pappanikou Center for Excellence in 
    Developmental Disabilities Education,
Research and Service, Farmington
Village for Families and Children, Hartford
Wellmore Behavioral Health, Waterbury
Woodland Regional High School, Beacon Falls
Delaware
Delaware Association of School Psychologists, Wilmington
Delaware State Education Association, Dover
Epilepsy Foundation of Delaware, Wilmington
Ministry of Caring, Inc., Wilmington
District of Columbia
Clearinghouse on Women's Issues
Council of School Officers, American Federation of School 
    Administrators, Local 4, AFL-CIOD.C.
D.C. Behavioral Health Association
D.C. LEARNs
D.C. Coalition Against Domestic Violence
Defeat Poverty D.C.
District of Columbia Occupational Therapy Association
Edward C. Mazique Parent Child Center, Inc.
Georgetown University Center for Excellence in Developmental 
    Disabilities (UCEDD)
Georgetown Center for Poverty, Inequality and Public Policy
Georgetown University Medical Center
Living Wages Adult Education Program
Local Initiatives Support Corporation Washington, D.C.
National Association of Local Housing Finance Agencies
Potomac Gardens Resident Council
Public Allies Washington, D.C.
RESULTS D.C. Volunteer Group
United Way of the National Capital Area
Florida
1000 Friends of Florida, Tallahassee
Ability Housing of Northeast Florida, Inc., Jacksonville
Adult and Community Educators of Florida, Inc., Tallahassee
Bond Community Health Center, Inc., Tallahassee
Broward Meals on Wheels, Fort Lauderdale
Catholic Charities Housing, Diocese of Venice, Inc., Sarasota/Venice
Center for Independent Living of South Florida, Inc., Miami
Children's Forum, Tallahassee
Christian Coalition Against Domestic Abuse, Miami
City of Deerfield Beach, Deerfield Beach
Coalition for Independent Living Options, West Palm Beach
Community Coalition on Homelessness, Bradenton
Community Enterprise Investments Inc., Pensacola
Community Justice Project--Florida Legal Services, Miami
Dab the AIDS Bear Project, Oakland Park
Daytona State College, Daytona Beach
Department of Community Development, Miami
Depression and Bipolar Support Alliance (DBSA), St. Cloud
disAbility Solutions for Independent Living, Inc., Daytona Beach
Documents International, St. Petersburg
Dunbar Center, Inc., Hobe Sound
Epilepsy Foundation of Florida, Miami
Familias Latinas Dejando Huellas, Tampa
Farmworker Association of Florida, Apopka
Florida Alliance of Community Development Corporations, Inc., 
    Jacksonville
Florida Alliance for Health, Physical Education, Recreation, Dance and 
    Sport, Parkland
Florida CASE, Archer
Florida Center for Fiscal and Economic Policy, Tallahassee
Florida Education Association, Tallahassee
Florida HIV/AIDS Advocacy Network, Oakland Park
Florida HIV/AIDS Patient Care Planning Group, Freeport
Florida School Counselor Association, Safety Harbor
Florida Supportive Housing Coalition, Tallahassee
Fusion, Wilton Manors
Gay Free If You Want To Be, Clearwater
Heart of Putnam Coalition, Palatka
Helen B. Bentley Family Health Center, Miami
Homes in Partnership, Inc., Apopka
Hope and Help Center of Central Florida, Inc., Orlando
Housing and Homeless Assistance Program, North Miami
Innocence Project of Florida, Tallahassee
Life Management Center of Northwest Florida, Panama City
Local Initiatives Support Corporation, Jacksonville
Meals on Wheels, Etc., Sanford
Miami Coalition for the Homeless, Inc., Miami
National Alliance on Mental Illness (NAMI) & Depression and Bipolar 
    Support Alliance, Lakeland
National Council of Jewish Woman Miami, Miami
National Council of Jewish Women Aventura, Aventura
National Council of Jewish Women Greater Miami Section, Miami
National Council of Jewish Women Hollywood, Hollywood
National Council of Jewish Women Southeast Atlantic Section, Boca Raton
Neighborly Care Network, Inc., Clearwater
North Florida Educational Development Corporation, Gretna
Northwest Florida AIDS/HIV Consortium (NOFLAC), Brent
Planned Parenthood of South Florida and the Treasure Coast, West Palm 
    Beach
Positive Champions Speakers Bureau, Daytona Beach
Positively U, Inc., Davenport
Rural Neighborhoods, Inc., Homestead
Sanford Housing Authority Agency-Wide Resident Council, Sarasota
South Florida Community Development Coalition, Miami
St. Johns County Council on Aging, St. Augustine
St. Johns River Alliance, Jacksonville Beach
Sugarloaf Women's Land Trust, Sugarloaf Key
Suncoast Partnership to End Homelessness, Sarasota
Tampa Housing Authority, Tampa
The Florida Housing Coalition, Tallahassee
The Good Shepherd of North East Florida, Inc., Lake City
The Mental Health Association of Okaloosa/Walton Counties, Fort Walton 
    Beach
United Faculty of Florida, Tallahassee
Georgia
AID Gwinnett/Ric Crawford Clinic, Duluth
Armstrong Atlantic State University (AASU), Savannah
Augusta Housing Authority, Augusta
BAIN, Inc. Center for Independent Living, Bainbridge
Center for Leadership in Disability, Atlanta
DEW Consultants, Inc., Roswell
Douglas County Homeless Shelter, Douglasville
East Point Housing Authority, East Point
Epilepsy Foundation of Georgia, Atlanta
Families First, Inc., Atlanta
Family Visions Outreach, Inc., Sylvester
G-CASE, McDonough
Georgia Alliance to End Homelessness, Marietta
Georgia Association of Secondary School Principals, Thomasville
Georgia Council of Administrators for Special Education, McDonough
Georgia Parent Support Network, Inc., Atlanta
Georgia School Counselors Association, Marietta
Georgia State University Center for Leadership in Disability, Atlanta
Georgia Supportive Housing Association, Atlanta
Grady Health System, Atlanta
Here's to Life, Inc., Decatur
HOPE Atlanta Programs of Travelers Aid, Atlanta
Housing Authority of DeKalb County, Decatur
Liberty County Board of Education, Hinesville
Liberty County Public School System, Hinesville
Lou Walker Senior Center, Lithonia
Northwest Georgia Federation of Families, Rome
Peak Performance Learning, L.L.C., Atlanta
Sexual Assault Support Center, Inc., Columbus
SisterLove, Inc., Atlanta
Sisters of Mercy, Macon
South Fulton Senior Services, College Park
STEM, Inc., Covington
The Cottage, Sexual Assault Center & Children's Advocacy Center, Athens
Urban Residential Development Corporation, Atlanta
Briarcliff Oaks, Atlanta
Guam
University of Guam Center for Excellence in Developmental Disabilities 
    (UCEDD), Mangilao
Hawaii
Community Alliance for Mental Health, Honolulu
Good Beginnings Alliance, Honolulu
Hawaii Association of Secondary School Administrators, Honolulu
Hawaii Association of School Librarians, Honolulu
Hawaii County Economic Opportunity Council, Hilo
Hawaii Policy Advisory Board for Elder Affairs, Honolulu
Hawaii State Council on Developmental Disabilities, Honolulu
Hawaii State Department of Education, Honolulu
Hawaii State Office of Youth Services, Honolulu
Hawaii State Teachers Association, Honolulu
Lanakila Pacific, Honolulu
Learning Disabilities Association of Hawaii, Honolulu
Iowa
Black Hawk-Grundy Mental Health Center, Inc., Waterloo
Chickasaw County Public Health and Home Care Services, New Hampton
Child and Family Policy Center, Des Moines
Community Health Partners of Sioux County, Orange City
Crisis Intervention Services, Oskaloosa
Disability Rights Iowa, Des Moines
Dubuque Franciscan Sisters, Dubuque
Heritage Area Agency on Aging, Cedar Rapids
Iowa Association for College Admission Counseling, Newton
Iowa Association of Community Providers, Urbandale
Iowa Coalition 4 Juvenile Justice, Des Moines
Iowa Comprehensive Human Services, Des Moines
Iowa Council of Administrators of Special Education I-CASE, Des Moines
Iowa Federation of Families for Children's Mental Health, Anamosa
Iowa School Social Work Association, Des Moines
Jackson County Home and Community Health, Maquoketa
Kirkwood Community College, Cedar Rapids
Lincoln Mental Health, Fort Dodge
Monona County Public Health, Onawa
North Fayette High School, West Union
PITCH, Milford
Positive Iowans Taking Charge, Des Moines
Siouxland District Health Department, Sioux City
Sisters of the Presentation, Dubuque
State Public Policy Group Inc., Des Moines
The Culture Buzz, Des Moines
Tri-County Child and Family Development Council, Inc., Waterloo
United Way of Central Iowa, Des Moines
Waubonsie Mental Health Center, Clarinda
Idaho
Aberdeen Education Association, Aberdeen
Boise State University, Boise
Buhl Education Association, Buhl
Cambridge-Midvale Senior Citizens Center, Cambridge
Cassia County Education Association, Burley
Castleford School District, Castleford
Challis Education Association, Challis
Coeur d'Alene Education Association, Coeur d'Alene
Family Crisis Center, Rexburg
Filer Education Organization, Filer
Gem County Education Association, Emmett
Idaho Association of School Administrators, Boise
Idaho CASE, Boise
Idaho Council for Exceptional Children, Boise
Idaho Council on Developmental Disabilities, Boise
Idaho Education Association, Boise
Idaho Education Association, Coeur d'Alene
Idaho Education Association, Post Falls
Idaho Federation of Families for Children's Mental Health, Boise
Kimberly Education Association, Kimberly
Lakeland Education Association, Rathdrum
Meadows Valley Education Association, New Meadows
Minidoka County Education Association, Rupert
Plummer-Worley Jt School District #44, Plummer
Post Falls Educational Association, Post Falls
Richfield IEA, Richfield
Rimrock Senior Center, Grand View
Ririe Education Association, Ririe
Rockland Education Association, Rockland
Teton Education Association, Felt
The New Meadows Senior Center, New Meadows
Twin Falls Education Association, Twin Falls
Twin Falls School District, Twin Falls
Valley Meals on Wheels, Lewiston
West Ridge Elementary, Post Falls
Illinois
ACTE, Springfield
Aging Care Connections, La Grange
AIDS Foundation of Chicago, Chicago
AIDS Legal Council of Chicago, Chicago
Alexian Brothers AIDS Ministry, Chicago
Burr Ridge Community Consolidated School District #180, Burr Ridge
Calumet Area Industrial Commission, Chicago
Campaign for Better Health Care, Illinois, Champaign and Chicago
Canticle Ministries, Wheaton
Career Link, Bloomington
Casa Central, Chicago
Cass School District #63, Darien
Central Illinois Friends of People with AIDS, Peoria
Chicago Jobs Council, Chicago
Chicago Rehab Network, Chicago
Chicago Workforce Investment Council, Chicago
Children's Home and Aid, Chicago
Citizen Schools Illinois, Chicago
City of Chicago Department of Family & Support Services, Chicago
City of Kankakee Community Development Agency, Kankakee
Coalition for Equitable Community Development, Chicago
Community Behavioral Healthcare Association of Illinois, Springfield
Community Outreach Intervention Projects, SPH, UIC, Chicago
Connect 2 Protect Chicago, Chicago
Connections for Abused Women and their Children, Chicago
Cook County GED Testing Program, Chicago
Department of Human Services, Woodstock
DuPage Senior Citizens Council, DuPage County
DuPage Workforce Board, Lisle
East Central Illinois Area Agency on Aging, Bloomington
Educational Support for Students in Temporary Living Situations (STLS), 
    Chicago
Egyptian Mental Health Department, Eldorado
Goldie's Place, Chicago
Haymarket Center, Chicago
Housing Action Illinois, Chicago
Housing Authority of the County of DeKalb, DeKalb
Human Resources Development Institute, Inc., Chicago
IACEA: The Voice of Adult Education in Illinois, Crystal Lake
Illinois Association for College Admission Counseling, Mt. Prospect
Illinois Association of Career Tech Educators, Rockford
Illinois Association of Educational Opportunity Program Personnel, 
    Chicago
Illinois Community College Board Adult Education and Family Literacy 
    Program, Springfield
Illinois Eastern Community Colleges, Mattoon
Illinois Lead Program, Springfield
Illinois Maternal and Child Health Coalition, Chicago
Illinois Migrant Council, Harvard
Illinois Principals Association, Springfield
Illinois School Counselor Association, DeKalb
Illinois School Counselors Association, Chicago
Illinois School Library Media Association, Canton
Institute on Disability and Human Development, Chicago
Interfaith Open Communities, Chicago
Jewish Council on Urban Affairs, Chicago
Lake County Center for Independent Living, Mundelein
Lake County Workforce Investment Board, Waukegan
Learning Disabilities Association of Illinois, Chicago
Lifescape Community Services, Inc., Rockford
Living Daylight Corporation, Elgin
Local Initiatives Support Corporation Chicago, Chicago
Local Initiatives Support Corporation Peoria, Peoria
Manufacturing Technology Institute, Richard J. Daley College, Chicago
Mary Crane League, Chicago
Mascoutah Community Unit School District #19, Mascoutah
Mascoutah Senior Services Program, Mascoutah
McHenry County Workforce Investment Board, Woodstock
McHenry County Workforce Network, Woodstock
National Council of Jewish Women, Illinois State Policy Advocacy 
    Committee, Chicago
New Foundation Center, Northfield
Oak Park Coalition for Truth and Justice, Oak Park
Open Door Clinic, Elgin
Ounce of Prevention Fund, Chicago
Pediatric AIDS Chicago Prevention Initiative, Chicago
Prairie Center Against Sexual Assault, Springfield
RAMP Center for Independent Living, Rockford
Randolph County Health Department, Chester
Regional CARE Association, Joliet
Rock Island County Health Department, Rock Island
Rock River Training Corporation, Rockford
Safe Kids Adams County, Quincy
SIL Radon Awareness Task Force, Inc., Mt Vernon
Southside Solidarity Network, Chicago
St. Catherine Laboure Parish, Glenview
St. Joan of Arc Social Justice & Peace, Lisle
Stroger Hospital of Cook County, Chicago
Supportive Housing Providers Association of Illinois, Springfield
Test Positive Aware Network, Publisher of Positively Aware Magazine, 
    Chicago
The Children's Place Association, Chicago
The Safer Foundation, Chicago
Trinity Resources Unlimited, Inc., Chicago
University of Illinois, Urbana
Vermilion County Job Training Partnership, Danville
West Suburban Jobs Council, Wheaton
Western Illinois Area Agency on Aging, Rock Island
Wheaton Franciscans, Wheaton
YWCA of the Sauk Valley, Sterling
Heartland Alliance, Chicago
Illinois Alliance of Administrators of Special Education, Lebanon
Illinois School Counseling Association, Chicago
Illinois School Psychologist's Association, Chicago
Interfaith House, Chicago
Mary Crane Center- Head Start, Chicago
Minority AIDS Awareness Council (MAAC), Peoria
People for Community Recovery, Chicago
Senior Services Plus, Alton
St. Vincent de Paul Center, Chicago
YWCA Metropolitan Chicago, Chicago
Indiana
Area IV Head Start, Frankfort
Association of Indiana School Library Educators, Indianapolis
ATTIC, Inc., Vincennes
Brown County Schools, Nashville
Community Action of Northeast Indiana, Inc. (CANI) Head Start and Early 
    Head Start, Fort Wayne
Fulton County Health Department, Rochester
Housing Authority City of Richmond, Richmond
Housing Authority of South Bend, South Bend
ICASE, Madison
Indiana Association of Area Agencies on Aging, Indianapolis
Indiana Council of Community Mental Health Centers, Inc., Indianapolis
Indiana Council of Special Education Administrators, Indianapolis
Indiana Institute for Working Families, Indianapolis
Indiana School Counselor Association, Lafayette
Indiana School Social Work Association, Mooresville
Indiana State AFL-CIO Labor Institute for Training, Inc., Indianapolis
Indiana State Teachers Association, Indianapolis
INFBPW/Merrillville-Duneland, Schererville
Kokomo Area Special Education Cooperative, Russiaville
Local Initiatives Support Corporation Indianapolis, Indianapolis
Logansport Area Joint Special Services Cooperative, Logansport
Madison County JobSource, Anderson
Mental Health America in Cass County, Logansport
Middle Way House, Inc., Bloomington
Midwest Center for Youth and Families, Valparaiso
Northwest Indiana Special Education Cooperative, Crown Point
Porter-Starke Services, Inc., Valparaiso
The Riley Child Development Center, Riley Hospital for Children, 
    Indianapolis
Training, Inc., Indianapolis
YWCA North Central Indiana, South Bend
Kansas
Aging Projects, Inc., Hutchinson
Butler County Health Department, El Dorado
Center for Child Health and Development, Kansas City
Clinical Psychologist, Iola
COMCARE, Wichita
ECKAN, Ottawa
Geary County Unified School District #475, Junction City
Great Plains Association for College Admission Counseling, Overland 
    Park
HOMESTEAD Nutrition Project, Hays
Independent Living Resource Center, Wichita
Johnson County Area Agency on Aging, Olathe
Johnson County Department of Health & Environment, Olathe
Kansas Adult Education Association, Paola
Kansas Association of School Librarians, Larned
Kansas Association of Secondary School Principals, Halstead
Kansas Head Start Association, Lawrence
Kansas National Education Association, Topeka
Kansas Occupational Therapy Association, Topeka
Kansas School Social Work Association, Wichita
Kansas University Center on Developmental Disabilities, Lawrence
Kanza Mental Health and Guidance Center, Inc., Hiawatha
Meals on Wheels Association of Kansas, Ottawa
Missouri Valley Adult Education Association, Paola
Newton Housing Authority, Newton
Olathe National Education Association, Olathe
Parsons Housing Authority, Parsons
Prairie Independent Living Resource Center, Inc., Hutchinson
Senior Services of Southeast Kansas, Inc., Coffeyville
SKIL Resource Center, Parsons
Statewide Independent Living Council of Kansas, Topeka
Southwest Boulevard Family Health Care, Kansas City
Three Rivers Independent Living, Inc., Wamego
Kentucky
Appalbanc, Inc., Berea
Ashland County Community and Technical College/Boyd County Adult 
    Education, Ashland
Audubon Area Community Services, Inc., Owensboro
Beattyville Housing & Development Corporation, Inc., Beattyville
Central Kentucky Community Action Council, Inc., Lebanon
Central Kentucky Community Action Head Start, Lebanon
Central Kentucky Housing & Homeless Initiative, Lexington
Christian County Health Department, Hopkinsville
Commonwealth Council on Developmental Disabilities, Frankfort
Cumberland Valley Housing Authority, Williamsburg
Florence Crittenton Home & Services, Inc., Lexington
Floyd County Health Department, Prestonsburg
Hardin County Adult Education, Elizabethtown
Head Start, Paducah
Kentucky Association for Career and Technical Education, Frankfort
Kentucky Communities Economic Opportunity Council, Corbin
Kentucky Council of Administrators of Special Education, Lexington
Kentucky Domestic Violence Association, Frankfort
Kentucky School Media Association, Frankfort
Kentucky Youth Advocates, Louisville
KY HANDS Home Visitation Program, Kentucky Department for Public 
    Health, Frankfort
Louisville Peace Action Community, Louisville
Louisville-Metro Senior Nutrition Program, Louisville
Mountain Association for Community Economic Development, Berea
New Beginnings Sexual Assault Support Services, Owensboro
Pathways, Inc., Ashland
People's Self-Help Housing, Inc., Vanceburg
Senior Services of Northern Kentucky, Covington
SeniorCare Experts, Louisville
The Catalytic Fund, Covington
The Kentucky Association for Psychology in the Schools, Mount 
    Washington
The Pulaski Adult Learning Center, Somerset
Todd County Adult Education, Elkton
University of Kentucky, Lexington
West Kentucky Allied Services, Inc., Mayfield
Western Kentucky University Department of Family and Consumer Sciences, 
    Bowling Green
Louisiana
A Community Voice--Louisiana, New Orleans
Advocacy Center, New Orleans
Brand New Attitude, New Orleans
Greater New Orleans Fair Housing Action Center, New Orleans
Gulf Area Training Enterprises, L.L.C., New Orleans
Innocence Project New Orleans, New Orleans
Louisiana Association of Educators, Baton Rouge
Louisiana Association of Principals, Winnfield,
Louisiana Federation of Families for Children's Mental Health, Inc., 
    Baton Rouge
Louisiana Housing Alliance, Baton Rouge
Louisiana Lung Cancer Partnership, Lake Charles
Louisiana State University Health Sciences Center-Human Development 
    Center, New Orleans
N'R PEACE, Inc., Gretna
Southwest Louisiana AIDS Council, Lake Charles
Southwest Louisiana Independence Center, Lake Charles
Tulane University, New Orleans
Maine
Center for Community Inclusion and Disability Studies, Orono
Coastal Enterprises, Inc. (CEI), Wiscasset
Community Housing of Maine, Portland
CWS Architects, Portland
Graham Behavioral Services, Inc., Augusta
Maine Association of School Psychology, Kennebunk
Maine Children's Alliance, Augusta
Maine Marine Trades Association, Biddeford
Maine People's Alliance, South Portland
New England Association for College Admission Counseling, Kittery
New England Consortium Poverty Reduction Initiative, South Portland
New Hampshire Educational Opportunity Association, Eliot
New Hampshire Leadership Education in Neurodevelopmental and Related 
    Disabilities (NH-LEND), Durham
Opportunity Maine, Portland
Portland Housing Authority, Portland
The Horizon Program, Augusta
The Maine Association for Mental Health Services, Augusta
The Maine Association of Substance Abuse Programs, Augusta
TRiO at Plymouth State University, Durham
Maryland
Advocacy and Training Center, Cumberland
Advocates for Children and Youth, Baltimore
Allegany County Teachers' Association, Cumberland
Anne Arundel County Community Action Agency, Annapolis
Baltimore County Association of Senior Citizens Organizations (BCASCO), 
    Baltimore County
Baltimore County Public Schools--Education Support Professionals of 
    Baltimore County, Baltimore
Baltimore County Public Schools (BCPS), Nottingham
Baltimore Workforce Investment Board, Baltimore
Calvert Association of Supervisors and Administrators, Prince Frederick
Cecil County Classroom Teachers Association (CCCTA), Elkton
Cecil County Public Schools, Conowingo
Channel Marker, Inc., Easton
Community Behavioral Health Association of Maryland, Catonsville
Education Association of St. Mary's County, California
Education Support Professionals of Baltimore County (ESPBC), Baltimore
Elkton Housing Authority, Elkton
Empire Homes of Maryland, Inc., Baltimore
Frederick Association of School Support Employees, Mount Airy
Fund Our Communities, Kensington
Garrett County Community Action Committee, Oakland
Head Start of Washington County, Hagerstown
IEC Chesapeake, Odenton
Ivory House Health Services, Lutherville
Kennedy Krieger Institute, Baltimore
Legal Aid Bureau, Inc., Baltimore
LifeLinc of Maryland, Baltimore
Maryland Association of Secondary School Principals, Ellicott City
Maryland Campus Compact, Emmitsburg
Maryland Department of Labor, Licensing, and Regulation, Division of 
    Workforce Development and Adult
Learning, Baltimore
Maryland Disability Law Center, Baltimore
Maryland State Education Association, Annapolis
Maryland United for Peace & Justice, Bowie
Maryland Rural Development Corporation and MRDC Head Start, Annapolis
Montgomery County Education Association, Rockville
Montgomery Housing Partnership, Silver Spring
National Alliance on Mental Illness (NAMI), Maryland, Columbia
National Council of Jewish Women Howard County, MD. Section, Columbia, 
    Ellicott City, Clarksville
Peace Action Montgomery, Brookeville
PeterCares House, Greenbelt
Potomac Association of Housing Cooperative, Baltimore
Prince George's County Educators' Association, Forestville
Progressive Cheverly, Cheverly
Public Justice Center, Baltimore
Reservoir Hill Mutual Homes, Inc., Baltimore
RESULTS, Laurel
Simon Publications, Bethesda
St. Bernardine's Head Start, Baltimore
The Alliance for Integrative Health Care, Baltimore
The Beacon Newspapers, Silver Spring
The Freedom Center, Frederick
University of Maryland School of Medicine, Baltimore
Upper Bay Counseling & Support Services, Elkton
Vehicles for Change, Baltimore
Veterans For Peace--Washington, D.C.-Area Chapter, Rockville
Volunteers of America Chesapeake, Inc., Lanham
Xaverian Brothers, Baltimore
YWCA Greater Baltimore, Baltimore
Massachusetts
AIDS Action Committee of Massachusetts, Boston
AIDS Project Worcester, Worcester
Alliance of Cambridge Tenants (ACT), Cambridge
Amory Street Associates, Waltham
Association for Behavioral Healthcare, Natick
Asthma and Allergy Foundation of America, New England Chapter, Needham
Barnstable County HOME Consortium, Barnstable
Bedford Youth & Family Services, Bedford
Behind Locked Doors, Newton
Bellingham Housing Authority, Bellingham
Boston Public Health Commission, Boston
Brigham and Women's Hospital, Boston
Cambridge Economic Opportunity Committee, Inc., Cambridge
Cambridge Neighborhood Apartment Housing Services, Cambridge
Cape Cod Children's Place, North Eastham
Career Center Initiative Board, Partnership for A Skilled Workforce, 
    Waltham
CareerPOINT Career Center, Chicopee
CASPAR Inc., Cambridge & Somerville
Child Tools Consulting, Fitchburg
Citizen Schools Massachusetts, Boston
Citizens' Housing and Planning Association (CHAPA), Boston
Conservation Law Foundation, Boston
Disability Law Center, Massachusetts, Boston
Epilepsy Foundation of Massachusetts, Rhode Island, New Hampshire, and 
    Maine, Inc., Boston
Family Promise Metrowest, Natick
Harbor Health Services, Inc., Boston
Heaven In View Outreach Ministry, Inc., Springfield
Homeowners Rehab, Inc., Cambridge
Housing Corporation of Arlington, Arlington
Independence Associates, Inc., Center for Independent Living, Brockton
Jewish Vocational Service: Boston, Boston
Local 201 IUE/CWA, Greenfield
Local Initiatives Support Corporation Boston, Boston
Massachusetts Advocates Standing Strong, Boston
Massachusetts Families Organizing for Change (MFOFC), Raynham
Massachusetts Music Educators Association, Inc., South Attleboro
Massachusetts Organization for Addiction Recovery, Boston
Massachusetts School Counselors Association, Boston
Massachusetts School Psychologists Association (MSPA), Boston
Massachusetts Secondary School Administrators' Association, Franklin
Massachusetts Teachers Association, Boston
Massachusetts Vocational Association, East Freetown
Massachusetts General Hospital, Boston
McLean Hospital, Belmont
Museum of Science, Boston
National Alliance on Mental Illness (NAMI) Cape Ann, Inc., Gloucester
Natick Housing Authority, Natick
National Association of Social Workers, Dorchester
Northeast Counselors Association, Groveland
One Family, Inc., Boston
PACE, Inc. Housing Services, New Bedford
Partners HealthCare, Boston
Partnerships for a Skilled Workforce, Inc., Marlborough
Pine Street Inn, Boston
Pioneer Valley Planning Commission, Springfield
RCAP Solutions, Inc., Worcester/Gardner
RESULTS Boston, Boston
SkillWorks, Brookline
Somerville Homeless Coalition, Somerville
South Middlesex Opportunity Council, Inc., Framingham
South Shore Mental Health, Quincy
Spaulding Rehabilitation Hospital, Boston
Technology for Memory and Organization, Walpole
TenHoor and Associates, Duxbury
The Caleb Group, Swampscott
The Massachusetts Administrators for Special Education (ASE), Cambridge
Tohn Environmental Strategies, Wayland
Training, Inc., Boston
TRI-City Community Action Program, Malden
Tri-Valley, Inc., Dudley
Wayside Youth & Family Support Network, Framingham
Woods Hole Oceanographic Institution, Woods Hole
Michigan
A2FACES: Ann Arbor Families for Autistic Children, Ann Arbor
Advocacy Services for Kids, Kalamazoo
American Cancer Society, East Lansing
American Federation of School Administrators (AFSA)--Michigan, Detroit
Ann Arbor Public Schools, Ann Arbor
Area Agency on Aging 1-B, Southfield
Association for Children's Mental Health, Lansing
Center for Civil Justice, Saginaw
Communities Overcoming Violent Encounters, Ludington
Community Economic Development Association of Michigan (CEDAM), Lansing
Developmental Disabilities Institute, Detroit
Dial Help Community Support and Outreach Center, Houghton
Disruptive Innovations for Social Change, Grand Rapids
Epilepsy Foundation of Michigan, Southfield
Ferris State University College of Pharmacy, Big Rapids
Flint Strive, Flint
Focus: HOPE, Detroit
Hand Up, Inc. Nonprofit Organization, Romulus
Holy Innocents Episcopal Church, Little Lake
Jackson Area Manufacturers Association, Jackson
Jewish Labor Committee--Michigan Region, Detroit
Kent Regional Community Coordinated Child Care, Grand Rapids
Learning Disabilities Association of Michigan, Lansing
Leland Public School, Leland
Levin Energy Partners, LLC, Bloomfield Hills
LifeWays, Jackson
Local Initiatives Support Corporation Detroit, Detroit
Local Initiatives Support Corporation Michigan Statewide, Kalamazoo
Matrix Human Services, Detroit
Michigan Alliance of Cooperatives, Blanchard
Michigan Association for College Admission Counseling, East Lansing
Michigan Association for Health, Physical Education, Recreation and 
    Dance, Lansing
Michigan Association of Administrators of Special Education (MAASE), 
    Holland
Michigan College Access Programs and Personnel, Marquette
Michigan Community Action Agency Association, Okemos
Michigan Community Service Commission, Lansing
Michigan Disability Rights Coalition, East Lansing
Michigan Music Education Association, Jackson
Michigan Protection and Advocacy Services, Lansing
Michigan School Counselor Association, Grand Rapids
Michigan's Children, Lansing
Mott Community College Workforce Development, Flint
Northwest Michigan Community Action Agency, Traverse City
Organization of School Administrators and Supervisors (OSAS) Local 28--
    American Federation of School Administrators 9AFSA, Detroit
Ottawa County Great Start Collaborative, Holland
Ottawa County Great Start Parent Coalition, Allendale
Paw Paw Housing Commission, Paw Paw
Provider Alliance of the Michigan Association of Community Mental 
    Health Boards, Lansing
RESULTS, Greater Detroit
Saginaw County Youth Protection Council, Saginaw
Sault Area Public Schools, Sault Ste. Marie
Save Michigan Seniors, Kalamazoo
Senior Nutrition Services, Region IV, Benton Harbor
Shiawassee Regional Education Service District, Corunna
South Central Michigan Works!, Hillsdale
Southeast Michigan Census Council, Southfield
Southwest Counseling Solutions, Detroit
Superior AIDS Prevention Services, Iron Mountain
Temple B'nai Israel, Petoskey
The Arc Michigan, Lansing
Walker Firehouse Cafe/Senior Neighbors, Grand Rapids, Michigan
Watersmeet Township School District, Watersmeet
Wisdom Institute, Detroit
Minnesota
A Minnesota Without Poverty, Minneapolis
Bois Forte Tribal Government, Nett Lake
Children's Defense Fund--Minnesota, St. Paul
CROSS Meals on Wheels, Rogers
Deer River Public School District, Deer River
Education Minnesota, St. Paul
Entrepreneur Fund, Duluth
Family Life Mental Health Center, Coon Rapids
Family Service Rochester, Rochester
Hamline University, St. Paul
Houston County Public Health Department, Caledonia
Hunger Solutions Minnesota, St. Paul
Hutchinson Housing & Redevelopment Authority, Hutchinson
Innocence Project of Minnesota, St. Paul
Integrated Community Solutions, Inc., Fridley
JM Grants, Sartell
Litchfield Public Schools Early Childhood Programs, Litchfield
Little Falls Partners for Peace, Little Falls
Local Initiatives Support Corporation Duluth, Duluth
Local Initiatives Support Corporation Twin Cities, St. Paul
Local Public Health Association of Minnesota, St. Paul
McLeod County Public Health, Glencoe
Midwest Minnesota Community Development Corporation (MMCDC), Detroit 
    Lakes
Minnesota Association for Career and Technical Education, Fergus Falls
Minnesota Association for College Admission Counseling, Northfield
Minnesota Association of Secondary School Principals, St. Paul
Minnesota Head Start Association, Inc., Duluth
Minnesota Housing Partnership, St. Paul
Minnesota Indian Women's Resource Center, Minneapolis
Minnesota Occupational Therapy Association (MOTA), St. Paul
Minnesota School Psychologists Association, Winona
Minnesota School Social Workers Association, Gibbon
Minnesota State Colleges and Universities (MnSCU), White Bear Lake
Minnesota Workforce Council Association, Saint Paul
National Alliance on Mental Illness (NAMI) Minnesota, St. Paul
Naytahwaush Community Charter School, Naytahwaush
Nett Lake School District, Nett Lake
Religious Community of Women, Little Falls
RESULTS-Twin Cites, Minnesota (Domestic), Minneapolis
Southeast Minnesota Workforce Board, Rochester
The Metropolitan Consortium of Community Developers, Minneapolis
Waubun-Ogema-White Earth Public Schools, Waubun
Workforce Development, Inc., Southeast
Mississippi
Biloxi Branch NAACP, Biloxi
Disability Rights Mississippi, Jackson
Faye's Playhouse & Learning Center, Verona
Local Initiatives Support Corporation Mid South Delta, Greenville
Mississippi Association of Educational Opportunity Program Personnel, 
    Jackson
Mississippi Association for Health, Physical Education, Recreation and 
    Dance, Olive Branch
Mississippi Association of Secondary School Principals, Columbia
Mississippi Council of Administrators of Special Education (MS CASE), 
    Mendenhall
Mississippi Families as Allies, Jackson
Mississippi Innocence Project, Oxford
Nollie Jenkins Family Center, Inc., Lexington
Pontotoc Housing Authority, Pontotoc
Public Policy Center of Mississippi, Jackson
Missouri
Advance National Education Association, Advance
Bayless Education Association, St. Louis
Blue Springs National Education Association, Blue Springs
Bridgeway Women's Center, St. Charles
Caruthers Street Charities, Inc. dba Project HOPE, Cape Girardeau
Central Missouri Community Action (CMCA) Head Start, Columbia
Central Missouri Community Action- Head Start, Laddonia
Dent County Health Center, Salem
Disabled Citizens Alliance for Independence, Viburnum
Epilepsy Foundation of Missouri and Kansas, Kansas City
Farmington National Education Association, Farmington
Ferguson-Florissant National Education Association, Ferguson
Festus Housing Authority, Festus
Head Start, Salem
Independence Housing Authority, Independence
Independence National Education Association, Independence
Jefferson County Health Department, Hillsboro
Jefferson Franklin Community Action Corporation, Hillsboro
Joplin Adult Education and Literacy, Joplin
Kaiden's Voice for the Abused, Springfield
Kansas City Adult Education & Literacy, Kansas City
Kansas City Criminal Justice Task Force, Kansas City
Kansas City Missouri School District Adult Education and Literacy, 
    Kansas City
Lindbergh National Education Association, St. Louis
Local Initiatives Support Corporation Greater Kansas City, Kansas City
Lutheran Family & Children's Services of Missouri, St. Louis
Mississippi County Health Department, Charleston
Missouri Adult Education & Literacy Administrators Association, 
    Jefferson City
Missouri Association for Career and Technical Education, Jefferson City
Missouri Association for Social Welfare, Jefferson City
Missouri Association of Local Public Health Agencies, Jefferson City
Missouri Association of Secondary School Principals, Columbia
Missouri Council for Exceptional Children (MO-CEC), Blue Springs
Missouri Council of Administrators of Special Education, Jefferson City
Missouri Development Disabilities Council, Jefferson City
Missouri Division of Workforce Development, St. Louis
Missouri National Education Association, Jefferson City
Missouri Public Health Association, Jefferson City
Missouri School Counselor Association, Jefferson City
National Alliance on Mental Illness (NAMI), St. Louis
National Council of Jewish Women, St. Louis Section, St. Louis
Normandy National Education Association, St. Louis
North East Community Action Corporation, Bowling Green
Ozarks Area Community Action Corporation, Springfield
Pettis County Health Center, Sedalia
Phelps/Maries County Health Department, Rolla
Second Harvest Community Food Bank, Saint Joseph
Senior Citizens Community Center, Paris
Shelby County Health Department, Shelbyville
Smithville R-II School District, Smithville
St. Francois County Health Center, Park Hills,
St. Louis Agency on Training and Employment (SLATE), St. Louis
St. Louis Lead Prevention Coalition, St. Louis
Starkloff Disability Institute, St. Louis
Taney County Health Department, Branson
Waynesville R-VI School District, Waynesville
Westside Community Action Network Center, Kansas City
Youth In Need, Inc., St. Charles
Montana
ADAPT Montana, Missoula
Billings Clinic, Billings
Box Elder Public School District 13G, Box Elder
Dixon School District # 9, Dixon
Dodson Schools, Dodson
Eastern Montana Community Mental Health Center, Miles City
Family Support Network--Montana, Billings
Harlem Public Schools, Harlem
Helena Indian Alliance, Helena
Lodge Grass Public School District No. 2 & 27, Lodge Grass
MEA-MFT, Helena
Montana Aspire TRIO, Great Falls
Montana Public Health Association, Choteau
National Alliance on Mental Illness (NAMI), Helena
Not Dead Yet Montana, Missoula
Polson School District, Polson
Poplar School Districts 9 & 9B, Poplar
RiverStone Health, Billings
School Administrators of Montana, Helena
Teton County Health Department, Choteau
University of Montana Rural Institute: Center for Excellence in 
    Disability Education, Research, and Service, Missoula
Nebraska
Eastern Nebraska Community Action Partnership, Omaha
Head Start CFDP Inc., Hastings
Lutheran Metro Ministry, Omaha
Nebraska AIDS Project, Omaha
Nebraska Federation of Families for Children's Mental Health, Minden
Nebraska Head Start Association, Hastings
Nebraska School Librarians Association, Lincoln
Nebraska State Education Association, Lincoln
Progressive Research Institute of Nebraska, Omaha
Santee Sioux Nation Head Start, Niobrara
Nebraska (Inc.)
Sisters of Mercy West Midwest Justice Team, Omaha
Somali Community Service, Inc., Omaha
University of Nebraska Medical Center, Omaha
Western Nebraska Resources Council, Chadron
Association of Career and Technical Education of Nebraska, Lincoln
Nebraska Advocacy Services, Inc., Lincoln
Nevada
Catholic Charities of Southern Nevada, Las Vegas
Churchill County School District, Fallon
Food Bank of Northern Nevada, Reno
Golden Rainbow, Las Vegas
Inter-Tribal Council of Nevada, Inc., Reno
Nevada Adult Educators, Las Vegas
Nevada Occupational Therapy Association, Las Vegas
Nevada School Counselor Association (NvSCA), Reno, Las Vegas
Reno Senior Citizens Advisory Committee, Reno
Washoe County (Nevada) Department of Senior Services, Reno
New Hampshire
Center For Life Management, Derry
Children's Alliance of New Hampshire, Concord
Greater Nashua Mental Health Center at Community Council, Nashua
Housing Action New Hampshire, Concord
Local 119, Exeter
Nashua Soup Kitchen & Shelter, Inc., Nashua
New Hampshire Association of School Principals, Concord
New Hampshire Association of Special Education Administrators, Concord
New Hampshire School Library Media Association, Laconia
New Hampshire School Library Media Association (NHSLMA), Exeter
Rockingham Nutrition and Meals on Wheels Program, Brentwood,
The New Hampshire Occupational Therapy Association, Concord
University of New Hampshire/McNair (TRiO), Durham
New Jersey
Abundant Life Community Development Corporation, Edgewater Park
Advocates for Children of New Jersey, Newark
Alternatives to Domestic Violence, Hackensack
Atlantic Cape Family Support Organization, Northfield
Bergen County Youth Services Commission, Hackensack
Burlington County Workforce Investment Board, Mount Holly
Camden County Family Support Organization, Merchantville
Cape May City Elementary School, Cape May
Career and Technical Education Association of New Jersey, Pemberton
Cathedral Soup Kitchen, Inc., Camden
Catholic Charities Diocese of Trenton, Trenton
Children's Aid and Family Services, South Orange
Citizen Schools New Jersey, Newark
Community FoodBank of New Jersey, Hillside
COPE Center, Inc., Montclair
Cumberland/Salem Workforce Investment Board, Bridgeton
Englewood Housing Authority, Englewood
Family Support Organization of Bergen County, Waldwick
Family Support Organization of Bergen County, Fair Lawn
Food Bank of South Jersey, Pennsauken
Garden State Employment & Training Association, Toms River
Head Start Community Program of Morris County, Inc., Dover
Homefront, Inc., Lawrenceville
Horizon Health Center, Jersey City, Bayonne
Housing Community Development Network of New Jersey, Trenton
Hudson County Housing Resource Center, Jersey City
Hyacinth AIDS Foundation, New Brunswick
JCDTOC, Inc., Cape May Court House
Kean University, Union
LEW Corporation, Mountainside
Local Initiatives Support Corporation Greater Newark, Newark
Meals On Wheels, Inc.--Linden, Linden
Monmouth County Regional Health Commission, Tinton Falls
Morris-Sussex-Warren Workforce Investment Board, Morristown
Mount Carmel Guild, Cranford
National Alliance on Mental Illness (NAMI), Asbury Park
National Alliance on Mental Illness (NAMI), Cherry Hill
National Alliance on Mental Illness (NAMI), Gloucester County, Wenonah
National Alliance on Mental Illness (NAMI), Greater Monmouth, Freehold
National Council of Jewish Women, Concordia Section, Monroe Township
National Council of Jewish Women, Union County Section, Elizabeth
National Council of Jewish Women, West Morris Section, Morristown
New Jersey Anti-Hunger Coalition, Englewood
New Jersey Association for Health, Physical Education, Recreation & 
    Dance, Ocean
New Jersey Association of Mental Health & Addiction Agencies, Inc., 
    Mercerville
New Jersey Association of Mental Health and Addiction Agencies, Inc., 
    Hamilton
New Jersey Association of Pupil Services Administrators, Westfield
New Jersey Campus Compact, Branchburg
New Jersey Citizen Action, Newark
New Jersey Principals and Supervisors Association, Monroe Township
North Hanover Township Schools, Wrightstown
Northern Ocean Habitat for Humanity, Toms River
Ocean County Workforce Investment Board, Toms River
Pleasantville Housing Authority, Pleasantville
Preferred Behavioral Health of New Jersey, Brick
Princeton Community Housing, Inc., Princeton
Project Live, Inc., Newark
Respond, Inc., Camden
Straight and Narrow Inc., Paterson
University of Medicine and Dentistry of New Jersey/University 
    Behavioral HealthCare, Piscataway
Visiting Nurse Association of Central New Jersey (VNACNJ) Community 
    Health Center, Inc., Asbury Park
New Mexico
Albuquerque Public Schools, Albuquerque
Citizen Schools New Mexico, Albuquerque
Clovis Municipal Schools, Clovis
Community Against Violence, Taos
Five Sandoval Indian Pueblos, Inc. Head Start, Bernalillo
Gallup-McKinley County Schools, Ramah
Media Arts Collaborative Charter School, Albuquerque
National Education Association New Mexico, Santa Fe
National Education Association Santa Fe, Santa Fe
Native American Disability Law Center, Inc., Farmington
New Mexico Music Educators Association, Las Cruces
New Mexico Association of Secondary School Principals, Rio Rancho
New Mexico Coalition to End Homelessness, Albuquerque
New Mexico Council of Administrators of Special Education (NMCASE), 
    Dexter
New Mexico Forum for Youth in Community, Albuquerque
New Mexico Occupational Therapy Association, Albuquerque
New Mexico State University, Las Cruces
New Mexico Voices for Children, Albuquerque
Prosperity Works, Albuquerque
Pueblo of Zuni Head Start, Zuni
RESULTS-Santa Fe, Santa Fe
Supportive Housing Coalition of New Mexico, Albuquerque
YES Housing Inc., Albuquerque
Youth Development, Inc., Albuquerque
National Education Association--Carlsbad, Carlsbad
New York
1199SEIU Training and Employment Funds, New York
Access to Independence of Cortland County, Inc., Cortland
Advocates for Children of New York, New York
Albert Einstein College of Medicine of Yeshiva University, New York 
    City
Allegany County Office for the Aging, Belmont
Arbor Housing and Development, Bath
Arise, Inc., Syracuse
Boulevard Houses, Brooklyn
Brooklyn Chamber of Commerce, Brooklyn
Brooklyn for Peace, Brooklyn
Brooklyn Kindergarten Society, New York
Brooklyn-Queens National Organization for Women, Brooklyn
Buffalo Council of School Administrators, Buffalo
Caring for the Homeless of Peekskill, Peekskill
Cattaraugus County Department of the Aging, Olean
Center for Children's Initiatives, New York
Center for Independence of the Disabled, New York
Central New York Citizens in Action, Inc., Utica
Chenango County Area Agency on Aging, Norwich
Children's Defense Fund--New York, New York
Citizen Action of New York, Binghamton
Citizen Schools New York, New York
City of Syracuse Lead Program, Syracuse
Claire Heureuse Community Center, Inc., Jamaica
Columbia County Office for the Aging, Hudson
Community Action Planning Council of Jefferson County, New York, 
    Watertown
Community Service Society of New York, New York
Cortland County Health Department, Cortland
Council of School Supervisors and Administrators (CSA), New York
Delaware County Office for the Aging, Delhi
Dunkirk-Fredonia Meals on Wheels, Dunkirk
Early Care & Learning Council, Albany
Empire Justice Center, Rochester
Epilepsy Foundation of Long Island, Garden City
Everyone Reading, New York
Fifth Avenue Committee, Brooklyn
Foodnet Meals on Wheels, Ithaca
Fort Greene Peace, Brooklyn
Fulton County Office for Aging, Johnstown
Fulton, Montgomery and Schoharie Counties Workforce Development Board, 
    Inc., Amsterdam
Future Leaders Institute Charter School, New York
Human Development Services of Westchester, Mamaroneck
Hunger Solutions New York, Albany
Innersight, Islip
International Brotherhood of Electrical Workers--Local 43, Clay
Jackson Resident Association, Inc., Bronx
Joint Council for Economic Opportunity, Plattsburgh
Leake and Watts Services, Inc., Yonkers
Local Initiatives Support Corporation, Buffalo
Local Initiatives Support Corporation New York City, New York
Long Island Educational Opportunity Center, Brentwood
Madison County Office for the Aging, Inc., Canastota
Meals on Wheels of Syracuse, New York, Inc., Syracuse
Montefiore Medical Center, Bronx
National Alliance on Mental Illness--Buffalo & Erie County, 
    Williamsville
National Alliance on Mental Illness--Cattaraugus, Olean
National Alliance on Mental Illness--Central Suffolk, Port Jefferson 
    Station
National Alliance on Mental Illness--Huntington, Huntington
National Alliance on Mental Illness--LAMP/SW Nassau, Merrick
National Alliance on Mental Illness--New York City, Staten Island, 
    Staten Island
National Alliance on Mental Illness--New York State, Albany
National Alliance on Mental Illness--Queens & Nassau, Manhasset
National Alliance on Mental Illness--Rensselaer County, West Sand Lake
National Alliance on Mental Illness--Rochester, Rochester
National Council of Jewish Women--Lakeville Section, Great Neck
Neighborhood Preservation Coalition of New York State, Albany
New Destiny Housing, New York
New York Annual Conference, United Methodist Church, Brooklyn
New York Association of School Psychologists, Albany
New York Association of Training and Employment Professionals (NYATEP), 
    Albany
New York State Association of College Admission Counseling, Red Hook
New York State Association of County Health Officials (NYSACHO), Albany
New York State Council for Community Behavioral Healthcare, Albany
New York State Dance Education Association, New York
New York State Head Start Association, Glens Falls
New York State Rural Housing Coalition, Albany
New York State School Counselor Association, Leicester
New York University Langone Medical Center, New York
Northern Regional Center for Independent Living, Family Support 
    Services, Watertown
Ontario County Office for the Aging, Canandaigua
Orleans County Office for the Aging, Albion
PathStone Corporation, Rochester
Peace Action Bay Ridge, Brooklyn
Per Scholas Inc., Bronx
Program on Applied Demographics--Cornell University, Ithaca
Rape Crisis Service of Planned Parenthood of the Rochester Syracuse 
    Region, Batavia
Rural Ulster Preservation Company, Kingston
Safe Against Violence, Hamden
Saugerties Public Housing Agency, Saugerties
School Administrators Association of New York State, Latham
Schuyler County Office for the Aging, Montour Falls
Selfhelp Community Services, New York
Senior Services of Albany, Inc., Albany
Sexual Assault & Crime Victims Assistance Program, Troy
St. John's Riverside Hospital, Yonkers
St. Lawrence County Office for the Aging, Canton
St. Mary's Episcopal Church Food Pantry, New York
Steuben County Department of Social Services/Building Independence for 
    the Long Term, Bath
Supportive Housing Network of New York, New York
The Children's Aid Society, New York
The Doe Fund, New York
The Osborne Association, Bronx, Brooklyn, Beacon, Poughkeepsie
Town of Hamburg, New York, Hamburg
Trabajamos Community Head Start, Bronx
Ulster County Office for the Aging, Kingston
VillageCare, New York
Westchester Community Opportunity Program, Inc., Elmsford
Whitney M. Young Community Health Center, Albany
Wyoming County Office for the Aging, Warsaw
Citizens' Committee for Children of New York, New York
North Carolina
Aging, Disability and Transit Services of Rockingham County, Reidsville
Albemarle Commission Senior Nutrition Program, Hertford
Avery County Habitat for Humanity, Newland
Carolina Institute for Developmental Disabilities, Chapel Hill
Charlotte Family Housing, Charlotte
Citizen Schools North Carolina, Charlotte
Clay County Senior Center, Hayesville
Crisis Council, Inc., Troy
Cumberland County Council on Older Adults, Fayetteville
Cumberland County School System, Fayetteville
disAbility Resource Center, Wilmington
Disability Rights North Carolina, Raleigh
Disability Rights & Resources, Charlotte
Durham County Department of Social Services, Durham
Eastern Carolina Workforce Development Board, Inc., New Bern
Epilepsy Foundation of North Carolina, Winston-Salem
Fargo Public Schools, Fargo
Greensboro Housing Coalition, Greensboro
Harnett County Elderly Nutrition Program, Lillington
Harnett County Schools, Lillington
Healthy Homes and Lead Safety, Leicester
Jackson County Meals on Wheels, Sylva
Lincoln County Senior Services, Lincolnton
Macon Program for Progress, Franklin
McDowell County Head Start & Preschool Programs, Marion
Meals on Wheels of Wake County, Raleigh
Mental Health America of the Triangle, Durham
Mental Health Association in Greensboro, Greensboro
Mental Health Association in Wilson County, Wilson
Mental Health Association of Central Carolinas, Charlotte
National Alliance on Mental Illness (NAMI), Charlotte
National Alliance on Mental Illness (NAMI), Durham
National Alliance on Mental Illness (NAMI), Smithfield
National Alliance on Mental Illness (NAMI), Wilson
NC-LEND at The Carolina Institute for Developmental Disabilities, 
    Chapel Hill
News . . . from our Shoes, Raleigh
North Carolina Association of Educators, Raleigh
North Carolina Council of Administrators of Special Education, 
    Wilmington
North Carolina Council of Administrators of Special Education (NCCASE), 
    Greensboro
North Carolina Council of Educational Opportunity Programs (NCCEOP), 
    Greensboro
North Carolina Families United, Raleigh
North Carolina Lung Cancer Partnership, Raleigh
North Carolina Occupational Therapy Association, Charlotte
North Carolina Principals and Assistant Principals' Association, 
    Raleigh
North Carolina School Library Media Association, Raleigh
Pamlico County Senior Services, Alliance
Parent VOICE, Charlotte
Pender County Schools Head Start, Burgaw
Residents for Affordable Housing, Mooresville
Sarah's Refuge, Inc. Domestic Violence & Rape Crisis Center, Warsaw
Senior Resources of Guilford, Greensboro
Senior Services of Forsyth County, Winston Salem
Special Education Department Iredell-Statesville Schools, Statesville
Swain County Schools, Bryson City
Carolina Institute for Developmental Disabilities at the University of 
    North Carolina Chapel Hill (UECDD),
Chapel Hill
United Family Services, Charlotte
WAGES, Goldsboro
Warren-Vance Community Health Center/Northern Outreach Clinic, 
    Henderson
Watauga County Project on Aging, Boone
Western North Carolina AIDS Project, Asheville
North Dakota
Abused Adult Resource Center, Bismarck
Dunseith Public School District, Dunseith
Eastern Dakota Housing Alliance, Fargo
Ft. Yates Public School District #4, Ft. Yates
Grand Forks Housing Authority, Grand Forks
Grand Forks Senior Center, Grand Forks
Grand Forks Special Education Unit, Grand Forks
Kenmare Wheels & Meals, Kenmare
Lake Region Outreach Office, Rolla
Minot Area Homeless Coalition, Inc., Minot
Minot Commission on Aging, Minot
North Dakota Association of Secondary School Principals, Bismarck
North Dakota Coalition for Homeless People, Bismarck
North Dakota Education Association, Dickinson
North Dakota Music Educators Association, Fargo
North Dakota Reading Association, Bismarck
North Dakota School Counseling Association, Jamestown
Parshall School District #3, Parshall
Protection and Advocacy Project, Bismarck
Red River Valley Community Action, Grand Forks
Selfridge Public School District #8, Selfridge
Solen Public School District #3, Solen
South Central Adult Services, Valley City
St. John School District #3, St. John
Valley Senior Services, Fargo
Welcome House, Inc., Bismarck
YWCA Minot, Minot
Northern Mariana Islands
Department of Community and Cultural Affairs, Saipan MP
Ohio
Access Center for Independent Living, Dayton
American Association of University Professors--Wright State University, 
    Ohio Conference, Lima
Area Agency on Aging 3, Lima
Cleveland Housing Network, Cleveland
Coalition on Homelessness & Housing in Ohio, Columbus
Cogswell Hall, Inc., Cleveland
Columbus State Community College Disability Services, Columbus
Community Counseling Center, Ashtabula
Community Development Corporation Resource Consortium, Inc., Dayton
Consortium for Healthy & Immunized Communities, Inc., Cleveland
Council for Older Adults, Delaware
Cuyahoga County Board of Health (Greater Cleveland), Parma
Elyria City Health District, Elyria
Epilepsy Foundation of Central Ohio, Columbus
Fairborn City Schools, Fairborn
Families Connected of Clermont County/Chapter of the National 
    Federation of Families for Children's Mental Health, Batavia
Greater Cincinnati Workforce Network, Cincinnati
Guernsey County Senior Citizens Center, Inc., Cambridge
Hand 'N Hand Activity Center for Adults with Disabilities, Springfield
Hocking Hills Inspire Shelter, Logan
Holmes County General Health District, Millersburg
Housing Research & Advocacy Center, Cleveland
Housing Solutions of Greene County, Inc., Xenia
Juvenile Justice Coalition of Ohio, Bath
Lancaster Fairfield Community Action Agency, Lancaster
Local Initiatives Support Corporation, Toledo
Lorain County Workforce Development Agency, Elyria
Lutheran Metropolitan Ministry, Cleveland
Mad River Local Schools, Riverside
Mature Services, Inc., Akron
Meigs County Council on Aging, Inc., Pomeroy
Mobile Meals, Inc., Akron
National Alliance on Mental Illness--Seneca, Sandusky, Wyandot 
    counties, Tiffin
National Alliance on Mental Illness--Stark County, Canton
National Council of Jewish Women--Cleveland, Cleveland
Ohio Association for Adult and Continuing Education, Columbus
Ohio Association for Career and Technical Education, Westerville
Ohio Association of Second Harvest Foodbanks, Columbus
Ohio Campus Compact, Granville
Ohio Council of Behavioral Health & Family Services Providers, Columbus
Ohio Education Association, Columbus
Ohio Educational Library Media Association, Columbus
Ohio Music Education Association, Lima
Ohio River Foundation, Cincinnati
Ohio Rural Community Assistance Program, Fremont
Ohio School Social Worker Association, Bay Village
Ohio TRiO, Mansfield
Ohio Workforce Coalition, Fremont
PowerNet of Dayton, Dayton
Public Allies Cincinnati, Cincinnati
RESULTS Columbus, Columbus
Second Harvest Food Bank of Clark, Champaign, Logan Counties, 
    Springfield
Second Harvest Food Bank of Mahoning Valley, Youngstown
Shared Harvest Foodbank, Fairfield
Stark County Stark Metropolitan Housing Authority, Canton
Summit County Public Health, Summit County
The Arc of Ohio
The Foodbank, Inc., Dayton
The MetroHealth System, Cleveland
The Ohio Head Start Association, Dayton
Toledo Fair Housing Center, Toledo
Towards Employment, Cleveland
Tri-County Independent Living Center, Inc., Akron
Trumbull Mobile Meals, Inc., Warren
United Steel Workers Local 8530, Mansfield
Ursuline Sisters HIV/AIDS Ministry, Youngstown
Walnut Hills Redevelopment Foundation, Cincinnati
Working In Neighborhoods, Cincinnati
YWCA H.O.P.E. Center, Toledo
Local Initiatives Support Corporation Greater Cincinnati and Northern 
    Kentucky, Cincinnati
Voices for Ohio's Children, Cleveland
Oklahoma
Cherokee Strip Reading Council, Enid
Cheyenne & Arapaho Tribes Head Start Program, Concho
Four Winds Iowa Tribe, Perkins
Iowa Tribe of Oklahoma Early Head Start & Expectant Families Program, 
    Perkins
J&J Educational Services, Kinta
New Lima Public School, Wewoka
Oaks Mission School, Oaks
Oklahoma National Association of Secondary School Principals, 
    Kingfisher
Oklahoma Reading Association, Enid
Oklahoma Therapeutic Foster Care Association, Oklahoma City
OSCA, Shawnee
Salina Public Schools, Salina
Wickliffe School, Salina
Oregon
American Association of University Women--Oregon, Salem
CASA of Oregon, Sherwood
Cascade AIDS Project, Portland
Centennial Education Association, Portland
University of Oregon Center on Human Development--University Center for 
    Excellence in
Developmental Disabilities (UCEDD), Eugene
Community Alliance of Tenants, Portland
Community Information Center, Portland
Community Pathways, Inc., Portland
Corvallis Education Association, Corvallis
Crook County Health Department, Prineville
Dallas Education Association, Dallas
Disability Rights Oregon, Portland
Eugene Education Association, Eugene
Full Access, Eugene
H & W Mechanical Inc., Tigard
Head Start of Lane County, Springfield
Health Education Network, Corvallis
Hillsboro School District, Hillsboro
Homeless Against Homelessness in America, Portland
Hood River Education Association, Hood River
Job Growers, Inc., Salem
Josiah Hill III Clinic, Portland
Lane Workforce Partnership, Eugene
Madras Education Association, Madras
Mid-Columbia Children's Council, Hood River
Morrow County Education Association, Boardman
National Alliance on Mental Illness--Lane County, Eugene
National Education Association--Parkrose Faculty Association, Portland
Network For Oregon Affordable Housing, Portland
North Clackamas Education Association, Milwaukie
Northwest Oregon Labor Council, AFL-CIO, Portland
Northwest Pilot Project, Portland
Occupational Therapy Association of Oregon, Salem
Oregon Association of School Libraries, Portland
Oregon Campus Compact, Portland
Oregon Developmental Disability Coalition, Salem
Oregon Education Association, Portland
Oregon Food Bank, Portland
Oregon Head Start Association, Phoenix
Oregon Head Start Association, Salem
Oregon Health & Science University, Portland
Oregon Health & Science University Institute on Development & 
    Disability--University Center for
Excellence in Developmental Disabilities (UCEDD), Portland
Oregon Military Support Network, Portland
Oregon Pathways Alliance, The Dalles
Oregon Rehabilitation Association, Salem
Oregon School Counselor Association, Cornelius
Oregon School Social Work Association, Portland
Oregon TRiO Association, Portland
Oregon Wild, Portland
Parkrose Faculty Association, Portland
Partners for a Hunger-Free Oregon, Portland
Partnership Project, Portland
Phoenix-Talent Education Association, Phoenix
Rogue Workforce Partnership, Medford
Salem Keizer Education Association, Salem
Southern Oregon Child & Family Council--Head Start and Early Head 
    Start, Medford
Tax Fairness Oregon, Portland
Umpqua Community College/JOBS Program, Roseburg
Western Farm Workers Association, Hillsboro
Worksystems, Inc., Portland
Pennsylvania
ActionAIDS, Philadelphia
Adult Literacy Program at Bayard Taylor Library, Kennett Square
Allegheny Intermediate Unit, Homestead
Allegheny Valley Association of Churches, Natrona Heights
Allegheny Valley School District, Cheswick
Area Agency on Aging, Philadelphia
Association of Pittsburgh Priests, Pittsburgh
Association of School Psychologists of Pennsylvania (ASPP), Doylestown
Baldwin-Whitehall School District, Pittsburgh
BFW Group, L.L.C., Philadelphia
Brentwood Borough School District, Pittsburgh
Bryn Mawr Peace Coalition, Bryn Mawr
Center for Literacy, Inc., Philadelphia
Center for Social Policy and Community Development, Philadelphia
Central Intermediate Unit 10 Development Center for Adults, Pleasant 
    Gap
Central Pennsylvania Food Bank, Harrisburg
Centre County Women's Resource Center, State College
Chester County Family Literacy, Kennett Square
Chester County Food Bank, Downingtown
Citizens for Pennsylvania's Future (PennFuture), Harrisburg
Citizens for the Arts in Pennsylvania, Harrisburg
Clairton City School District, Clairton
Community Action Committee of the Lehigh Valley, Bethlehem
Community Counseling Center of Mercer County, Hermitage
Community Development Action Corporation, Norristown
Community Education Center, Altoona
Community Food Warehouse of Mercer County, Sharon
Community Learning Center, Philadelphia
Community Organization for Mental Health and Retardation (COMHAR, 
    Inc.), Philadelphia
Community Services Group, Sunbury
Cornell School District, Corapolis
Coro Center for Civic Leadership, Pittsburgh
Crawford County READ Program, Titusville
Crime Victim Center of Erie County, Erie
Deer Lakes School District, Russellton
Delaware County Community College, Downingtown
Depression and Bipolar Support Alliance Pennsylvania, Erie
Dickinson Center, Inc., Ridgway
Disabled In Action, Philadelphia
Elizabeth Forward School District, Elizabeth
Employment and Training, Inc., Huntingdon
Employment Skills Center, Carlisle
Feast of Justice, Philadelphia
Focus On Renewal, McKees Rocks
Fox Chapel Area School District, Pittsburgh
Franklin County Headstart, Chambersburg
Garraty Workforce Investment, Hummelstown
Goodwill Literacy Initiative, Pittsburgh
Goodwill of Southwestern Pennsylvania, Pittsburgh
Greater Philadelphia Coalition Against Hunger, Philadelphia
Greater Pittsburgh Community Food Bank, Duquesne
Greater Pittsburgh Literacy Council, Pittsburgh
Greater Washington County Food Bank, Eighty Four
H & J Weinberg Food Bank, Wilkes-Barre
Habitat for Humanity of Greater Pittsburgh, Pittsburgh
Highlands School District, Natrona Heights
Housing Alliance of Pennsylvania, Glenside
Housing Authority of Chester County, Chester County
Housing Authority of the County of Dauphin, Steelton
Hunger-Free Pennsylvania, McMurray
Immigration and Refugee Services, ESL Program, Harrisburg
Institute on Disabilities--University Center for
Excellence in Developmental Disabilities (UCEDD), Philadelphia
International Union of Operating Engineers Local 95, Pittsburgh
Interplay Child Care Center, Pittsburgh
JEVS Human Services, Philadelphia
Just Harvest: A Center for Action Against Hunger, Pittsburgh
Kensington Hospital Early Intervention Services Department, 
    Philadelphia
Keystone Oaks School District, Pittsburgh
Lake Erie Region Conservancy, Erie
Lawrence County Housing Authority, New Castle
Lifelong Learning Choices, New Castle
LifeSpan, Inc., Homestead
Lincoln Intermediate Unit Franklin County Literacy Council, 
    Chambersburg
Literacy Council of Lancaster-Lebanon, Lebanon
Literacy Council of Norristown, Norristown
Literacy Council of Reading-Berks, Inc., Reading
Local Initiatives Support Corporation, Philadelphia
Luzerne County Community College, Nanticoke
Marywood Adult Literacy Education Program, Scranton
McKeesport Area School District, McKeesport
Meals on Wheels of Chester County, Inc., West Chester
Meals on Wheels of Lehigh County, Allentown
Mental Health Association of Northwestern Pennsylvania, Erie
Mollie's Meals, Pittsburgh
Multicultural Community Resource Center, Erie
National Alliance for Mental Illness, Lansdale
National Alliance on Mental Illness--Chester County, West Chester
Nazareth Housing Services, Pittsburgh
Neighborhood Networks, Philadelphia
Northgate School District, Pittsburgh
Northwest Philadelphia Interfaith Hospitality Network, Philadelphia
Penn Action, Bucks County
Penn Hills School District, Pittsburgh
Penn Medicine, Philadelphia
Pennsylvania Association for Adult Continuing Education (PAACE) State 
    College Pathways Pennsylvania,
Holmes
Pennsylvania Association Council of Administrators of Special 
    Education, Mountain Top
Pennsylvania Association for College Admission Counseling, Gettysburg
Pennsylvania Association of Career and Technical Education, 
    Philadelphia
Pennsylvania Association of Elementary and Secondary School Principals, 
    Summerdale
Pennsylvania Association of Rural and Small Schools, Harrisburg
Pennsylvania Coalition Against Rape, Harrisburg
Pennsylvania Council of Churches, Harrisburg
Pennsylvania Head Start Association, Harrisburg
Pennsylvania Occupational Therapy Association, Harrisburg
Pennsylvania Partners, Camp Hill
Pennsylvania School Librarians Association, Whitehall
Pennsylvania State Education Association, Harrisburg
Pennsylvania Statewide Independent Living Council, Lords Valley
PenTrans, Philadelphia
Perkiomen School, Pennsburg
Perry County Literacy Council, Newport
Philadelphia Neighborhood Networks, Philadelphia
Phoenix Rising Counseling Services, Scranton
Pittsburgh Partnership for Neighborhood Development, Pittsburgh
Pleasant Valley Ecumenical Network, Saylorsburg
Plum Borough School District, Plum
ProJeCt of Easton, Inc., Easton
Providence Connections, Pittsburgh
Public Allies Pittsburgh, Pittsburgh
Quaker Valley School District, Sewickley
Reading Muhlenberg Career & Technology Center, Reading
Regional Center for Workforce Excellence, Northwest WIA
Robert Morris University, Moon
Room to Grow Child Development Center/YMCA Greater Pittsburgh, 
    Pittsburgh
Shaler Area School District, Glenshaw
South Fayette Township School District, McDonald
South Hills Interfaith Ministries, Bethel Park
South Park School District, South Park
Squirrel Hill Community Food Pantry, Pittsburgh
St. James Social Justice and Peace Committee, Wilkinsburg
Stairways Behavioral Health, Erie
Temple University Center for Social Policy and Community Development 
    (CSPCD), Philadelphia
The Advocacy Alliance, Zionsville
The Arc of Pennsylvania,
The Thomas Merton Center, Pittsburgh
TIU 11 Community Education Services, Lewistown
Tuscarora Intermediate Unit 11 Community Education Services, Lewistown
Tutors of Literacy in the Commonwealth, State College
United Methodist Church, Erie
Vita Education Services, Doylestown
West Allegheny School District, Imperial
West Chester Food Cupboard, West Chester
West Jefferson Hills School District, Jefferson Hills
West Mifflin School District, West Mifflin
Westmoreland Food Bank, Delmont
Women's Christian Alliance, Philadelphia
Won Community Center, Glenside
YWCA Lancaster, Lancaster
Puerto Rico
Centro Deambulantes Cristo Pobre, Ponce
Coalicion de Coaliciones Pro Personas sin Hogar de PR, Inc., Ponce
Head Start Program, Guaynabo
One Stop Career Center of Puerto Rico, Inc., San Juan
Rhode Island
Childhood Lead Action Project, Providence
Children's Friend, Providence
Economic Progress Institute, Providence
Local Initiatives Support Corporation Rhode Island, Providence
Mental Health Association of Rhode Island, Pawtucket
Paul Sherlock Center on Disabilities, Providence
Rhode Island Association of School Principals, Providence
Rhode Island Coalition for the Homeless, Pawtucket
Rhode Island KIDS COUNT, Providence
Rhode Island School Psychologist Association, Providence
Tiverton Senior Center, Tiverton
Women's Development Corporation, Providence
Woonsocket Head Start Child Development Association, Inc.
South Carolina
Affordable Housing Coalition of South Carolina, Columbia
Berkeley County School District, Moncks Corner
Clemson University, Clemson
Florence Crittenton Programs of South Carolina, Charleston
Habitat for Humanity Georgetown County, Georgetown
Humanities Foundation, Mount Pleasant
Lowcountry Housing Trust, Charleston
Protection & Advocacy for People with Disabilities, Inc., Columbia
South Carolina Appleseed Legal Justice Center, Columbia
South Carolina Association of School Social Workers, Columbia
South Carolina Head Start Association, Inc., Hartsville
South Carolina School Counselor Association, Eutawville
South Carolina TRiO, Greenville
Southern Association for College Admission Counseling, North Augusta
The Arc of South Carolina,
United Way of Greenville County, Greenville
Watertree AIDS Task Force, Sumter
South Dakota
Brandon Valley School District, Brandon
Center for Active Generations, Sioux Falls
Center for Disabilities, University Center for Excellence in 
    Developmental Disabilities (UCEDD),
Sioux Falls
Custer School District, Custer
Flandreau Public School, Flandreau
Hot Springs School District 23-2, Hot Springs
Impact Schools of South Dakota, Sioux Falls
Kadoka Area School District 35-2, Kadoka
Learning Disabilities Association of South Dakota, Chamberlain
Lyman School District, Presho
McLaughlin Public School, McLaughlin
Smee School District, Wakpala
South Central School District, Bonesteel
South Dakota ASPIRE, Mitchell
South Dakota Association for Career and Technical Education, Watertown
South Dakota Council of Administrators of Special Education, Canton
South Dakota Education Association, Pierre
South Dakota Occupational Therapy Association, Sioux Falls
Todd County School District, Mission
Wagner Community School District, Wagner
White River School District 47-1 SD, White River
Tennessee
Black Children's Institute of Tennessee, Nashville
Center for Literacy Studies, Knoxville
Clarksville Retired Teachers (TEA, NEA, ACA), Clarksville
Disability Law & Advocacy Center of Tennessee, Nashville
Disability Resource Center, Knoxville
East Tennessee State University, Johnson City
Epilepsy Foundation Southeast Tennessee, Chattanooga
Fleming Construction Co., Collierville
Kingsport Public Housing, Kingsport
Kingsport/Sullivan County Adult Education, Kingsport
Le Bonheur Children's Hospital, Memphis
Learning Disabilities Association of Tennessee, Memphis
Ledford Engineering and Planning, L.L.C., Arlington
Metro Nashville Council, Nashville
Nashville CARES, Nashville
New Level Community Development Corporation, Nashville
Regional Intervention Program-Gallatin, Gallatin
Ridgeview Psychiatric Hospital & Center, Inc., Oak Ridge
Telecom Training Corporation, Nashville
Tennessee Association for Adult and Community Education, Ripley
Tennessee Association of Special Programs, Knoxville
Tennessee Education Association, Nashville
The Arc Tennessee
Volunteer Behavioral Health Care System, Murfreesboro
Texas
Arc of Greater Beaumont, Beaumont
Austin Resource Center for Independent Living, Austin
Baylor University Family Abuse Center, Waco
Builders of Hope CDC, Dallas
CASA of Southeast Texas, Beaumont
Center for Public Policy Priorities, Austin
Children's Defense Fund--Texas, Houston
Citizen Schools Texas, Houston
City Wide Community Development Corporation, Dallas
Copperas Cove Independent School District, Copperas Cove
Crisis Center of the Plains, Plainview
Denton Affordable Housing Corporation, Denton
Denton County Homeless Coalition, Denton County
Disability Rights Texas, Austin
Education Equals Making Community Connections, Plantersville
Family Health & Aids Care Services International (FAHASI), Houston
Fort Bend Seniors Meals on Wheels, Rosenberg
Fort Sam Houston Independent School District, San Antonio
Freedom House, Weatherford
Gateway to Care, Houston
Health Care for All--Texas, Houston
Hill Country Crisis Council, Inc., Kerrville
Houston Center for Independent Living, Houston
InnerWisdom Counseling Center, Houston
K.E.E.P.S., Austin
Kaufman County Senior Citizens Services, Inc., Terrell
La Fe Policy Research and Education Center, San Antonio
Lackland Independent School District, San Antonio
Legacy Community Health Services, Houston
Lewisville Independent School District, Flower Mound
Liberty County Project on Aging, Liberty
Llano Grande Center, Elsa
Local Initiatives Support Corporation Houston, Houston
LoneStar LEND, University of Texas Health Sciences Center at Houston, 
    Houston
Meals on Wheels and More, Austin
Meals on Wheels Association of Texas
Meals on Wheels of Texoma, Gainesville
Meals on Wheels, Waco
Mental Health America of Greater Dallas, Dallas
Mental Health America of Southeast Texas, Beaumont
Mental Health Association in Jefferson County, Beaumont,
Mi Escuelita Preschool, Dallas
National Alliance on Mental Illness (NAMI), Lubbock
National Alliance on Mental Illness (NAMI), San Antonio
National Birth Defects Prevention Network, Houston
National Council of Jewish Women, Houston Section, Houston
Nueces County community Action Agency--Early Head Start, Corpus Christi
Nutrition and Services for Seniors, Beaumont
Parent/Child Incorporated, San Antonio
Pottsboro Independent School District, Pottsboro
Project Transitions, Austin
Senior Center of Walker County, Huntsville
Senior Community Outreach Services, Inc., Alamo
Sexual Assault Resource Center, Bryan
Tarrant County Housing, Fort Worth
Texans Care for Children, Austin
Texas Association of Local Health Officials, Austin
Texas Council of Administrators of Special Education, Austin
Texas Food Bank Network, Austin
Texas Homeless Network, Austin
Texas Low Income Housing Information Service, Austin
Texas School Public Relations Association, Austin
Texas Tenants' Union, Dallas
The Kitchen ``Meals on Wheels,'' Wichita Falls
The Woodlands Grass Roots Environmental Education Network (GREEN), The 
    Woodlands
TIRR Foundation, Houston
Urban Progress Community Development Corporation (UPCDC) Texas, Inc., 
    Dallas
Wood County Health Department, Quitman
Gregory Housing Authority, Gregory
Utah
Brigham City Senior Center Meals on Wheels, Brigham City
Crossroads Urban Center, Salt Lake City
Disabled Rights Action Committee, Salt Lake City
Seekhaven Family Crisis & Resource Center, Moab
The Learning Center for Families, St. George
Tri-County Independent Living Center, Woods Cross
University of Utah Health Sciences, Salt Lake
Utah Association for Career and Technical Education, Salt Lake City
Utah Association of Secondary School Principals, West Jordan
Utah Developmental Disabilities Council,
Utah Education Association, Salt Lake City
Utah Food Bank, Salt Lake City
Utah Housing Coalition, Salt Lake City
Utah School Counselor Association, Murray
Utah State University Center for Persons with Disabilities, Logan
Utahns Against Hunger, Salt Lake City
Voices for Utah Children, Salt Lake City
Vermont
Addison County Community Trust, Vergennes
Area Agency on Aging for Northeastern Vermont, St. Johnsbury
Bennington County Head Start, Bennington
Brattleboro Area Affordable Housing, Brattleboro
Brattleboro Housing Authority, Brattleboro
Central Vermont Council on Aging, Barre
Champlain Housing Trust, Burlington
Chelsea Area Senior Citizen's Center, Chelsea
Department of Economic Housing & Community Development, Montpelier
Franklin Central Supervisory Union, St. Albans
Galley Senior Meals Program, Barre
Greater Northfield Senior Citizens, Inc., Northfield
Hunger Free Vermont, South Burlington
Lamoille North Supervisory Union, Hyde Park
Lamoille South Supervisory Union, Morrisville, Stowe, Elmore
North Country Schools Supervisory Union, Newport City
Northgate Residents' Ownership Corporation, Burlington
Safe Kids Addison County, Vergennes
Sexual Assault Crisis Team, Barre
South Royalton Area Senior Citizen's Center, South Royalton
Twin Valley Seniors, Inc., Marshfield
United Counseling Service of Bennington County, Bennington
Vermont Adult Learning, Waterbury
Vermont Affordable Housing Coalition, Burlington
Vermont Center for Independent Living, Montpelier
Vermont Child Passenger Safety, Milton
Vermont Community Loan Fund, Montpelier
Vermont Council of Special Education Administrators, Montpelier
Vermont Education Opportunity Program (VEOP), Brandon
Vermont Educational Opportunity Programs (VEOP), Castleton
Vermont Occupational Therapy Association, Plainfield
Vermont-NEA, Montpelier
VocRehab Vermont, Williston
Voices for Vermont's Children, Montpelier
Washington West Supervisory Union, Waitsfield
Virginia
A Hope 4 Tomorrow, Inc., Portsmouth
Beach House, Inc., Virginia Beach
Byrd Elementary School, Richmond
Coalition for Justice, Blacksburg
Community Housing Partners, Christiansburg
ENDependence Center of Northern VA, Arlington
Families & Allies of Virginia's Youth, Arlington
FeedMore, Inc., Richmond
Learning Disabilities Association of Virginia, Richmond
Local Office on Aging, Roanoke
Mental Health America, Charlottesville-Albemarle, Charlottesville
National Alliance on Mental Illness (NAMI) NoVa, Leesburg
National Alliance on Mental Illness (NAMI), Virginia Beach
Partnership for People with Disabilities, University Center for 
    Excellence in Developmental Disabilities
(UCEDD), Richmond
Potomac & Chesapeake Association for College Admission Counseling, 
    Virginia Beach
Prince George County Public Schools, Prince George
Public Housing of Residents, Charlottesville
Richmond Public Schools, Richmond
Sexual Assault Victims Advocacy Services (SAVAS), Woodbridge
Social Action Linking Together (SALT), Vienna
The Virginia School Counselor Association, Manassas
University of Virginia, Charlottesville
Virginia Association of Centers for Independent Living, Roanoke
Virginia Association of Community Services Boards, Richmond
Virginia Association of Educational Opportunity Program Personnel, 
    Wytheville
Virginia Association of School Librarians, Richmond
Virginia Association of Secondary School Principals, Richmond
Virginia Council of Administrators of Special Education (VCASE), 
    Hopewell
Virginia Education Association, Richmond
Virginia Housing Coalition, Richmond
Virginia Organizing, Charlottesville
Voices for Virginia's Children, Richmond
Virginia Local Initiatives Support Corporation, Richmond
Virgin Islands
St. Croix Educational Administrators' Association, St. Croix, U.S. 
    Virgin Islands
Washington
Above The Line: The Poverty Project, Lacey
Aging and Long Term Care of Eastern Washington, Spokane
API Chaya, Seattle
Asian Counseling & Referral Service, Seattle
Association of Washington School Principals, Odessa
Campion Foundation, Seattle
Career Path Services, Spokane
Cascadia Community College, Bothell
Center for Independence, Tacoma
Children's Alliance, Seattle
Church of Steadfast Love, Seattle
Columbia River Economic Development Council, Vancouver
Community Psychiatric Clinic, Seattle
Compass Housing Alliance, Seattle
Conscious Talk Radio, Issaquah
Food Lifeline, Seattle
Frontier Behavioral Health, Spokane
Heartlandz L.L.C., Bellingham
HomeStep, Seattle
Immanuel Community Services, Seattle
Impact Capital, Seattle
Inchelium School Board, Inchelium
Infectious Disease Research Institute (IDRI), Seattle
International Longshore and Warehouse Union, Seattle
Islamic Civic Engagement Project, Seattle
Kitsap Mental Health Services, Bremerton
Lifelong AIDS Alliance, Seattle
Lutheran Community Services Northwest, Spokane
Mount Adams School District #209, White Swan
Nespelem School District #14, Nespelem
Northwest Harvest, Seattle
Northwest Health Law Advocates, Seattle
Office of Rural & Farmworker Housing, Yakima
Pacific Northwest Association for College Admission Counseling, Seattle
Parents Organizing for Welfare and Economic Rights, Olympia
Pend Oreille County Counseling Services, Newport
Pierce County Housing Authority, Tacoma
Port Gamble Elder's Program, Kingston
Port Gamble S'Klallam Housing Authority, Kingston
Port Gamble S'Klallam Tribe Early Childhood Education Program Policy 
    Council, Kingston
Puget Sound Alliance for Retired Americans, Seattle
Puget Sound ESD, Renton
Sacred Heart Social Justice Ministry, Pullman
Save A Life, Puyallup
Seattle BioMed, Seattle
Seattle Biomedical Research Institute and Institute for Systems 
    Biology, Seattle
Seattle Jobs Initiative, Seattle
Seattle RESULTS, Seattle
Sexual Assault and Family Trauma Response Center, Spokane
Skagit Habitat for Humanity, Mount Vernon
Solid Ground, Seattle
Sound Mental Health, Seattle
The Arc of King County, Seattle
The Arc of Snohomish County, Everett
The Arc of Tri-Cities, Richland
The Arc of Washington State,
Triumph Treatment Services, Yakima
Washington Association for Career and Technical Education, Olympia
Washington CAN!, Seattle
Washington Community Mental Health Council, Seattle
Washington ElderCare Alliance, Olympia
Washington Global Health Alliance, Seattle
Washington Library Media Association (WLMA), Seattle
Washington State Association of Head Start and ECEAP, Bellevue
Washington State Council on Aging, Spokane
Washington State TRIO Association, Seattle
Wellpinit School District, Wellpinit
Willapa Behavioral Health, Long Beach
Women's Coalition of Washington, Yakima
WorkForce Central, Tacoma
Workforce Development Council Seattle-King County, Seattle
Yakima Valley System of Care, Yakima
Valley Cities Counseling, Kent
West Virginia
Boone County Community Organization, Madison
CommunityWorks in West Virginia, Inc., Charleston
Huntington Area Food Bank, Huntington
Mason County Schools, Point Pleasant
Mountain Community Action Project of West Virginia, Inc., Buckhannon
Northern West Virginia Center for Independent Living, Morgantown
Pocahontas County Health Department, Marlinton
The Fairmont Morgantown Housing Authority, Fairmont
Valley HealthCare System, Morgantown
West Virginia Association of Secondary School Principals (WVASSP), 
    Charleston
West Virginia Campus Compact, Morgantown
West Virginia Coalition to End Homelessness, Inc., Weston
West Virginia Council of Administrators of Special Education, Franklin
West Virginia TRiO Association, Huntington
West Virginia University, Morgantown
Wisconsin
Access to Independence, Madison
Ashland County Aging Unit, Inc., Ashland
Association of Wisconsin School Administrators, Madison
ASTOP Sexual Abuse Services, Fond du Lac
Citizen Action of Wisconsin, Milwaukee
City of Kenosha Housing Authority, Kenosha
CWC HIV/AIDS Advocacy, Policy & Procedure Consultant Service, Milwaukee
Family Forum, Inc., Superior
Grassroots Empowerment Project, Madison
HAVEN, Inc., Merrill
Independent Living Council of Wisconsin, Inc., Madison
La Crosse Wisconsin WIC Program, La Crosse
Learning Disabilities Association of Wisconsin, Kiel
Local Initiatives Support Corporation Milwaukee, Milwaukee
Marquette University, Milwaukee
Menominee Indian School District, Keshena
Mental Health America of Wisconsin, Madison
Milwaukee Area Workforce Investment Board (MAWIB), Milwaukee
Northwest Wisconsin Concentrated Employment Program (CEP, Inc.), 
    Ashland
Northwest Wisconsin Workforce Investment Board, Inc., Ashland
Polk County Health Department, Balsam Lake
Reach Counseling Services, Inc., Neenah
Southwest Wisconsin Workforce Development Board, Platteville
Wisconsin Association for College Admission Counseling, Madison
Wisconsin Association of Educational Opportunity Program Personnel 
    (WAEOPP), Superior
Wisconsin Council of Administrators of Special Services, Madison
Wisconsin Council on Children and Families, Madison
Wisconsin Education Association Council, Madison
Wisconsin Manufactured Home Owners Association, Inc., Marshall
Wisconsin Regional Training Partnership, Milwaukee
Wisconsin School Social Work Association, Milwaukee
Wisconsin WIC Association, Oshkosh
Workforce Development Board of South Central Wisconsin, Madison
Wyoming
Fremont County Public Health, Lander
Fremont County School District #14, Ethete
Fremont County School District #21, Fort Washakie
Natrona County Meals On Wheels, Casper
Wyoming Association of Secondary School Principals, Laramie
Wyoming Children's Action Alliance, Cheyenne
Wyoming Coalition for the Homeless, Cheyenne
Wyoming Occupational Therapy Association, Casper
Wyoming Protection & Advocacy System, Inc., Cheyenne
Wyoming School Counselors Association, Worland

    Senator Murray. And those organizations are very, very 
concerned about the domestic side and the impact on our 
country.
    Everybody believes sequestration is a terrible thing. We 
cannot let it happen. We have to come up with a balanced 
proposal, one that we all know has to include something from 
both sides, including revenue from the wealthiest Americans. 
They have to be willing to participate in this and pay their 
fair share.
    So I think the answer is in front of us. It's just going to 
take the political will from both sides to say that we know 
that's what we need to do.

            IMPACT OF SEQUESTRATION ON U.S. COMPETITIVENESS

    But I do think, Mr. Secretary, we have to focus on our 
economic competitiveness. You talked about it in your opening 
statement. And I think the investments that we make are 
absolutely crucial to our country recovering from this 
recession and creating jobs that are so important.
    And I wanted to ask you today what you think that 
sequestration coupled with the appropriations for education and 
the reductions in spending that we have been seeing will have 
on the effect of our competitiveness.
    Secretary Duncan. So I worry tremendously today that, in 
tough economic times, we have 2 million at least, I think, 2 
million high-wage, high-skilled jobs that are unfilled. And I 
can't tell you how many Chief Executive Officers (CEOs) that 
I've met with and the President's met with who say we're trying 
to hire right now, and we can't find the employees with the 
skills that we're looking for.
    I think we, in education, have to look ourselves in the 
mirror and be very self-critical and say we have to do a much 
better job.
    CEOs want to keep those jobs here. They want to hire. They 
want to keep their companies in the United States. But they're 
going to go to where the knowledgeable workers are, and that's 
going to be right here or that's going to be India, China, 
South Korea, or Singapore.
    And so, for me, this fight is about so much more than 
education. It is absolutely about economic competitiveness. And 
if we think being 16th in the world or 20th in the world in 
college graduation rates is going to lead to a strong economy, 
I just fundamentally reject that.
    If we can again lead the world in college graduation rates, 
then I become very hopeful about our economic competitiveness 
and having a lower unemployment rate.
    So these two things I said earlier are just absolutely 
inextricably linked. You can't separate them out. We have to 
educate our way to a stronger economy.

           FOREIGN COUNTRIES INCREASING THEIR COMPETITIVENESS

    Senator Murray. What about those countries that are nipping 
at our heels, China and India, South Korea? Are they increasing 
or decreasing their investments in education?
    Secretary Duncan. Senator, they are not scaling back, I 
would say. It's not like folks are waiting around for us to 
pass them by.
    These guys are innovating. They're creative. They're 
putting more resources behind this. They're doing things at a 
scale and with a sense of urgency that I think stuns people 
here.
    And I'm spending more and more of my time with my 
international counterparts, because that's where the 
competition is.
    And anyone who thinks that the rest of the world is going 
to stand idly by and watch us try and catch up fundamentally 
doesn't understand how seriously these countries are taking 
their need to educate, to innovate, to be creative, to be 
entrepreneurial. And our competition is very, very strong.
    Senator Murray. Mr. Chairman, I think all of us should 
really listen to that. If we want our country to be the top in 
the global economic world that we live in, we're going to have 
to make investments just like our competitors do. And this 
sequestration and this budget deal that is in front of us 
offers us a stark choice today. We can move forward and invest, 
or we can just hide behind cutting, and I just do not believe 
that's the right way to go.

                   BALANCED, BIPARTISAN ACTION NEEDED

    There is no magic to this. Revenue has to be on the table. 
And I hope that as more members learn about the impacts of the 
choices that we have in front of us that it will get us to a 
balanced, bipartisan, and fair deal where every American 
participates in our future.
    Thank you, Mr. Secretary, and thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Murray.
    Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman.
    And thank you, Mr. Secretary.

             IMPACT OF EXEMPTING DEFENSE FROM SEQUESTRATION

    And I want to underscore some points that were made by the 
chairman and by Senator Murray.
    First of all, we have already made $1 trillion in cuts to 
discretionary spending as a way to begin to approach the 
deficit.
    And as the chairman pointed out, we're at the lowest 
percentage of discretionary spending since the 1950s. So the 
issue of out-of-control spending has to be put in the context 
of deep cuts already and the lowest percentage of discretionary 
spending for all of these programs in 60 years.
    But the point, I think, the chairman made is very well 
taken, which is when you listen to our Republican colleagues, 
they're talking about exempting defense, they're talking about 
no revenue, which means that the 7.8-percent cut you're talking 
about is probably closer to 15 percent. And the worst-case 
plans that are frightening at this moment become absolutely 
horrible.

        SEQUESTER'S IMPACT ON ALREADY TIGHT STATE/LOCAL BUDGETS

    But the point I want to make, Mr. Secretary, is that when 
you get down to the education situation, at the local level, 
they're already suffering. States are also trying to deal with 
this dilemma. So we will be doubling down on our cuts at a time 
when States and localities are facing similarly difficult cuts.
    Can you give us the context from both those convergent 
local pressures and a huge, in fact, doubling probably, 
doubling down of cuts?
    Secretary Duncan. It's a great point. And as I talked to 
educators who have been in the business, who have been working 
with children for 10, 20, 30, 40 years, many from across the 
country say this is the toughest economic climate that they 
have ever worked in, more constrained in resources.
    We were thrilled that the American Recovery and 
Reinvestment Act (ARRA) saved a couple of hundred thousand 
jobs, but we also lost a couple hundred thousand jobs across 
this country.
    And with class size going up; after-school programs being 
eliminated; some school districts going to 4-day weeks rather 
than 5-day weeks; art, dance, drama, music, physical education 
going away; early childhood cutbacks; none of these things are 
good for children or good for education or ultimately good for 
our country.
    So you're exactly right. In the midst of a very, very tough 
economic time, 40 States, last year, 80 percent of the 
country--Republican, Democrat--40 States cut funding to higher 
education. Again, we're trying to lead the world in college 
graduation rates. That doesn't help us get where we need to go.
    So at the early childhood level, the K-12 level, at the 
higher education level, these are very, very, very difficult 
economic times. And to compound those challenges, to compound 
those difficulties, is inconceivable to me.
    Senator Reed. In effect, you know, what we're doing is not 
only in the short run shedding a significant number of jobs. I 
don't have the exact numbers, but we've seen private employment 
grow consistently over the last several years under the 
President's program. But what we've seen after ARRA was 
exhausted is public sector employment shrink dramatically, 
particularly in education, and that would accelerate, 
presumably, if these cuts went through and moreover were 
doubled because we've exempted defense.
    Secretary Duncan. Yes.

              IMPORTANT TO MAINTAIN CURRENT REFORM EFFORTS

    Senator Reed. So in the short run, you lose jobs, which 
means the economy continues to languish. But in the longer run, 
I think all of your efforts, the Race to the Top, commendable 
efforts, all of your tough calls about how do we reform 
education, will be lost.
    And rather than sort of trying to catch up with China, 
India, et cetera, we'll fall, in your view, let me ask you, 
further and further behind?
    Secretary Duncan. I think that's exactly right. And again, 
at a time when we have to get better, faster, despite the tough 
economic times, we can't afford to go in the opposite 
direction. We can't afford to do that.

             COMPETITIVENESS IMPORTANT TO NATIONAL SECURITY

    Senator Reed. Just a final point, as my colleagues have 
pointed out, Secretary Rice, as you pointed out, Secretary 
Rice, military leaders, everyone talks about how this is now a 
global competition for the best-educated people in the world. 
If we lose that competition, then our fundamental sort of 
foundation of national security will quickly erode.
    And we won't invent the new technologies. We won't have the 
sophisticated military and associated personnel to use it. And 
essentially, not just in terms of national security, but in 
terms of the fabric of our country, it will deteriorate.
    Secretary Duncan. That's exactly right. I'll just quickly 
add, Mr. Chairman, that I know our children are as talented, as 
creative, as entrepreneurial, as innovative, as children 
anywhere in the world. I just want to level the playing field 
for that. I just want to give them a chance to fulfill their 
potential. And if we fail to give them the chance to fulfill 
their academic and social potential, shame on us.
    Senator Reed. Thank you, Mr. Secretary.
    Senator Harkin. Thank you, Senator Reed.
    Senator Brown.
    Senator Mikulski.

                  IMPACT OF SEQUESTER ON SCHOOL REFORM

    Senator Mikulski. Mr. Chairman, thank you, and thanks for 
holding this hearing to really highlight what a sequester 
means, because there's a lot of chest pounding going on about 
the impact on defense, but it's really the impact on our 
economy both today and in the future.
    Mr. Secretary, I want to ask you a question about the 
impact of sequester on reform. You know, in my own home State 
of Maryland, we boast a State that wins Blue Ribbon Schools, 
Nobel Prizes, and has one of the greatest land grant colleges, 
the University of Maryland, and an iconic institution like 
Johns Hopkins University, and a Governor who's been really 
committed to school reform.
    So, I want to ask you, you came in to the administration as 
a reformer and you shook it up. And we've now been steadily 
working on reform, how to improve our educational system for 
the 21st century.
    Could you tell us, if we go to sequester, not targeted 
fiscal discipline initiatives but swashbuckling across 
departments, what will be the impact on reform both today and 
how you would see its impact, say, 3 to 5 years from now?
    Secretary Duncan. It would be a massive step backward. So 
everything we tried to do to drive reform would be affected, 
whether it's more money for early childhood education through 
the Race to the Top Early Learning Challenge, whether it's been 
Race to the Top at the State level, whether it's been school 
money to turn around chronically underachieving schools. We're 
seeing unprecedented creativity and courage from States like 
Maryland that's been at the forefront of this movement and from 
States from around the country.
    And they want to improve. No one is making excuses. No one 
is saying the status quo is good enough. But we have to be a 
good partner. We have to be there for them. And we have to 
continue to support that great leadership and creativity at the 
local level.
    And if we walk away from the table, again, we'll just see a 
massive step in the wrong direction.
    Just one quick example. We talked about the dropout rate. 
Our School Improvement Grants, thanks in part to them, and to 
other things as well, have helped, so that today, we have 
700,000 fewer children enrolled in ``dropout factories'' than 
just a couple of years ago. Now those schools have a long way 
to go, but that's real progress.
    Do you want to see that go south, or do you want to 
continue to see those numbers of children going to very low 
performing schools, dropout factories, do you want to see those 
numbers continue to go down?
    The answer is obvious: We have to continue to drive reform.

   BROAD, INDISCRIMINATE IMPACT ON EDUCATION IN ALL LOCAL EDUCATION 
                                AGENCIES

    Senator Mikulski. So the lack of funding would impact, say, 
a school district like Baltimore or Prince George's County or 
even one of my rural school districts?
    Secretary Duncan. It would impact every single school 
district in the country.
    Senator Mikulski. And how would it do that?
    Secretary Duncan. It would result in significantly less 
resources across the board. So whether it be title I money, 
whether it be title II money, whether it be money for 21st 
Century Community Learning Centers, special education money, 
money for career and technical education, you name it, we would 
be forced to cut indiscriminately. So every single one of those 
funding streams that comes from us to State and local school 
districts would be cut.

          POTENTIAL TO UNDERMINE REFORMS ACHIEVED AND PLANNED

    Senator Mikulski. Do you think it would also sap the energy 
of reform that--I don't want to put words in your mouth. God 
knows I wouldn't want to do that with Secretary Arne Duncan.
    But tell me, you know, there's only so much time in a day 
administrators have and principals, et cetera. So if they have 
to put energy into thinking about counting pencils and reusing 
materials or foregoing it rather than energy into reform--do 
you think it takes away from the focus, the energy, the 
experimentation that was going on, that added vitality? In 
other words, there was juice, there was mojo behind reform.
    Secretary Duncan. As I visit schools around the country, 
Senator, I've been to hundreds and hundreds of schools, I can't 
ask people to work much harder. People are working so hard, 
often in very, very difficult circumstances, trying to make a 
difference and trying to help young people be successful 
academically. To slap them in the face and say, we're going to 
walk away from our investment, not just financially but to your 
point, psychologically or emotionally, that's a very, very 
difficult thing to ask teachers and principals or 
superintendents to adjust to. And we should not be putting them 
in that situation.
    Senator Mikulski. So now, particularly after 4 years of 
reform efforts, and let's face it, there were some tussles with 
the teacher associations, but it seems like now there's been a 
detente and now a focus on how we can really evaluate teachers 
and move forward.
    Do you feel that, gee, we're on the brink now of making 
even more substantial leaps if we stick to the program?
    Secretary Duncan. There's no question. I'd say more than 
detente, I think there's a common interest amongst everybody 
that we have to work together to lead the world in education, 
and that the status quo wasn't enough.
    Everyone is not going to agree on every issue, but I think 
there's a tremendous convergence of agreement of what we have 
to get done and what we have to get done together. And again, 
to take a step backwards, to take a step in the wrong 
direction, would be a huge blow to those efforts, those 
collective efforts.
    Senator Mikulski. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Harkin. Thank you very much, Senator Mikulski.
    Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. Thanks for this 
hearing.

                 CHANGE SINCE THE LAST BALANCED BUDGET

    I think it bears repeating that Senator Inouye, the 
Chairman of the Appropriations Committee, gave us a yardstick 
to measure what has happened in the Federal budgeting process 
since the last time our budget was in balance under President 
Clinton. And in that 10- or 11-year period of time, in real 
dollars, or constant dollars, we have seen the following: In 
nondefense discretionary spending, there has been zero 
increase--zero increase--in the last 11 years. In the 
entitlement mandatory area, there has been a 30-percent 
increase, reflecting the arrival of the boomers and the cost of 
healthcare. On the defense side, there has been, as of this 
year's budget, a 73-percent increase in spending since the 
budget was last in balance.
    And now what we are facing today is the prospect of even 
deeper cuts on the nondefense discretionary side and education, 
and strong calls from the other side of the aisle to leave 
defense untouched.
    I want the strongest military in the world. We have it. I 
want to make sure that if my nephew is again deployed to 
Afghanistan, he has the best, and everyone like him has the 
best, to come home safely.
    But it just is incredible to me that we cannot find, within 
the Department of Defense and Pentagon, savings to help us 
reduce our deficit. There are those who argue we can find none.

                 EXAMPLES OF IMPACT ON CHICAGO SCHOOLS

    I would like to ask you, Secretary Duncan, go back a little 
in time to your role in the city of Chicago as superintendent 
of that school system, and tell me what this sequestration 
would mean to the school system that you were struggling to 
build into a model for urban education.

              ACCESS TO AFTER-SCHOOL ACTIVITIES AMONG CUTS

    Secretary Duncan. The impact would be more things than I 
can state now but just a couple of simple ones: Class size 
would almost automatically increase. Access to summer school 
for children who are struggling would decrease. Access to 
after-school programming would decrease. Access for children 
with special needs to the services and support they need to be 
successful would decrease. Career and technical education, 
vocational education, which is really important, would 
decrease. Access to college counselors would decrease. Access 
to extracurriculars would decrease.
    And I could go on and on and on but just as a start there.
    Early childhood education with chances to have children 
enter kindergarten ready to succeed academically and socially, 
those things would go down as well. After-school programming, 
which is so hugely important in communities like Chicago, would 
go down; there would just be less access.

     RELATIONSHIP BETWEEN AFTER-SCHOOL ACTIVITIES AND DROP IN CRIME

    Senator Durbin. We recently have gone through a spate of 
increased crime in our city of Chicago. Mayor Emanuel and the 
superintendent of police, they are working hard on it. And one 
of the things that they have found in the communities where 
there are activities for young people, after-school programs 
and activities, there's less violence. It's pretty obvious.
    To a parent, it's very obvious. What was the old saying? 
Idle time is the devil's workshop?
    Senator Mikulski. Something like that.
    Secretary Duncan. Something like that.
    Senator Durbin. And what we find here then is a proposal 
that when it comes to cutting at the Federal level, there will 
be fewer activities for enrichment and opportunities just to 
work-off energy available to students in school districts 
across the country but, particularly, in urban districts where 
it could have a profound impact on the quality of life.
    Secretary Duncan. In poor communities, be it inner-Chicago 
or rural or remote areas, we need more opportunities for 
students during the school day, before school, after school, 
Saturdays, weekends, summers, whatever it might be. We need 
more opportunities, not less.
    There is no way these kinds of massive cuts can lead to 
more opportunities. It is impossible.

            ALL OPTIONS FOR FISCAL CUTS MUST BE ON THE TABLE

    Senator Durbin. I cannot imagine that we believe we can 
build a stronger America and cut education. That is just 
counterintuitive to all of us in our lives, and 
counterintuitive to the American story, where people came to 
this country and succeeded because parents said to their kids, 
I may not have much education, but you're going to get the best 
and you better come home with a good report card. That was my 
family story and the story of America. And now we have those 
who want to walk away from it.
    I'm all for bringing this budget deficit under control. 
There are ways to do it. But if we don't go back to a model 
that puts everything on the table, including revenue, including 
defense, if we don't put it all on the table, we're going to 
find ourselves paying a heavier price than even the price of 
interest on our debt.

                        IMPORTANCE OF COMPROMISE

    Secretary Duncan. I think our democracy was built on the 
value or the notion of compromise, and you don't have a vibrant 
democracy without a willingness to compromise. And if somehow 
that's become a dirty word, that's very, very troubling to me.
    Senator Durbin. Thank you.
    Thanks, Mr. Chairman.
    Senator Harkin. Thanks, Senator Durbin.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I would like to ask Senator Durbin why he turned to Senator 
Mikulski to ask her about the devil's workshop. That's what I 
want to know.
    Senator Durbin. Similar Catholic backgrounds.
    Senator Mikulski. I know a lot about that. See me later.
    Senator Pryor. You're our in-house expert.
    Mr. Secretary, thank you for being here.

                IMPLEMENTATION OF EDUCATION BUDGET CUTS

    I have seen the numbers from fiscal year 2011, fiscal year 
2012, the Senate number from fiscal year 2013, and the 
sequestration numbers.
    And if you look at fiscal year 2011, fiscal year 2012, 
you've already taken about a $230 million cut. That's real 
money. And we know the Senate number. We don't know what the 
final number will be for fiscal year 2013 yet, but 
sequestration obviously is going to have a negative impact on 
what you're able to do and how we are going to be able to 
educate our children.

                   ACROSS-THE-BOARD CUT TO EDUCATION

    I would like to ask a little bit about the logistics 
though. I've seen the estimates that CBO talks about, a 7.8-
percent reduction. When people talk about sequestration, they 
talk about an across-the-board cut.
    I'm wondering, within your Department, do you see this as 
an across-the-board cut or will you pick and choose certain 
things to cut to try to implement the reductions in a smart 
way?
    Secretary Duncan. I don't think we have a lot of 
flexibility there, Senator. You know, I mentioned a number of 
items. I would add TRIO to that list, Gaining Early Awareness 
and Readiness for Undergraduate Programs (GEAR UP), School 
Improvement Grants. We would have to cut across the board.
    Senator Pryor. So if the number, for example, was 7.8 
percent, you would just have to take each program----
    Secretary Duncan. Regardless of impact, regardless of 
efficacy, regardless of effective versus ineffective. It is a 
horrendous way to think about budget choices.

           GLOBAL COMPETITORS INCREASING, NOT CUTTING BUDGETS

    Senator Pryor. And one of the points I think you made 
earlier is that our competitors in this global economy are not 
cutting. In fact, they're doing the opposite. Is that fair to 
say?
    Secretary Duncan. That is exactly right. They are 
investing, they are innovating, they are committed to making 
sure their young people have a very high-quality education.

                  EDUCATION CUTS ABSENT SEQUESTRATION

    Senator Pryor. Now, if we are able to avoid sequestration, 
which I think is actually possible, we are going to have a lot 
of work to do late this year on the budget and taxes to get the 
deficit where it needs to be. This is going to be a huge 
undertaking by the Congress. I hope that the Congress and the 
House and Senate both will be serious about it when we get to 
that point.
    But I think it's possible that we'll avoid sequestration, 
or at least limit it in some way. But you will probably still 
be looking at some cuts in education.
    Do you have a game plan for that? Are you just going to 
wait on the Congress to act?
    Secretary Duncan. So again, we've cut over the past couple 
of years more than $1.2 billion of our budget and have been 
trying to, again, take money out of programs that we think are 
less than optimally effective and go other ways. And our budget 
team is as smart and talented as I think any team in any 
agency. And we would go through that exercise every single 
year.
    And, frankly, whether we have a budget increase or a budget 
cut, we make those tough calls. And so we would be prepared to 
do that going forward. We just want to have the ability to do 
this in a thoughtful way.

               EDUCATION IS AN INVESTMENT, NOT AN EXPENSE

    At the end of the day, we fundamentally think of education 
as an investment, not as an expense. I think that's part of the 
value of the debate that our country is having, is education an 
expense, that we should cut back on early childhood education 
and K-12 reform and access to higher education? Or is this an 
investment in young people, in our country, in our country's 
economic future?
    That's the challenge, that's the debate, I think, our 
country is looking at.

      GUIDANCE TO LOCAL EDUCATION AGENCIES IF SEQUESTER IS ENACTED

    Senator Pryor. Let me praise you here just for a minute, 
because I've been meeting with some of our principals, and 
teachers, and educators, and folks involved in that back in 
Arkansas. And you have sent out a letter to school officials 
alerting them that this may be coming. And I think that's good 
to be in touch with them.
    But they say that your letter or the communications with 
the Department of Education have not given a whole lot of 
guidance, real specific guidance on what to do.
    Is the plan that, if we have to do sequestration and we 
have to implement it fully, will you guide them through this 
process?
    Secretary Duncan. We will do everything we can, Senator, to 
be a good partner. Obviously, the vast majority of our energy 
now is to avoid sequestration. And my understanding is 
sequestration was set up so that it was so bad, sort of mutual 
self-destruction, that neither side would want to go down that 
path.
    Senator Pryor. Do you agree it is that bad?
    Secretary Duncan. I do think it's that bad.
    And so the vast majority of our time and energy over these 
next 5 months is to do everything we can to be a good partner 
to avoid this happening. And if it does happen, we'll do 
everything we can to instruct and to guide, and to lead folks 
at the State and local level.
    But, Senator, we should not go down that path as a country.
    Senator Pryor. You know, when I look at your education 
funding, your budget, your programs, all the things you do, 
everything is important. I mean, the goals were good. We're 
trying to educate our children for all kinds of good reasons to 
do that.

          IMPACT ON RURAL AREAS AND STUDENTS WITH DISABILITIES

    But there are two areas that I'm really concerned about 
with sequestration. That would be the impact on rural America. 
And as you know, a lot of those schools are struggling already, 
and you look at all the test scores, look at all the funding, 
look at all the issues they're dealing with, rural America is 
really struggling. And then disabilities, students with 
disabilities.
    I'm just worried that cuts in those--they're going to be 
devastating everywhere, but in those two areas, they really, 
really could be harsh.

                   SEQUESTRATION EFFECT ON IMPACT AID

    Secretary Duncan. No question. And obviously, there's so 
many things to add to the list, but Impact Aid, to think that 
we would walk away from funding for the children of 
servicemembers who are risking their lives every single day 
overseas and somehow say we'd give less funding to those 
children's schools is inconceivable to me.
    Senator Pryor. Mr. Chairman, thank you.
    Senator Harkin. Thank you, Senator Pryor.
    Senator Shelby.

                 EDUCATION BUDGET INCREASES SINCE 2008

    Senator Shelby. Mr. Secretary, we've been hearing numbers 
here about the education budget. It is my understanding, and 
you correct me if I'm wrong on this, that since 2008, the 
education budget has increased $7.2 billion from $59.2 billion 
to $68.4 billion. Are those figures right?
    Secretary Duncan. I think those figures should be about 
right. We fundamentally think education is an investment, not 
an expense.
    Senator Shelby. But it is an appropriation, so it's deemed 
as an expense of some kind. It might be an investment. We all 
like that. But it is an appropriation, is it not? It's money.
    Secretary Duncan. Absolutely. We have to educate our way to 
a better economy.
    Senator Shelby. Sure. Thank you.
    Senator Harkin. Mr. Secretary, first of all, thank you 
again, for being here and for your very eloquent statement and 
answers to our questions. Thank you for your great stewardship 
for the Department of Education, and for so many of the reforms 
that you have made. And for ensuring that our kids are the best 
educated in the world.
    We're going to have some tough months ahead of us, but I 
think what we've heard is that, in education, sequestration 
would be devastating, for present day and for the future of 
this country. And I think you put that in pretty stark terms.
    Thank you very much, Mr. Secretary, unless you had 
something else to add.
    Secretary Duncan. Thank you for the opportunity, and thank 
you for your leadership.
    Senator Harkin. Thank you, Mr. Secretary.

                       NONDEPARTMENTAL WITNESSES

    Senator Harkin. And now we'll call our second panel.
    I'm sorry. Senator Landrieu was hoping to attend today. 
However, she had a prior commitment. She would like to express 
her apologies and would like to submit some questions for the 
record. Without objection, that will be accommodated.
    Our next panel I'll introduce as they are taking their 
seats.
    June Atkinson has served as the State superintendent of the 
Public Schools of North Carolina since 2005. She was the first 
woman elected to this position. Dr. Atkinson received her 
master's degree in business education from Radford University, 
a master's degree in vocational and technical education from 
Virginia Tech, and a doctorate in educational leadership and 
policy from North Carolina State University.
    Billy Walker is currently serving his fifth year as 
superintendent for the Randolph Field Independent School 
District in Universal City, Texas. Dr. Walker received his 
bachelor's degree in sociology and physical education from East 
Texas Baptist University and both his master's in education 
administration and his education doctorate in educational 
leadership from Lamar University.
    Mr. Neal McCluskey is the associate director of the Cato 
Institute Center for Educational Freedom. Mr. McCluskey holds a 
master's degree in political science from Rutgers University.
    Tammy Mann serves as the president and CEO of the Campagna 
Center--I hope I pronounced that right--Campagna Center in 
Alexandria, Virginia, which administers Head Start and Early 
Head Start for more than 400 children. Dr. Mann was recently 
appointed by the Secretary of Health and Human Services to 
serve on the advisory committee for Head Start Evaluation. She 
received her bachelor's degree from Spelman College and 
completed her master's and doctorate in clinical psychology at 
Michigan State University.
    To all of you, I thank you for being here and testifying 
today. Each of your statements will be made a part of the 
record in their entirety. We'll go from left to right. And if 
you could sum up in 5 minutes or so your basic testimony and 
leave some room for some questions, we'd appreciate that.
    So, Ms. Atkinson, welcome and please proceed.
STATEMENT OF JUNE ATKINSON, STATE SUPERINTENDENT OF 
            PUBLIC INSTRUCTION, RALEIGH, NORTH CAROLINA
    Dr. Atkinson. Thank you, Chairman Harkin and Ranking Member 
Shelby. Thank you for the opportunity to testify before you 
today about the impact of sequestration on education.
    I am June Atkinson, State superintendent of public 
instruction for the great State of North Carolina, and I'm also 
a board member for the Council of Chief State School Officers. 
The council just completed its annual summer conference last 
week, and the issue of sequestration came up numerous times. My 
colleagues across the Nation share my concern about the impact 
of these drastic cuts.
    There are two fundamental issues I want to address. First, 
my strong opposition to automatic, across-the-board funding 
cuts that will be detrimental to education reform and 
remodeling occurring across the country. In North Carolina, as 
in other States, reforms supported by Federal funds are focused 
on raising student achievement and helping to ensure that our 
students graduate college, career and citizenship ready.
    Second, the immediate need for clear and complete guidance 
from the Federal Government on how sequestration will work, in 
the event that it goes into effect.
    Fortunately, we have received some initial guidance late 
last week from the administration regarding how portions of 
advanced funding of title I, title II, IDEA part B, and career 
and technical education appropriations will be treated. But 
States need to have the complete picture.
    Chief State school officers across the country are focused 
on education reform efforts such as implementing the common 
core State standards, developing new assessments to better 
gauge student learning, and developing new teacher and leader 
evaluation systems to help drive improvements across our 
educational workforce.
    We are focusing on the use of technology systems to improve 
the effectiveness and efficiency of student and teacher 
learning.
    We have taken on these tasks in the best interests of our 
students even during some of the toughest economic times. 
Simultaneously, though, our education obligations grow, with 
States expecting to educate 540,000 more K-12 students.
    Let me give you some examples from North Carolina. Sixteen 
percent of our education budget comes from the Federal 
Government. An across-the-board cut would dramatically stifle 
our remodeling efforts underway to personalize education so 
that each student will graduate prepared for options. And let 
me give you some examples.
    We are making tremendous success in turning around our low-
performing schools under the School Improvement Grants program. 
With a cut, we would have an impact upon 1,000 students in 
North Caroline alone.
    We are also implementing a blended learning approach of 
face-to-face and online instruction for our students with 
disabilities using IDEA funds, which would be subjected to a 
loss of more than $900 million nationally, with an impact upon 
more than 13,000 students in North Carolina.
    North Carolina also leads the Nation in credentialing 
students with Microsoft certification. During the last 18 
months, 51,225 certifications were issued to our students and 
some teachers. Without support from Career and Technical 
Education funds for this initiative, we could not have prepared 
students to facilitate this important initiative for our 
students.
    And I must also mention that our graduation rate of our 
students who complete a career technical sequence is 90 
percent.
    Every summer, our students who come from homes where no one 
is reading to them or without books to read lose 2\1/2\ to 3 
months of reading progress. They come back to school in the 
fall and the teachers have to re-teach what the students have 
lost. Through title I funding, many of our title I schools such 
as H.C. Bellamy Elementary School in Wilmington, North 
Carolina, offer reading programs to help with the reading loss.
    States such as mine are strategically addressing the need 
of our students, especially our most vulnerable students.

                           PREPARED STATEMENT

    In order for us to move forward, we need specific and 
complete guidance about the cuts. Please look at sequestration 
and how it will hurt States such as mine. Education is a tiny 
fraction of the Federal budget but with enormously high impact 
on our Nation's future. Teachers and students are not 
responsible for sequestration, yet they must suffer if 
sequestration goes into effect.
    Students and educators are not to blame for our Nation's 
fiscal problems, and they deserve better. I ask for the 
Congress's action for the good of the country, our schools, and 
our children.
    [The statement follows:]
                  Prepared Statement of June Atkinson
    Chairman Harkin, Ranking Member Shelby, and members of the Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Subcommittee: Thank you for inviting me to testify here 
today on the impact of sequestration on education reform and 
programming. I am June Atkinson, State Superintendent of Public 
Instruction, for the great State of North Carolina and a board member 
for the Council of Chief State School Officers. The Council just 
completed its annual summer conference last week and the issue of 
sequestration came up numerous times. My colleagues across the Nation 
share my concern about the impact of these drastic funding cuts.
    There are two fundamental issues I want to address today. First, my 
strong opposition to automatic, across-the-board funding cuts, that 
will be detrimental to education reform and remodeling occurring across 
the country. In North Carolina, as in other States, reforms supported 
by Federal funds are focused on raising student achievement and helping 
to ensure all of our students graduate college, career and citizenship 
ready. Second, the immediate need for clear and complete guidance from 
the Federal Government on how sequestration will work, in the event it 
does go into effect on January 2, 2013. States need to know when and 
how cuts will be made to various funding streams that we receive.
    Fortunately, we received some initial guidance late last week from 
the administration regarding how portions of title I, title II, 
Individuals with Disabilities Education Act (IDEA) part B, and Career 
and Technical Education funds that we receive as advanced 
appropriations will be treated. But States need to know the complete 
picture. In the absence of complete guidance States cannot adequately 
help their districts and schools prepare. The absence of such guidance 
will clearly exacerbate the drastic nature of these funding cuts. I 
implore you to use your congressional authority to prevent 
sequestration or at the very least require that the administration 
provide States with as much information as quickly as possible.
    Chief State school officers across the country are focused on 
education reform efforts such as implementing the common core State 
standards, developing new assessments to better gauge student learning, 
and developing new teacher and leader evaluation systems to help drive 
improvements across our education workforce. We are focusing on the use 
of technology systems to improve the effectiveness and efficiency of 
student learning. We are developing technology systems to help teachers 
learn and grow professionally.
    We have taken on these tasks in the best interests of our students 
even during some of the toughest economic times. In fact, a recent 
report by the Center on Budget and Policy Priorities highlights that 
our struggling economy impairs States' ability to fund services. States 
have already faced tough choices to close a combined $540 billion in 
budget shortfalls between 2009 and 2012. Moreover, according to the 
report, the 2007 recession caused the largest collapse in State 
revenues on record: As of the first quarter of 2012, State revenues 
remained 5.5-percent below prerecession levels. Simultaneously, though, 
our education obligations grow, with States expecting to educate 
540,000 more K-12 students. Our State and local education agencies are 
currently running on shoestring budgets, and cannot afford additional 
cuts.
    Let's take North Carolina as an example. Sixteen percent of our 
education budget comes from Federal funding. A 7-10 percent across-the-
board cut projected for sequestration would dramatically stifle our 
remodeling efforts underway to personalize education so that each 
student will graduate prepared with options.
  --I am proud that we are currently seeing great success in turning 
        around low-performing schools under the School Improvement 
        Grants program. Under sequestration, this program would be 
        subjected to a loss of more than $40 million nationally, with 
        an impact upon more than 1,000 students in North Carolina 
        alone.
  --We are also implementing a blended learning approach for our 
        students with disabilities using IDEA funds, which would be 
        subjected to a loss of more than $900 million nationally, with 
        an impact upon more than 13,000 students in North Carolina. It 
        is worth noting that the Federal Government has still not lived 
        up to its commitment to provide 40 percent of the excess costs 
        of educating students with disabilities. A sequestration cut 
        represents a further lack of that commitment. That impact also 
        will hurt our innovative initiative to blend online and face-
        to-face instruction for many of our students with disabilities. 
        Recently, North Carolina was just recognized for this exemplary 
        delivery of instruction to exceptional children. One of our 
        teachers in this program was recently recognized as the 
        national Virtual Teacher of the Year. In the words of one of 
        our students in this blended environment, ``I love the teacher 
        I have in the classroom and the teacher who helps me online. I 
        am now really understanding math.''
  --We are helping our teachers implement this new blended learning 
        approach through online learning modules and professional 
        development funded through title II part A, which would be 
        subjected to a cut of almost $200 million nationally and could 
        result in nearly 100 job losses in North Carolina alone. 
        Businesses have gone through retooling, and if we are going to 
        value and respect our teachers and students, we must provide 
        necessary professional development to help teachers retool 
        their work in the classroom to reach each student.
  --North Carolina also leads the Nation in credentialing students with 
        Microsoft certification. During the past 18 months, 51,225 
        certifications were issued to our students and some teachers. 
        Those certifications communicate to businesses that our 
        students are prepared for success in the workplace. Without 
        support from Career and Technical Education (CTE) funds for 
        this initiative, we could not have prepared teachers to 
        facilitate this important initiative to our students. The CTE 
        program faces a loss of nearly $90 million nationally reducing 
        instruction and other services for an alarming 52,000 students 
        in my State alone.
  --Our State has experienced growth in our English language learner 
        population over the past 5 to 10 years. One of the most 
        important aspects of our Federal dollars, again, is to help our 
        students who need to become proficient in English. As a result 
        of Federal dollars, we have been able to help teachers address 
        in better ways the needs of this population of students and yet 
        the cuts to title III, English language acquisition funds would 
        impact the services we are offering to more than 100,000 
        students across North Carolina.
  --Every summer, our students who come from homes where no one is 
        reading to them or without books to read, lose 2\1/2\ to 3 
        months of reading progress. These students don't have the 
        opportunity to go to camp, the beach, or even the next town. 
        They come back to school in the fall and the teachers have to 
        re-teach what the students have lost. Through title I funding, 
        many of our title I schools such as H.C. Bellamy Elementary 
        School in Wilmington, North Carolina, offer summer reading 
        programs. Last week I visited that school, talked to the 
        students, and to Ms. Karen Sherman who runs the program. I am 
        confident that the students in that program will not fall 
        behind this summer. To paraphrase one of the students in that 
        summer program, Jackson, ``I am reading everything I can.'' 
        Such a statement should be a reason to celebrate how title I 
        funding helps students keep on-track in reading. Yet, under 
        sequestration, title I funds would be cut by more than $30 
        million in North Carolina alone, impacting more than 40,000 
        students and potentially costing my State more than 500 job 
        losses.
    As you can see, States such as mine are strategically addressing 
the needs of low-income students in underperforming schools, students 
with disabilities, English language learners, students seeking industry 
certification, and the professional development needs of our teaching 
corps. Our work in addressing the needs of specific populations is 
demonstrating positive results. Our graduation rate is at an all-time 
high, and our student achievement is at an all-time high since we have 
increased our expectations and standards about 4 years ago. I am 
concerned that sequestration will make it harder to continue our 
progress and our commitment to long-term national competitiveness.
    To be clear, chief State school officers believe wholeheartedly 
that we must better use our limited education funding. In fact, one of 
the primary topics of the Council's summer conference was strategic 
resource allocation. We need to focus primarily on proven strategies 
and not continue to fund programming that does not produce results or 
serve our student's needs. We will be your partners in any thoughtful 
process to improve the return on investment in Federal education 
funding. But, I must also be equally clear that across-the-board, 
indiscriminate cuts do not help us achieve our State or national 
education goals. Chief State school officers will continue to wrestle 
with how we increase the efficiency and productivity of our educational 
funding, but we cannot do so if we are simultaneously wrestling with 
how we simply keep the lights on and continue to support effective 
education programming.
    Exempting some programs from sequestration is not the answer 
either. Any vote to exempt some Federal funding from sequestration 
while allowing education funding to be subject to sequestration stands 
in stark contrast to the best interests of our children and the long-
term economic and national security of this country. You are all aware 
of the recent Council on Foreign Relations report which highlights the 
needs for investing in education in order to maintain our global 
economic security. According to the report, intelligence agencies face 
critical shortages in the number of foreign-language speakers and that 
fields such as science, defense, and aerospace are at risk because of a 
shortage of skilled workers.
    An analysis from the Alliance for Excellent Education calculates 
the economic benefit of reducing our high school dropout rate by one-
half. While our graduation rate is at an all-time high, I know that we 
must continue our work to make sure that nearly 100 percent of our 
students graduate. According to the Alliance, cutting our dropout rate 
in one-half would result in almost $300 million in increased earnings, 
more than $200 million in increased spending, $650 million in home 
sales, and $28 million in new tax revenue for North Carolina. With 
numbers like that for North Carolina alone, it is hard for me to 
understand why there isn't a stronger nationwide commitment to educate 
our children when we can clearly enjoy an economic benefit.
    To my second point, without clear and complete guidance, we cannot 
prepare for these cuts. I respect that the outcome of sequestration 
discussions will be determined at the highest levels of our political 
process. I recognize that the process is complicated by the pending 
debt ceiling debate and debates on tax cut extensions. I do appreciate 
the guidance we received last week from the Department of Education 
about how fiscal year 2012 funding that is advanced into fiscal year 
2013 will be treated. It is important for States and our school 
districts to know that any impact of sequestration in title I, title 
II, IDEA, and CTE will not be felt until July 2013. As I mentioned 
previously, the administration has just begun answering some critical 
questions, but I cannot accept the lack of clear guidance from the 
Federal Government to the States on all aspects of the implementation 
of sequestration. We need to know just how sequestration will affect 
forwarded-funded and advanced appropriations alike.
    We still need guidance that gives us the complete picture. 
Specifically, we require additional information on:
  --unobligated balances from fiscal year 2012 budget authority 
        provided in the fiscal year 2012 omnibus appropriations law;
  --fiscal year 2014 budget authority that will be provided as advanced 
        appropriations in the fiscal year 2013 continuing resolution or 
        appropriations bill;
  --the impact of sequestration on hold harmless and/or maintenance of 
        effort provisions; and
  --most importantly, what will be the specific cut made to each 
        program.
    Sequestration is also creating confusion on the programmatic side. 
Currently, States can reserve 4 percent of title I funds for school 
improvement activities. School districts are also assured that they 
won't receive less title I funding from the previous year due to this 
reservation. Under a 7-10 percent cut, States may not be permitted to 
make this 4 percent school improvement reservation.
    This is compounded by current efforts in the House appropriations 
bill to eliminate the separate school improvement grant program. The 
combination of the inability to make this 4-percent reservation and a 
loss of school improvement grant funding will eliminate dedicated 
Federal funding for turning around our lowest achieving schools.
    Without getting the complete picture, we can speculate, but we 
cannot fully advise or support our districts as they prepare budgets in 
advance of the 2013-2014 school year and beyond. It is promising that 
the House of Representatives passed the Sequester Transparency Act and 
that Senators Murray and McCain worked in a bipartisan manner to attach 
an amendment to the farm bill that would have forced the administration 
to provide an even more detailed explanation.
    On behalf of my State colleagues, let me also say that if we are 
subjected to sequestration then I also encourage you to think about new 
flexibilities you can offer States and districts in the use of their 
now reduced Federal dollars. If the Federal Government does, indeed, 
provide significantly less Federal funding in future years, it must 
make corresponding reductions in compliance burdens placed upon States 
and districts.
    Sequestration came into being because of the failure of the 
Congress to agree on how to resolve disagreements on fundamental issues 
of revenue and spending. Education is but a tiny fraction of the 
Federal budget but with enormously high impact on our Nation's future. 
Teachers and students are not responsible for sequestration, yet they 
will suffer the most if sequestration goes into effect. Students and 
educators are not to blame for our Nation's fiscal problems, and they 
deserve better.

    Senator Harkin. Thank you very much, Dr. Atkinson.
    And now we'll move to Dr. Walker.
    Dr. Walker, welcome.
STATEMENT OF BILLY WALKER, Ed.D., SUPERINTENDENT, 
            RANDOLPH FIELD INDEPENDENT SCHOOL DISTRICT, 
            UNIVERSITY CITY, TEXAS
    Dr. Walker. Good morning. Thank you, Sir.
    Good morning, Chairman Harkin, Ranking Member Shelby, and 
members of the subcommittee. My name is Billy Walker, and I am 
the superintendent of Randolph Field Independent School 
District, and I also serve as the executive director for the 
Texas Association of Federally Impacted Schools.
    I would like to take just a moment, Senator Harkin, to 
thank you for your support of Project Student Outreach, Access, 
and Resiliency (SOAR). Randolph Field piloted SOAR at Home and 
SOAR at School in 2007 and 2008, an awesome program for our 
military children. And the University of Northern Iowa was a 
key player in that success.
    Randolph Field is a public school district located on 
Randolph Air Force Base in the San Antonio, Texas, area. Our 
student body is made up of children of active-duty members from 
all branches of our military. We have approximately 1,200 
students, equally spread between the elementary and secondary 
campuses. Since our students come from military families, our 
real annual mobility rate is approximately 30 percent.
    My expectation for everyone in our district is to ensure 
that each student learns more and at higher levels, every day.
    Approximately one-half of our funding comes from Texas 
through the normal State funding mechanism, and the remaining 
half comes from the Department of Education through title I, 
IDEA, and Impact Aid.
    While Impact Aid is the lifeblood for our district--excuse 
me--Title I and IDEA are important programs to school districts 
nationwide. As 1 of the 7 coterminous districts in the Nation, 
the boundaries of the base comprise the boundaries of our 
district, meaning our school district doesn't have a local tax 
base. Our district uses Impact Aid funding in lieu of the tax 
dollars normally raised locally to provide salary and benefits 
for our employees, transportation, and facility needs, and 
among other things, fill the gaps left to the district due to 
less than full IDEA funding.
    The threat of sequestration takes the complex and difficult 
situation of school funding to unprecedented levels. We started 
the work of reducing our budget 3 years ago as fiscal experts 
projected significant reductions in the near future. Texas 
reduced K-12 funding by some $5 billion over the current 
biennium.
    Earlier this spring, school districts in Texas were 
notified that the State would be withholding 10 percent of 
Federal funding because of sequestration.
    We are certainly not alone. The American Association of 
School Administrator's Economic Impact Series found that 71.2 
percent of school districts reported a reduction in State and 
local revenues over the last 2 school years, and 57 percent 
anticipate a decrease for the upcoming school year.
    Sequestration will exacerbate the issue of funding. 
Superintendents nationwide are deeply concerned about the 
impact that cuts will have on schools, programs, and students, 
including our ability to fulfill the educational obligation to 
children with special needs.
    Last year, our school district experienced a 5-percent 
reduction in IDEA funding and approximately 17-percent 
reduction in title I part A revenue. Our Impact Aid revenue was 
reduced by approximately 5 percent last year, and we anticipate 
an additional reduction of 7 to 8 percent for the upcoming 
school year.
    To make matters worse, Impact Aid is the only current-year 
funded education program, which means on January 2, 2013, 
Impact Aid will sustain an immediate cut of more than $100 
million. If by October 1, the Congress doesn't authorize full-
year spending, initial payments to Impact Aid districts could 
be as low as 50 percent, significantly lower than many 
districts require to operate effectively, without carrying a 
fund balance or borrowing funds. No matter what happens, 
children will be at school as scheduled.

                           PREPARED STATEMENT

    Today, I'm also concerned about the law's long-term 
implications. If sequestration is truly a 10-year project, the 
devastating budget cuts may force us to close our doors.
    Unfunded mandates have always complicated our work. Now 
with the advent of further significant reductions in revenue, 
children, including those who know only war and whose parents 
have honorably served our country, are the ultimate lifelong 
losers in a game that should give them all they need to be 
successful, productive citizens.
    The concept of doing more with less is admirable, but there 
comes a time when there is not enough left to adequately and 
equitably educate the children of America.
    Thank you for this opportunity to share my district's 
story.
    [The statement follows:]
               Prepared Statement of Billy Walker, Ed.D.
    Good morning Chairman Harkin, Ranking Member Shelby, and members of 
the subcommittee. My name is Billy Walker and I am the superintendent 
of Randolph Field Independent School District and Executive Director of 
the Texas Association of Federally Impacted Schools (TAFIS).
    I would like to take a moment of personal privilege to thank 
Senator Harkin for his support of Project Student Outreach, Access, and 
Resiliency (SOAR). We had the privilege at Randolph Field Independent 
School District to pilot SOAR at Home and SOAR at School in 2007-2008.
    Randolph Field is a public school district located wholly on 
Randolph Air Force Base in the San Antonio, Texas, area. Our student 
body is made up of children of active-duty members from all branches of 
our military. We have about 1,200 students--600 at the elementary 
campus and 600 at the secondary campus. The demographic makeup of our 
student body reflects very closely the make up of the military in 
general, 9 percent of our students are economically disadvantaged, and 
since our students come from military families, our real annual 
mobility rate is approximately 30 percent.
    My team will tell you that my expectation for everyone in our 
district is to ensure that each student learns more, and at higher 
levels, every day. Our district is a prime example of high expectations 
and hard work paying off in excellent results in most any assessment 
one might make of us.
    Approximately one-half of our funding comes from Texas through the 
normal State funding mechanism and the remaining one-half comes from 
the Department of Education through title I, Individuals with 
Disabilities Education Act (IDEA), and Impact Aid (fiscal year 2012 
total: $6,102,297, fiscal year 2013 total: $5,554,019). While Impact 
Aid is the lifeblood for our district, title I and IDEA are important 
programs to school districts nationwide. (The net for our district to 
provide all services as mandated for special needs students is 
-$210,507 for fiscal year 2012.) As 1 of the 7 coterminous districts in 
the Nation, the boundaries of the base comprise the boundaries of our 
district, meaning our school district doesn't have a local tax base. 
Impact Aid replaces the lost local revenue due to the Federal presence. 
For example, our district uses Impact Aid funding in lieu of the tax 
dollars that would normally be raised locally to ensure a comprehensive 
academic, co-curricular, and extracurricular program, provide salary 
and benefits for our employees, handle facility needs, operate our 
transportation, custodial and school nutrition departments, and fill in 
the gaps left to the district due to less than full IDEA funding at the 
Federal level.
    The threat of sequestration takes the complex and difficult 
situation of school funding, both in America and in my State of Texas, 
to unprecedented levels. We started the work of reducing our budget 
some 3 years ago as fiscal experts at both levels of government 
projected significant reductions in the near future. At the State 
level, Texas reduced K-12 funding by some $5 billion over the current 
biennium. This resulted in a reduction in State funding of 
approximately 10 percent over 2 years (2011-2012 (5 percent) and 2012-
2013 (5 percent)). Earlier this spring, the Texas Education Agency 
notified school districts that the State would be withholding 10 
percent of funding because of sequestration. We are certainly not 
alone: The most recent report in the American Association of School 
Administrator's Economic Impact Series found that 71.2 percent of 
school districts reported a reduction in State/local revenues between 
the 2010-2011 and 2011-2012 school years, and 57 percent anticipate a 
decrease for the 2012-2013 school year.
    As we were looking to the future, my leadership team, board, staff, 
and I diligently reviewed all personnel, programs, and expenditures to 
make reductions to balance the budget for the 2012-2013 school year. 
Based on my experiences with delayed Impact Aid funding and the 
uncertainty of the appropriations process, I ultimately insisted that 
the sequester reduction be built into the budget. We've done our best 
to prepare for the cuts, and I could not, in good conscience, mortgage 
the fiscal future of our district with obligations that we would most 
likely not be able to sustain. To reach a balanced budget, we made the 
following reductions:
    At the campus level, eliminated:
  --elementary reading specialist and librarian;
  --middle school reading specialist and secretary;
  --secondary English teacher, science teacher, math teacher, and the 
        1:1 laptop initiative; and
  --the baseball, cross country, and swimming programs.
    At the district level, faculty, staff, and administration did not 
receive a traditional pay raise for the 2011-2012 or 2012-2013 school 
years. Eliminated:
  --one custodian and the custodial supervisor;
  --one staff member from the curriculum department;
  --facility planner/coordinator position; and
  --one technology department staff member.
Additionally, we are considering not taking the band, cheerleaders, and 
dance team to away football games, and eliminating field-based 
excursions for all students during the 2012-2013 academic year.
    In the 2011-2012 fiscal year, our school district experienced a 5-
percent reduction in IDEA funding and a 17-percent reduction in title I 
part A revenue. Sequestration will exacerbate the ongoing issues 
surrounding the critical issue of funding required to fulfill the 
educational obligations of children with special needs. While these 
programs don't comprise the majority of Federal funding for Randolph, 
superintendents nationwide are deeply concerned about the impact that 
cuts to these and other Federal education programs will have on 
schools, programs, and students. Our level of Impact Aid revenue was 
reduced by approximately 5 percent for the 2011-2012 year, and we 
anticipate an additional reduction of 7 percent to 8 percent for the 
2012-2013 academic year.
    To make matters worse, Impact Aid is the only current-year funded 
education program, which means on January 2, 2013, Impact Aid will 
sustain an immediate cut of more than $100 million. If by the October 1 
start of the fiscal year the Congress hasn't authorized full-year 
spending, initial payments to Impact Aid districts could be as low as 
50 percent. This is significantly lower than many districts require to 
operate effectively, meaning school districts must either have a fund 
balance capable of sustaining the district until their Impact Aid 
payment arrives, or they must borrow the funds needed to ensure the 
continued operation of the district. No matter what happens, the 
children will be at school as scheduled.
    Today, I'm concerned about the law's long-term implications. If 
sequestration is truly a 10-year project, the devastating budget cuts 
may force us to close our doors.
    Unfunded mandates have always complicated our work. Now, with the 
advent of further significant reductions in revenue, the dream of a 
high-quality education for all becomes a dream unfulfilled; programs 
that provide opportunities for children to discover their passion in 
life languish on the shelf; and children, including those who know only 
war and whose parents have honorably served our country for over a 
decade, are the ultimate lifelong losers in a game that should give 
them all they need to be successful, productive citizens. The concept 
of doing more with less is admirable, but there comes a time when there 
is not enough left to adequately and equitably educate the children of 
America.
    Policymakers must do everything in their power to ensure that each 
child in this great Nation has the opportunity to learn more, and at 
higher levels, every day.
    Thank you for this opportunity to share my school district's story. 
I look forward to answering any questions.

    Senator Harkin. Thank you very much, Mr. Walker.
    Now we will turn to Mr. McCluskey.
    Mr. McCluskey, please proceed.
STATEMENT OF NEAL P. McCLUSKEY, ASSOCIATE DIRECTOR, 
            CENTER FOR EDUCATIONAL FREEDOM, THE CATO 
            INSTITUTE, WASHINGTON, DC
    Mr. McCluskey. Chairman Harkin and Ranking Member Shelby, 
thank you for inviting me to speak with you today.
    My name is Neal P. McCluskey, and I am the associate 
director of the Center for Educational Freedom at the Cato 
Institute, a nonprofit, nonpartisan public policy research 
organization. My comments are my own and do not represent any 
position of the institute.
    Cuts such as those that would be made to Federal education 
programs through sequestration are necessary. Not only does the 
Federal Government have no constitutional authority to fund and 
administer education programs, but the last 40-plus years of 
Federal involvement are a clear demonstration of futility.
    Begin with Head Start, which has existed since 1965 and has 
cost roughly $180 billion through its lifespan. Despite its 
longevity, it has failed to demonstrate lasting benefits. 
Indeed, a 2010 Federal study found overwhelmingly that the 
program has no lasting positive academic effects, and that's 
not its only problem.
    Head Start has long suffered from serious waste and abuse. 
Indeed, the Government Accountability Office (GAO) reports in 
2000, 2005, and 2008 found widespread noncompliance with 
financial management standards and very poor efforts to 
remediate the problem.
    Next, Federal elementary and secondary education programs. 
As the charts on my written testimony illustrate, on a per-
pupil basis, inflation-adjusted Federal spending has grown 
immensely over the last several decades, ballooning to 375 
percent of their original 1970 value by 2010. And this increase 
did not just compensate for funding losses at the State and 
local levels.
    Overall, per-pupil expenditures have nearly tripled since 
1970. Meanwhile, scores on the National Assessment of 
Educational Progress have been almost completely stagnant for 
17-year-olds, the final products of our schools.
    These huge spending increases coupled with more moribund 
achievement powerfully illustrate that we haven't gotten any 
bang for our Federal education bucks. And those expenditures 
could be reduced considerably without ill achievement effects.
    Indeed, it is quite likely that Federal education dollars 
have kept recipient districts from having to take politically 
difficult but necessary actions to increase their efficiency 
and effectiveness.
    Connected to this it seems that the most pressing concern 
for many people is that sequestration would reduce education 
employment. High-end estimates for 2013 published by the 
National Education Association predict losses of about 46,000 
jobs. While no one wants to see anyone lose employment, the 
Federal Government has a staggering debt that must be 
addressed.
    And as the third chart of my testimony illustrates, over 
the last four decades, there have been huge increases in public 
school staffing, but, again, outcomes have flat-lined. And 
46,000 jobs, that's not even close to 1 percent of the total 
public-schooling workforce.
    Public schooling is supposed to educate children, but it is 
instead often treated as a jobs program.
    Last, higher education. Regrettably, Pell grants appear to 
have been exempted from sequestration, taking roughly $42 
billion off the table. While conclusive data are not available, 
a reasonable estimate suggests that only around 40 percent of 
first-time, full-time students receiving Pell grants complete 
bachelor's degrees within 6 years.
    In addition, a growing body of research indicates that 
schools either raise their prices or lower their own 
institutional aid in response to Pell grants.
    Sequestration would, however, translate likely into higher 
fees on student loans. This would be a small move in the right 
direction, towards aid that places more of payment burden on 
the people consuming the education.
    The huge ill effects of super abundant third-party money in 
higher education are revealed in sticker price inflation that 
eclipses the inflation rate of even healthcare, dismal 
completion rates in colleges, and one-third of bachelor's 
degree holders occupying jobs that don't require the 
credential. Federal financial aid, by making students less 
sensitive to the real costs of their education and enabling 
colleges to briskly raise prices, actually defeats its 
affordability goal.
    In addition to increasing fees for student loans, 
sequestration would require that cuts be made to aid that 
Washington provides to institutions, as well as research in 
colleges and universities. The former should be of little 
concern. Federal funding mainly translates into inefficiency, 
and Washington provides only a minute sliver of overall funding 
directly to institutions.
    Regarding research, while much research is of value, it is 
likely not of greater value than getting the Nation's shambles 
of a fiscal house in order. In addition, research by Austan 
Goolsbee, the former chairman of the Council of Economic 
Advisors, found that a large portion of Federal research and 
development funding translates not into greater innovation but 
higher salaries for researchers.

                           PREPARED STATEMENT

    The Federal Government has accumulated an almost 
unimaginably huge debt, and sequestration offers but a small 
first step toward addressing it. Thankfully, cuts can be made, 
in fact, need to be made to Federal education programs.
    Thank you. And I look forward to your questions.
    [The statement follows:]
                Prepared Statement of Neal P. McCluskey
    Chairman Harkin, members of the subcommittee: thank you for 
inviting me to speak with you today. My name is Neal P. McCluskey and I 
am the associate director of the Center for Educational Freedom at the 
Cato Institute, a nonprofit, nonpartisan public policy research 
organization. My comments are my own and do not represent any position 
of the institute.
    Cuts such as those that would be made to Federal education programs 
through sequestration are both necessary and overdue. Not only does the 
Federal Government have no constitutional authority to fund and 
administer education programs--no mention is made of education in the 
specific, enumerated powers given to the Federal Government in Article 
I, Section 8--but the last 40-plus years of Federal involvement in 
education provide a clear demonstration of futility.
    Start with preschool. The primary Federal preschool program is Head 
Start, which in fiscal year 2012 received almost $8 billion. The 
program has existed since 1965 and has cost roughly $180 billion 
through its lifespan. Despite its longevity, the program has failed to 
demonstrate lasting benefits. Indeed, a 2010 Federal study found that 
the program had only two statistically significant positive cognitive 
effects that lasted through first grade, and negative mathematics 
effects for kindergarten students who entered Head Start when 3 years 
old.\1\ In the vast majority of measures no meaningful effects were 
found one way or the other.
---------------------------------------------------------------------------
    \1\ Michael Puma, et al., ``Head Start Impact Study Final Report: 
Executive Summary,'' U.S. Department of Health and Human Services, 
http://www.acf.hhs.gov/programs/opre/hs/impact_study/reports/
impact_study/executive_summary_final.pdf January 2010.
---------------------------------------------------------------------------
    Unfortunately, the essentially nonexistent positive effects of Head 
Start are not the program's only problem. As reports from the 
Government Accountability Office (GAO), local media outlets, and other 
sources have revealed, Head Start has long suffered from serious waste 
and abuse. Indeed, GAO reports in 2000, 2005, and 2008 found widespread 
noncompliance with financial management standards and very poor efforts 
to remediate the problem.\2\
---------------------------------------------------------------------------
    \2\ Tad DeHaven, ``Head Start and Other Subsidies,'' Downsizing the 
Federal Government, http://www.downsizinggovernment.org/hhs/
subsidies#_edn3, September 2010.
---------------------------------------------------------------------------
    Next there are Federal elementary and secondary education programs, 
a category that, according to the Federal ``Digest of Education 
Statistics,'' accounted for almost $79 billion in 2011.\3\
---------------------------------------------------------------------------
    \3\ National Center for Education Statistics, Digest of Education 
Statistics, 2011, Table 386, http://nces.ed.gov/programs/digest/d11/
tables/dt11_386.asp.
---------------------------------------------------------------------------
    As Figure 1 illustrates, on a per-pupil basis, inflation-adjusted 
Federal spending on K-12 education has grown immensely over the last 
several decades, ballooning to 375 percent of its 1970 value by 2010. 
And this increase did not just compensate for funding losses in at the 
State and local levels. As Figure 2 shows, overall per-pupil 
expenditures through high school graduation have nearly tripled since 
1970. Meanwhile, mathematics, reading, and science scores on the 
National Assessment of Educational Progress (NAEP), the Federal testing 
regime often called ``The Nation's Report Card,'' have been almost 
completely stagnant for 17-year-olds, the ``final products'' of our 
elementary and secondary education system.
 inflation-adjusted federal k-12 spending per pupil and achievement of 
                17-year-olds, percent change since 1970


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               Figure 1.

inflation-adjusted cost of a complete k-12 public education and percent 
            change in achievement of 17-year-olds since 1970


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               Figure 2.

    Rightly, the primary concern for many people is that sequestration 
would deal a crippling blow to academic achievement. The NAEP and 
spending data, however, simply do not justify this. Indeed, they 
powerfully illustrate that we haven't gotten any lasting bang for our 
Federal or overall education bucks, and those expenditures could be 
reduced considerably without ill achievement effects. Indeed, it is 
quite likely that Federal education dollars keep recipient districts 
from having to take politically difficult but necessary actions to 
increase the efficiency of their operations.
    Directly connected to the efficiency question, it seems that the 
most pressing concern for some people is not the academic effect that 
sequestration might have on education but the employment effect. And 
job losses would ensue: High-end estimates of elementary and secondary 
job losses from sequestration in 2013 published by the National 
Education Association predict decreases of 46,000 jobs.\4\ That 
certainly appears to be a large number, and no one wants to see anyone 
lose employment. But the Federal Government has an immense, nearly $16 
trillion debt, and as Figure 3 shows, huge increases have occurred in 
school staffing relative to enrollment. Coupling that with the 
achievement data in Figures 1 and 2, it is clear that much heftier 
staffing has not created better outcomes.
---------------------------------------------------------------------------
    \4\ National Education Association, ``Impact of Sequestration on 
Federal Education Programs,'' http://www.nea.org/assets/docs/
Impact_of_Sequestration_on_Federal_Education_
Programs_Reformatted_06-26-12.pdf, July 12, 2012. Total was calculated 
by summing total job losses in categories listed on previous page that 
would likely impact elementary and secondary education.
---------------------------------------------------------------------------
  percent change in public school employment and enrollment since 1970


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               Figure 3.

    Public schooling is supposed to educate children efficiently and 
effectively, but it has very much been treated as a jobs program 
instead. That has done no discernible educational good and contributed 
to the Nation's mammoth debt.
    Originally, Federal K-12 funding was meant to operate in a 
compensatory fashion. But at least the recent evidence suggests that no 
major, nationwide funding inequities exist. According to the Federal 
Condition of Education, districts with the highest levels of poverty 
have spent essentially the same amount on a per-pupil basis as have 
those with the lowest level of poverty since 1997-1998. And both have 
appreciably outspent districts with middling levels of poverty since 
1995-1996 (the first year for which data is available).\5\ Those 
numbers should be updated (the final school year with data is 2006-
2007), but there is no meaningful evidence that the pattern has 
appreciably changed.
---------------------------------------------------------------------------
    \5\ National Center for Educational Statistics, The Condition of 
Education, Figure 36-1, http://nces.ed.gov/programs/coe/
indicator_pex.asp.
---------------------------------------------------------------------------
    Our public schools have, essentially, been on a decades-long hiring 
binge with ultimately no gains to show for it. And a reduction of 
46,000 jobs would be miniscule compared to overall public-school 
staffing, which well exceeds 6 million people.\6\
---------------------------------------------------------------------------
    \6\ The latest staffing data from the Digest of Education 
Statistics, 2009 puts public-school employment at 6.36 million people. 
National Center for Education Statistics, ``Digest of Education 
Statistics, 2011,'' Table 85, http://nces.ed.gov/programs/digest/d11/
tables/dt11_085.asp.
---------------------------------------------------------------------------
    Last, let's turn to higher education.
    Regrettably, Pell grants have been exempted from sequestration, 
taking roughly $42 billion off the table. This might be understandable 
were Pell grants shown to effectively enable low-income students to 
enter and complete college without pushing sticker prices higher, but 
such is not the case. While conclusive data are not available, The 
Center for College Affordability and Productivity estimates that only 
around 40 percent of first-time, full-time students receiving Pell 
grants complete bachelor's degrees within 6 years.\7\ In addition, a 
growing body of research indicates that schools either raise their 
prices or lower institutional aid in response to Pell grants.\8\
---------------------------------------------------------------------------
    \7\ Richard Vedder, ``Only 40 Percent of Pell Grant Recipients Get 
Bachelor's Degrees,'' Chronicle of Higher Education, http://
chronicle.com/blogs/innovations/only-40-percent-of-pell-grant-
recipients-get-bachelor-degrees/30139, September 6, 2011.
    \8\ John D. Singell, Jr., and Joe A. Stone, ``For Whom the Pell 
Tolls: The Response of University Tuition to Federal Grants-in-Aid,'' 
Economics of Education Review 26, no. 3 (2006): 285-95; Lesley J. 
Turner, ``The Incidence of Student Financial Aid: Evidence from the 
Pell Grant Program,'' Columbia University Working Paper, April 2012; 
Stephanie Riegg Cellini and Claudia Goldin, ``Does Federal Student Aid 
Raise Tuition? New Evidence on For-profit Colleges,'' NBER Working 
Paper No. 17827, National Bureau of Economic Research, February 2012.
---------------------------------------------------------------------------
    While Pell grant is off-limits, sequestration will translate into 
higher fees on student loans. This might seem like it would make 
college less affordable for students, but it would be a very small move 
in an absolutely necessary direction for Federal student aid: towards 
aid that places more of payment burden on the people consuming the 
education.
    The huge ill effects of too much third-party money in higher 
education, especially from the Federal Government, are plain to see:
  --``sticker price'' inflation that eclipses even that even in 
        healthcare; \9\
  --dismal completion rates; \10\ and
  --one-third of bachelor's degree holders occupying jobs that do not 
        require the credential.\11\
Federal financial aid, by making students less sensitive to the real 
costs of their education and enabling colleges to briskly raise prices, 
defeats both the affordability goal of the aid and has helped to render 
higher education extremely inefficient. Any moves in the direction of 
having students bear more of the cost of their education would, perhaps 
counter intuitively, result in greater long-term college affordability 
by forcing schools to lower prices and cut abundant waste.
---------------------------------------------------------------------------
    \9\ For empirical evidence that student aid helps fuel tuition 
inflation, in addition to the studies cited in note 8 see those cited 
at Neal McCluskey, ``The Student Aid `Myth' Myth,'' Cato&Liberty, 
http://www.cato-at-liberty.org/the-student-aid-myth-myth/, December 8, 
2011.
    \10\ No sector of higher education has higher than 65.4 percent 6-
year graduation rates for 4-year programs, and for public 2-year 
institutions (community colleges) only 20.4 percent of first-time, 
full-time students finish within 150 percent of ``normal'' time. 
National Center for Education Statistics, Digest of Education 
Statistics, 2011, Table 345, http://nces.ed.gov/programs/digest/d11/
tables/dt11_345.asp.
    \11\ Anthony P. Carnevale and Stephen J. Rose, ``The Undereducated 
American,'' Georgetown University Center on Education and the 
Workforce, http://www9.georgetown.edu/grad/gppi/hpi/cew/pdfs/
undereducatedamerican.pdf, June 2011.
---------------------------------------------------------------------------
    In addition to increasing fees for student loans, sequestration 
would require that cuts be made to aid that Washington provides to 
institutions, and as well as to research occurring in colleges and 
universities. The former cuts should be of little concern: Not only 
does Federal funding mainly appear to translate into inefficiency, but 
Washington provides only a small sliver of overall funding directly to 
institutions. In 2011, such Federal aid tallied just slightly more than 
$1 billion, versus the roughly $85 billion State and local governments 
furnished to public colleges for general operating expenses in the 
2011-2012 academic year.\12\ Trimming just part of this relatively tiny 
Federal amount would have a negligible effect.
---------------------------------------------------------------------------
    \12\ Federal appropriations to schools calculated using U.S. 
Department of Education, ``Education Department Budget History Table,'' 
http://www2.ed.gov/about/overview/budget/history/edhistory.pdf, August 
5, 2011. State and local appropriations from State Higher Education 
Executive Officers, ``State Higher Education Finance: fiscal year 
2011,'' Figure 2, http://www.sheeo.org/finance/shef/SHEF_fiscal year 
11.pdf, 2012.
---------------------------------------------------------------------------
    Regarding research, while much research is of value, it is very 
difficult to say it is of greater value than getting the Nation's 
shambles of a fiscal house in order. In addition, research by Austan 
Goolsbee, the former chairman of the Obama Administration's Council of 
Economics Advisors, found that a large portion of Federal funding for 
research and development translates not into greater innovation but 
higher salaries for researchers.\13\ Like aid to students, the benefits 
seem largely to accrue to those employed by the money, not to society 
or the people the aid is intended to help.
---------------------------------------------------------------------------
    \13\ Austan Goolsbee, ``Does Government R&D Policy Mainly Benefit 
Scientists and Engineers?'' The American Economic Review 88, no. 2 
(1998): 298-302.
---------------------------------------------------------------------------
    The Federal Government has accumulated an almost unimaginably huge 
debt, and sequestration offers only a small first step toward 
addressing spending recklessness. Thankfully, significant cuts can 
almost certainly be made to discretionary spending without adversely 
affecting the activities that Federal money is supposed to advance. 
Education is a perfect example of this, with overwhelming evidence 
revealing that Federal spending has, at best, done no overall good, and 
has quite likely caused appreciable harm. It has insulated Head Start 
providers, schools and districts, and colleges from pressures to become 
efficient and effective, and has taken funds from taxpayers in order to 
greatly increase education employment and the comfort of those working 
in colleges and universities. Trimming such wasteful funding, as 
sequestration would do, would be but an opening move in the right 
direction.

    Senator Harkin. Thank you, Mr. McCluskey.
    And now we'll turn to Dr. Tammy Mann. Please proceed.
STATEMENT OF TAMMY L. MANN, Ph.D., PRESIDENT AND CEO, 
            THE CAMPAGNA CENTER, ALEXANDRIA, VIRGINIA
    Dr. Mann. Thank you.
    Good morning, Chairman Harkin and Ranking Member Shelby, 
thank you for the opportunity to testify today about the 
potential impact of impending sequester of nondefense 
discretionary programs, in particular, early childhood 
education programs.
    I have been privileged to serve as president and CEO of The 
Campagna Center in Alexandria for the past year and have worked 
in the field of early childhood education for the better part 
of 20 years. The Campagna Center currently serves more than 
1,700 children through a range of early childhood, school age, 
youth, and family-development programs designed to empower and 
engage parents as they address their children's academic and 
social needs.
    We, like many other early childhood centers across the 
country, successfully blend, braid, and leverage a multitude of 
local, State, and Federal funding with private investment and 
shared community resources to provide the highest quality 
services to the most vulnerable families in Alexandria.
    The looming 7.8-percent cut to nondefense discretionary 
programs will have serious, immediate, and disruptive impact on 
vulnerable children and families we serve. Due to increases in 
our operating costs over the past few years, in particular 
deferred maintenance, health insurance for staff, rising 
utility costs, we simply do not have the budget cushion to 
withstand this large of a reduction without cutting children, 
families, and staff from our program.
    We know that the Congress is committed to Head Start. Over 
the past few years, there has been solid bipartisan support for 
the quality early childhood education, and Head Start has not 
had to cut children from its programs. However, we work hand in 
hand with childcare services and other early learning programs, 
especially those funded or supplemented with State dollars.
    Over the last year, States across the country have made 
significant cuts to childcare and pre-K programs. The ripple 
effects of this, combined with further cuts via sequestration, 
will be devastating to early learning across the country.
    In Virginia alone, it is estimated that more than 800 
children and their families would no longer receive federally 
funded childcare assistance. Without such assistance, families 
will be faced with the difficult decision of what to do with 
their children while at work, unfortunately, choices that can 
lead to children being placed in unsafe environments or their 
parents being forced to reduce their hours or even quit their 
jobs.
    For Head Start and Early Head Start, the cut would equate 
to the loss of roughly 1,100 children and their families in the 
State, according to the National Head Start Association.
    My agency, The Campagna Center, is a delegate of the city 
of Alexandria. And among the children we serve, we are funded 
to provide assistance to 309 Head Start children and 108 Early 
Head Start children as a grantee. A cut of this magnitude would 
mean that approximately 24 fewer children would be served in 
Head Start and 10 fewer in Early Head Start.
    Currently, we have to raise an additional $75,000 each year 
just to be able to continue providing quality services to our 
Early Head Start children, because the current funding level 
has not been able to address our rising costs. This is in 
addition to the 20-percent non-Federal share match that we have 
to provide to operate the program.
    There is simply no way we could absorb a cut as deep as 
proposed with other funding sources in this very challenged 
economic environment.
    Additionally, due to the economic woes, the need in our 
community has grown much faster than our ability to provide 
services.
    As a city, Alexandria has deep pockets of poverty that 
greatly undermine many families' abilities to pay for early 
childhood services. Last year, we had 206 children on our 
waitlist for Head Start and 169 for Early Head Start. 
Unfortunately, we expect this number to keep growing even 
without facing deep cuts.
    For our program's spring enrollment fair, we had well over 
500 parents seeking a spot for their children in our program. 
Any cuts in funding would certainly push more families onto 
long waiting lists, where the chance to gain access to early 
childhood education is slim to none.
    In addition to the depth of the cut, one of our greatest 
fears is the timing. A January 2013 target date for these cuts 
go into effect is right in the middle of the program year for 
us as well as our K-12 colleagues.
    Just recently, I had the opportunity to talk with a parent 
that knows firsthand how much Head Start has meant to her. The 
mother came to our program in 2010 after having experienced a 
divorce and was in need of assistance on many levels. With very 
little family support and few resources at her disposal, she 
was concerned about how she was going to make ends meet and 
provide for her children. In 2 short years, despite becoming 
homeless, her oldest child has thrived in our program, and has 
since successfully completed kindergarten, and is doing very 
well in school.
    This parent has been able to enter a training program that 
has her close to earning her child development associate 
credential, and she is gainfully employed as a teacher 
assistant and very much motivated to do what it takes to 
continue her own education and support her children's 
education.
    She credits her success to the support she has received 
from teachers, home visitors, and family support staff in our 
program. This mother's story reflects the story of many parents 
who have come to rely on Head Start and other early care and 
education programs that support child and family success.
    It's clear that cuts in this area will have lasting impact. 
Quality early education prepares the Nation's youngest children 
for a lifetime of learning and success. In fact, studies show 
that for every $1 invested in a Head Start, society earns at 
least $7 through increased earnings, employment, family 
stability, as well as decreased welfare dependency, healthcare 
costs, crime costs, grade retention, and special education.

                           PREPARED STATEMENT

    I firmly agree that our national deficit is a looming 
problem. As an advocate serving children, I too am concerned 
about leaving significant debt behind to be paid for by the 
next generation.
    On behalf of my colleagues across the country, I urge this 
subcommittee to take a leadership role in finding a balanced 
approach that averts the sequester and ensures that this 
deficit reduction effort is not financed with cuts to programs 
that help our most vulnerable citizens. Hundreds of thousands 
of children and families in your home States are counting on 
it.
    Thank you.
    [The statement follows:]
               Prepared Statement of Tammy L. Mann, Ph.D.
    Chairman Harkin and Ranking Member Shelby: Thank you for the 
opportunity to testify today about the potential impact of the 
impending sequester of nondefense discretionary programs, in 
particular, early childhood education programs supported through Head 
Start, Early Head Start, and Child Care funding. I have been privileged 
to serve as president and CEO of The Campagna Center, in Alexandria, 
Virginia, for the past year and have worked in the field of early 
childhood education for more than 20 years. The Campagna Center serves 
more than 1,700 children through a range of early childhood, school 
age, youth, and family development programs designed to empower and 
engage parents as they address their children's academic and social 
needs. We, like many other early childhood centers across the country, 
successfully blend, braid, and leverage a multitude of local, State, 
and Federal funding with precious private investment and shared 
community resources to provide the highest quality services to the most 
vulnerable families in Alexandria.
    The looming 7.8-percent cut to nondefense discretionary programs 
will have serious, immediate, and disruptive impact on the vulnerable 
children and families we serve. Due to increases in our operating costs 
over the past few years, in particular deferred maintenance, health 
insurance for staff, and rising utility costs, we do not have the 
budget cushion to withstand this large of a reduction without cutting 
children, families, and staff from our program. Nationally, the 
Department of Health and Human Services estimates that this cut, via 
sequestration, will result in 100,000 fewer children receiving Head 
Start and Early Head Start services, and 80,000 fewer children 
receiving child care assistance.
    We know that the Congress is committed to Head Start--over the past 
few years there has been solid bipartisan support for quality early 
childhood education and Head Start has not had to cut children from its 
programs. However, we work hand-in-hand with child care services and 
other early learning programs, especially those funded or supplemented 
with State dollars. Over the last year, states across the country have 
made significant cuts to child care and pre-K programs. The ripple 
effects of this, combined with further cuts via sequestration, will be 
devastating to early learning across the country.
    In Virginia alone, it is estimated that more than 800 children and 
their families would no longer receive federally funded child care 
assistance. Without child care assistance, families will be faced with 
the difficult decision of what to do with their children while at work. 
Unfortunately, that choice can lead to kids being put in unsafe 
environments or their parents forced to reduce their hours or even quit 
their jobs. For Head Start and Early Head Start, the cut would also 
equate to the loss of roughly 1,140 children and their families in the 
State, according to the National Head Start Association.
    My agency, The Campagna Center, is a delegate agency of the city of 
Alexandria and among the children we serve, we are funded to provide 
assistance to 309 Head Start Children and 108 Early Head Start children 
as a grantee. A cut of this magnitude would mean that approximately 24 
fewer children would be served in Head Start and approximately 10 fewer 
in Early Head Start. Currently, we have to raise an additional $75,000 
each year just to be able to continue providing quality services to our 
Early Head Start children because the current funding level has not 
been able to address our rising costs; this is in addition to the 20 
percent non-Federal match that we have to provide to operate the 
program. There is simply no way we could absorb a cut as deep as 
proposed with other funding sources in this very challenged economic 
environment. Teacher and Teacher Assistant jobs would be lost, as well 
as reductions in time for staff that support our teachers--Family 
Service Support professionals, Nutrition Specialists, and others that 
are vital to the life success of our children.
    Additionally, due to economic woes, the need in our community has 
grown much faster than our ability to provide services. As a city, 
Alexandria has deep pockets of poverty that greatly undermine many 
families' ability to pay for early childhood services. Last year we had 
206 children on our waitlist for Head Start and 169 children on the 
Early Head Start waiting list. Unfortunately we expect this number to 
keep growing even without facing deep cuts; for our program's Spring 
enrollment fair, we had well over 500 parents seeking a spot for their 
children in our program. Any cuts in funding would certainly push more 
families onto long waiting lists, where the chance to gain access to 
early childhood education is slim to none.
    In addition to the depth of the cut, one of our greatest fears is 
its timing. January 2013, the target date these cuts go into effect, is 
right in the middle of the program year for us as well as our K-12 
colleagues. We simply do not know how we can possibly tell families 
that their services will lapse come January. These services are 
critical to helping stabilize at-risk families, so that their children 
will be assured a home environment that nurtures a lifetime of learning 
and success.
    Just recently, I had the opportunity to talk with a parent that 
knows firsthand how much Head Start has meant to her family. This 
mother came to our program in 2010 following a divorce and was in need 
of assistance on many levels. With very little family support and few 
resources at her disposal, she was concerned about how she was going to 
make ends meet and provide for her children. In 2 short years, despite 
becoming homeless, her oldest child thrived in our program, has since 
successfully completed kindergarten, and is doing very well in school. 
This parent has been able to enter a training program that has her 
close to earning her Child Development Associate credential and she is 
gainfully employed as a teacher assistant and very much motivated to do 
what it will take to continue her education and support her children's 
education. She credits all of this success to the support she received 
from teachers, home visitors, and family support staff in our program. 
This mother's story reflects the story of many parents who have come to 
rely on Head Start and other early care and education programs that 
support child and family success.
    Cuts in this area will have lasting impact. Quality early education 
prepares the Nation's youngest children for a lifetime of learning and 
success. In fact, studies show that for every $1 invested in a Head 
Start child, society earns at least $7 through increased earnings, 
employment, and family stability; \1\ as well as decreased welfare 
dependency,\2\ healthcare costs,\3\ crime costs,\4\ grade retention,\5\ 
and special education.\6\
---------------------------------------------------------------------------
    \1\ Ludwig, J. and Phillips, D. (2007). The Benefits and Costs of 
Head Start. Social Policy Report. 21 (3: 4); Deming, D. (2009). Early 
childhood intervention and life-cycle skill development: Evidence from 
Head Start. American Economic Journal: Applied Economics, 1(3): 111-
134; Meier, J. (2003, June 20). Interim Report. Kindergarten Readiness 
Study: Head Start Success. Preschool Service Department, San Bernardino 
County, California; Deming, D. (2009, July). Early childhood 
intervention and life-cycle skill development: Evidence from Head 
Start, p. 112.
    \2\ Meier, J. (2003, June 20). Kindergarten Readiness Study: Head 
Start Success. Interim Report. Preschool Services Department of San 
Bernardino County.
    \3\ Frisvold, D. (2006, February). Head Start participation and 
childhood obesity. Vanderbilt University Working Paper No. 06-WG01; 
Currie, J. and Thomas, D. (1995, June). Does Head Start Make a 
Difference? The American Economic Review, 85 (3): 360; Anderson, K.H., 
Foster, J.E., & Frisvold, D.E. (2009). Investing in health: The long-
term impact of Head Start on smoking. Economic Inquiry, 48 (3), 587-
602.
    \4\ Reuters. (2009, March). Cost of locking up Americans too high: 
Pew study; Garces, E., Thomas, D. and Currie, J. (2002, September). 
Longer-term effects of Head Start. American Economic Review, 92 (4): 
999-1012.
    \5\ Barnett, W. (2002, September 13). The Battle Over Head Start: 
What the Research Shows.; Garces, E., Thomas, D. and Currie, J. (2002, 
September). Longer-Term Effects of Head Start. American Economic 
Review, 92 (4): 999-1012.
    \6\ NHSA Public Policy and Research Department analysis of data 
from a Montgomery County Public Schools evaluation. See Zhao, H. & 
Modarresi, S. (2010, April). Evaluating lasting effects of full-day 
prekindergarten program on school readiness, academic performance, and 
special education services. Office of Shared Accountability, Montgomery 
County Public Schools.
---------------------------------------------------------------------------
    I firmly agree that our national deficit is a looming problem; as 
an advocate serving children, I too am concerned about leaving 
significant debt behind to be paid for by the next generation. On 
behalf of my colleagues across the country, I urge this subcommittee to 
take a leadership role in finding a balanced approach that averts the 
sequester and ensures that this deficit reduction effort is not 
financed with cuts to programs that help our most vulnerable citizens. 
Hundreds of thousands of children and families in your home States are 
counting on it. Thank you.

    Senator Harkin. Thank you, Dr. Mann. Thank you all very 
much for your testimony.
    As I said, your whole testimonies will be made a part of 
the record. We'll start a round of 5-minute questions.
    First, Tammy Mann, Dr. Mann, last April, I went down to the 
U.S. Chamber of Commerce, and their affiliate had issued a 
report calling for more investment in early childhood 
education. Not less, more. This is the U.S. Chamber of 
Commerce. Coming from a business community to unite in an 
effort to convince us, and I assume people on the local level 
and everywhere else, to invest more in early childhood 
education.
    So I want to point out this concern is also coming from the 
business community, but it's not just recent. In 1990--it was 
either 1990 or 1992, the Committee on Economic Development was 
headed by the president and CEO of Honeywell at that time. It 
came out with a report on what needed to be done on education 
in America from a business standpoint, from a business 
community standpoint, what needed to be done. And their entire 
report was focused on putting more into early childhood 
education, early learning programs. That was 1990 or 1992, I 
forgot exactly which year.
    So again, the business community this year stepped up 
again. But we never seem to quite get there.
    For both you and Dr. Walker, your statements read--or Dr. 
Walker, your statement--the concept of doing more with less is 
admirable, but there comes a time when there's not enough left 
adequately and equitably to educate the children of America.
    Dr. Atkinson, you said our State and local education 
agencies (LEAs) are currently running on shoestring budgets and 
cannot afford additional cuts.
    For both of you, what kinds of things have you done already 
to reduce costs? And if sequestration goes into effect, where 
are you going to go for this extra money? Can you go to your 
local jurisdiction, your States? Can you address it yourself? 
Where would you get that lost revenue, or would you just have 
to lay off teachers and cut services?
    Dr. Atkinson. North Carolina has no place to go. We have 
moved very aggressively to become more efficient and more 
effective in our delivery of public education.
    Harvard just recently issued a report indicating that North 
Carolina was one of six States getting the most gain of student 
achievement with the incremental dollars that we have. We 
ranked 45th in the Nation, according to the 2010 census for 
educational spending.
    Our instructional resources budget has been cut 50 percent.
    Senator Harkin. Excuse me. You ranked 45th out of 50 States 
in educational spending?
    Dr. Atkinson. That's correct, Sir.
    Senator Harkin. So you're at the bottom?
    Dr. Atkinson. Yes, we are. And not only are we at the 
bottom, our school districts will face about $190 million less 
money to serve 12,000 more students along with our 1.5 million 
children that we have in our State.
    Through Race to the Top dollars--thank goodness--we have 
been able to continue to build a more efficient and effective 
system where we can have some economies of scale, such as 
instead of our 115 school districts doing requests and 
proposals for services, we want to do it one time for our 115 
school districts.
    We have started a virtual high school, the second largest 
in the Nation. That virtual high school supplements instruction 
in schools where they could no longer have teachers, and it 
helps our rural schools in the State to offer more 
opportunities.
    We have been cutting and cutting. We have approximately 5 
percent of our budgets spent in administration. That's one of 
the lowest in the Nation, and I'm sure that any business would 
be very proud to have an administrative cost at 5 percent.
    We have made cuts in teacher assistance. We've had to 
eliminate more than 6,000 positions over the last couple of 
years.
    So we have no place to go to get to make up for the 
difference that would occur should sequestration take place. 
North Carolina is a State that has had its share of hurricanes, 
and we've been trying to build and we are well on our way to 
building a very strong foundational house, but sequestration 
would be like a hurricane coming through and blowing off the 
roof of what we have done to move us to the place where nearly 
100 percent of our students can graduate from our schools 
prepared with options.
    Senator Harkin. Mr. Walker.
    Dr. Walker. Yes, Sir. Learning is the byproduct of good 
teaching. And in order to have learning, we have to have the 
people. And so over the last couple of years, we've actually 
already started reducing our staff, which means larger class 
sizes.
    For example, we've reduced an English teacher, a math 
teacher, a science teacher at the high school level; reading 
specialists--one at the elementary, one at the middle school; a 
librarian; a facility planner; a person in our curriculum 
department at the campus level.
    Senator Harkin. So has the number of your students 
decreased at the same time?
    Dr. Walker. No, Sir. Our numbers have stayed the same. 
We're having to put more students in the classroom now. No pay 
raises.
    So, essentially, what we're having to do is we're having to 
look at our personnel. We eliminated the baseball, swimming, 
and cross-country programs, but we did that in order to keep 
our elementary art, our elementary music, our secondary theater 
arts, music programs, all those programs in the fine arts. 
We're trying to keep a balance.
    But, ultimately, Sir, when it all boils down and you look 
at it, we have to touch people's lives and we have to reduce 
our staff. And at some point, we have to have a bare minimum to 
operate to take care of the Federal and State mandates for 
educating our children.
    Senator Harkin. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Senator Harkin.
    It's been estimated that the Federal contribution, on 
average, is about 10.8 percent of a local school district's 
total funding. I think that's nationwide.
    On a local level, this means that an automatic cut, for 
example, of 7.8 percent to the Federal share for an average 
school district would equal a cut of about 84 percent of its 
total funding.
    I know you don't want to cut anything. I agree with you 
that sequestration is not the way to do it. You know, we're 
going to have to do things in the future a little differently 
up here, because we're challenged economically, as we all know, 
just as you are in North Carolina, you are in Texas, you are in 
Virginia. My people in Alabama, we understand that.
    Mr. McCluskey, I want to direct my first question to you. 
First of all, I believe access to a quality education is 
critical to the success of our citizens and the 
competitiveness, as has been a said here, of our Nation in the 
global economy. However, there is not always a strong 
correlation between spending and outcomes. We know that.
    Since 1970, Federal education spending on a per-pupil basis 
has increased from $435 to $1,159 in 2008. Yet according to the 
most recent performance report ranking 15-year-olds from the 34 
countries of the Organization for Economic Cooperation and 
Development (OECD), the United States ranked 25th in math and 
17th in science.
    Can the approximate 7.8-percent cuts we've been talking 
about under sequestration be taken without adversely affecting 
student achievement?
    Mr. McCluskey. I think the overwhelming evidence, and a lot 
of it I laid out in my testimony, is that we have spent huge 
amounts of money. We've had gigantic increases and sustained 
over decades. And it simply hasn't, in any way, translated into 
better outcomes, into better performance, and it's the Federal 
Government's own test that shows that, the National Assessment 
of Educational Progress.
    And you bring up the international data, and that's also 
interesting, because we spend more than almost any other Nation 
in the OECD on education and still get very poor results.
    Senator Shelby. But the outcome is different, isn't it?
    Mr. McCluskey. What's that?
    Senator Shelby. The outcome, considering what other nations 
spend and what we spend.
    Mr. McCluskey. Absolutely. So they do much better on, 
usually, much less spending per pupil.
    We can talk about this as an investment, but if it is an 
investment, it's an investment that's been paying no return for 
decades. And considering the size of the debt and considering 
that this is money that comes from taxpayers who might be able 
to use it for much more efficient things that they really need, 
I can't see how it can be justified to continue spending like 
this.
    Senator Shelby. Dr. Atkinson, if cuts still need to be 
taken to education funding, and I think we're going to have to 
look at everything up here whether we want to or not, and it 
was up to individual States, for example, to make these cuts, 
what specific programs would you target and what innovative 
strategies would you support to achieve some efficiencies in 
education, because I do believe whether it's defense, whether 
it's education, or whether it's health, that they are some 
efficiencies there that we should all strive to get to. What 
would you suggest, if any?
    Dr. Atkinson. I believe that my colleagues across the 
Nation would agree that should sequestration have to occur, and 
should cuts have to occur, that States must be offered 
flexibility in making cuts where we see through our data that 
we are not as effective or efficient in one area as we would be 
in another.
    So we need to offer that flexibility to States, because it 
may not be the same in all of our States where we see 
inefficiencies and ineffectiveness.
    I believe that we also must work collaboratively to get 
efficiencies. For example, the adoption of the common core 
standards is a good example of how States can come together, 
focus on the common standards, share resources dealing with 
professional development, share resources as it relates to 
helping students understand the content and to apply that 
content.
    There are other examples with online professional 
development. There are other examples that can be used in 
having accessible to all of our States online instruction that 
can complement or supplement the instruction that a teacher 
would provide in the classroom.
    Senator Shelby. Dr. Walker, I voted against the 
sequestration legislation, as the Mr. Chairman did, that 
brought us where we are today. But if it does come about, would 
it be better to deal with it now as opposed to kicking the can 
down the road if you had a little certainty there?
    Dr. Walker. Absolutely, Sir.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Harkin. Thank you. It's true we both voted against 
it, but I think I voted against it because it raised no revenue 
and----
    Senator Shelby. Probably for different reasons.
    Senator Harkin. And you probably voted against it because 
it didn't cut enough. So different reasons.
    Senator Shelby. I didn't say we voted against it for the 
same reason.
    Senator Harkin. Let's see, I just wanted to cover one other 
thing here.
    Yes, Mr. McCluskey, I had one thing I wanted to ask you 
about in your testimony here. You know, I always like it when 
people cite studies and stuff, but I found in my long career 
here that when you cite a study that's been cited by somebody 
else, been cited by somebody else and cited by somebody else, 
it's going to take on a life of its own. But you really don't 
know what the real facts are.
    So just to read, in your testimony, you said that, 
``Indeed, GAO reports in 2000, 2005, and 2008 found widespread 
noncompliance with financial management standards and very poor 
efforts to remediate the problem.'' We're talking about Head 
Start. This is Head Start.
    You said, ``As reports in the Government Accountability 
Office, local media outlets, and other sources have revealed, 
Head Start has long suffered from serious waste and abuse. 
Indeed, GAO reports in 2000, 2005, and 2008 found widespread 
noncompliance with financial management standards and very poor 
efforts to remediate the problem.''
    I was very intrigued by that, since I was here in those 
years and was on this subcommittee, either as ranking member or 
chair, and I didn't remember those, so I asked my staff to look 
at it. What we found out was that the GAO study found possible 
abuse of eligibility rules.
    This is where kids may have been--their families may have 
been more than 100 percent of poverty but their kids were in 
the Head Start program. And they found this in eight Head Start 
centers. Do you know how many Head Start centers are in the 
country, Mr. McCluskey?
    Mr. McCluskey. Quite a few.
    Senator Harkin. Sixteen hundred. So I question the usage of 
your words ``widespread noncompliance.'' I'm sure that somebody 
else may pick up your citing of this and then cite the study in 
something else and then it takes on a life of its own.
    But I doubt that finding possible abuse of eligibility 
rules at 8 out of 1,600 Head Start centers is an indictment of 
widespread noncompliance and poor efforts to remediate the 
problem.
    Mr. McCluskey. In fact, I'm not the only one I think who's 
found evidence of this and acted on it. In fact, the Obama 
administration has undertaken a new effort to impose some sort 
of accountability on Head Start centers due to widespread 
problems, at least what they are perceiving as widespread 
problems, within Head Start of financial management and things 
like this.
    So I don't think I am the only one who senses a problem in 
this area. The Obama administration seems to be working on that 
expectation or thought that's out there as well.
    Senator Harkin. Well, again, maybe your definition of 
``widespread'' is a little bit different than mine, but 8 of 
1,600 doesn't seem widespread.
    Everything has problems. We always try to focus on how we 
can do things better. I understand that. But I don't know that 
that's an indictment of the Head Start program.
    Mr. Walker, I wanted to ask you, you said in your 
testimony--you mentioned something. I heard it. You said 
something about State and Federal mandates in education. What 
do you mean by Federal mandates in education?
    Dr. Walker. One of the mandates that we deal with is, is 
dealing with Individuals with Disabilities Education Act 
(IDEA), with some of the issues that come out of No Child Left 
Behind, dealing with the testing requirements that we're under. 
It flows through the State, but it's through No Child Left 
Behind.
    There are various areas that we have that we have to act 
and we have to do things, and that's what I term a mandate.
    Senator Harkin. Let me address myself to one of those, 
IDEA.
    There is, I think, a mistaken perception, hearing from you, 
a well-known educator, that IDEA, the Individuals with 
Disabilities Education Act, is a Federal mandate. It is not a 
Federal mandate. It's a constitutional mandate.
    You see, under the Constitution of the United States, no 
State has to provide a free public education. There's no 
constitutional mandate that says that any State has to provide 
a free public education.
    What the Constitution does say, however, as the Supreme 
Court has interpreted over the years, is that if a State does 
provide a free public education, it cannot just provide a 
taxpayer-based free public education for white boys. It cannot 
just provide a free taxpayer-funded public education for 
Christian boys and girls.
    The Supreme Court has said that you can't discriminate 
based on race, sex, or natural origin, et cetera, et cetera.
    A case came before the circuit court for Pennsylvania--PARC 
v. Pennsylvania--PARC, P-A-R-C--Pennsylvania Association for 
Retarded Citizens vs. Pennsylvania. Here, I'm into trouble--
early 1970s, I believe.
    In which some parents of kids with disabilities--
intellectual disabilities--brought about a case saying that 
their kids were being discriminated against. They were 
taxpayers, and their kids were not being given a free, 
appropriate public education.
    The district court found for the parents. It was appealed 
to the circuit court. The circuit court upheld that, and the 
Supreme Court denied it.
    The Supreme Court was saying, you're right, this is a 
constitutional requirement. You cannot discriminate on the 
basis of disability, if you're going to have a free public 
education.
    The Federal Government came along--then I came to Congress. 
The Federal Government comes along and says, well, and the 
States came to the Federal Government and said, my gosh, now we 
are going to have to educate kids with disabilities. It's a 
constitutional requirement just like we have to educate girls 
now. We have to educate African-Americans. We have to educate 
new immigrants who come into this country.
    So the States came and said, my gosh, this is going to be a 
new burden. The Federal Government said, okay, I'll tell you 
what we'll do, we'll make a deal. We'll provide funding to help 
meet this constitutional requirement you have, but here are 
some of the things you have to do if you want some of the 
Federal money. You don't have to take the Federal money. But if 
you do, here are some of the requirements you have to meet.
    And the Federal Government at the time, it was our goal to 
have the Federal Government pay for at least 40 percent of the 
increased cost, whatever it might cost to educate the kids with 
a disability, that we would pay for 40 percent of it, as a 
goal. It wasn't guaranteed, but that was the goal.
    I've been involved in trying to reach that goal for 30 
years. We've never made it. We got it up a little bit under the 
American Recovery and Reinvestment Act, but that went away.
    But be that as it may, the requirement that every school 
district--yours, too--educate kids with disabilities is not a 
Federal mandate. It's a constitutional requirement. Even if 
there were no IDEA at all, you would still have to educate 
those kids with a disability. Not a Federal mandate whatsoever.
    The only mandate is if you take the money, you have to meet 
certain requirements in terms of IDEA. You don't have to take 
the money.
    So I just wanted to make that clear, that a lot of times, 
there are Federal mandates. But many times they're not Federal 
mandates; they're constitutional requirements that we have to 
meet in order not to discriminate against one class or another 
of our citizens.
    Now, No Child Left Behind, again, yes, there are mandates 
in No Child Left Behind, Federal mandates. Again, those come 
basically through title I funding. If a State wants title I 
funding, here is what you have to do.
    I will point out again and again, as I point out as 
chairman of this subcommittee and as chairman of the 
authorizing committee, no State has to take title I money. 
There is no requirement for any State that you must take 
Federal money for education. If you want it, then here are the 
requirements you have to meet.
    I have my own problems with No Child Left Behind. That's 
why I worked with Senator Enzi on the authorizing committee, 
not the appropriating committee, authorizing committee, to pass 
legislation to get rid of No Child Left Behind, because I came 
to the conclusion that it was a bad piece of legislation. So we 
got it through our committee, but we can't get it through the 
Senate floor right now.
    But those are the things that we have to work on. But 
again, I always point out that there is no requirement that any 
State has to take that money. If a State wants to, they can pay 
for all their education all by themselves. But even if a State 
did, even if North Carolina decided to pick up everything, they 
still can't violate the Constitution of the United States as 
long as they're a State in this Union.
    So when we think about these mandates, just be careful 
about whether we say they are a Federal mandate or are they a 
constitutional requirement that taxpayers--a State cannot use 
taxpayer money to come in and just do it for one class of 
people and discriminate against another class of people. I 
think we all understand that. That's sort of common sense, as 
we say right now.
    Well, I should say, Senator Shelby already left. But I did 
want to respond about the funding of early--that per student 
funding has gone from $435 in 1975 to $1,159 in 2008, yet the 
United States has ranked some place down there in the ranking 
system.
    I don't know what the inflationary factor increase from 
1970 to now would be. It's 40-some years. I suppose that would 
probably put it in equal terms maybe around $800. I don't know. 
And so then $300 in there.
    Look at the difference between 1970 and now. I mean, we 
weren't educating kids with disabilities then. They were all 
housed in institutions, and we were paying through the nose for 
that discriminatory action. So we've saved money there, but we 
put it into education, for educating kids with disabilities.
    So, yes, we might be spending more per student, but some of 
that money was being spent on institutional care for students 
or kids that just weren't being educated.
    From my area, I know a lot of kids went through 8th grade, 
10th grade, dropped out of school and got a job in a factory. 
They could do that then. You can't do that anymore.
    And so we're educating more kids now, a lot more children 
than what we did in 1970.
    We've had an influx of English language learners into this 
country. We had the wave that came when my mother, who was an 
immigrant, came to the country. Then it subsided, and we had 
another big wave come.
    That has an effect on our schools and school spending also. 
So to say that we've increased spending on students a 
tremendous amount since 1970, it doesn't really tell me a lot 
until you factor in all those other factors as to what the 
student population is like right now.
    And to be sure, I wish the United States--and Secretary 
Arne Duncan said it--we've got to do a better job on educating 
kids.
    I politely disagree with my friend from the Cato Institute, 
who says the Federal Government has been the cause of all this 
terrible stuff. We only provide 8--between 8 and 10 percent of 
all the funding for elementary and secondary education in this 
country. And we're at a high point. It used to be less than 
that.
    I would assume if you go back to 1970, there's probably 
around 4, 5, or 6 percent of total funding for elementary and 
secondary education. Now, it's up to 8 or 9 percent.
    So if there's a fault, how about looking at the 92 percent 
that the States are funding? Ninety-two percent of all of the 
funding for elementary and secondary education come from States 
and local governments, not from the Federal Government. Is it 
the Federal Government's fault or is it the State and local 
government's fault that we rank so low on this?
    To blame it all on the Federal Government, when they 
provide 8 percent, is to ignore the elephant in a room, which 
is the State and local governments who provide 92 percent of 
the funding for education. You know, maybe they haven't done 
enough to bolster education in State and local governments.
    We had a hearing earlier this week on higher education, and 
there is a direct correlation between States that have 
decreased their funding for higher education and increased 
tuition. So if States have decreased their funding for higher 
education, tuition goes up, students borrow more money. That's 
why we have student debt today higher than credit card debt.
    So I say these things, I think about this. Is it really the 
Federal Government or is it State and local governments that 
bear the brunt of this?
    Well, again, I thank all of you. I think you've made us 
think about a lot of things. If nothing else, I think what we 
pointed out here, and I think maybe for different reasons voted 
against it, but I think we both agree that sequestration would 
be devastating, either on the defense side or the nondefense 
side. I just think that most of us have been focused on the 
defense side. I think now we're beginning to focus on what 
would happen in nondiscretionary defense spending if, in fact, 
we had sequestration.
    Again, an impetus for us to get them together, reach 
compromises as we've done, as I pointed out, we've done in the 
past. There's no reason why we can't do it now.

                     ADDITIONAL COMMITTEE QUESTIONS

    So I thank you all for what you do in your local areas for 
education, and thank you for taking the time to be here and to 
testify and to give us the benefit of your thinking.
    [The following questions were not asked at the hearing but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Tom Harkin
  are federal education programs effective? would sequestration harm 
                      federal education programs?
    Question. Mr. Secretary, during the hearing we heard testimony from 
Mr. Neal McCluskey who stated that ``. . . the last 40-plus years of 
Federal involvement in education provide a clear demonstration of 
futility'' and that education is a perfect example of why cuts can be 
made without adversely affecting the activities the Federal money is 
supposed to advance with ``. . . overwhelming evidence revealing that 
Federal spending has, at best, done no overall good, and has quite 
likely caused appreciable harm.'' Would you please comment on these 
opinions?
    Answer. I don't think we need to get into a debate about the 
effectiveness of the Federal role in education over the past four 
decades to demonstrate whether or not sequestration would have a 
negative impact on students, parents, teachers, and schools. The bottom 
line is that we know from our partners in State and local education 
agencies, from superintendents and school boards, and from parents and 
principals that our schools rely on Federal education programs to meet 
the educational needs of all students but especially students from low-
income families, students with disabilities, English learners, and 
other students who face challenges in meeting State academic standards 
and graduating from high school college- and career-ready. We also know 
that millions of postsecondary students and their families, as well as 
the institutions of higher education that these students attend, depend 
on the Department of Education to process student financial aid 
applications and deliver the grant and loan assistance that students 
need to obtain a postsecondary education. There is simply no question 
that sequestration would have a severely adverse impact on these 
beneficiaries of strong Federal support for State and local education 
systems, particularly at a time when State and local budgets are still 
recovering from the recent economic recession.
    I would just add that we do pay attention to evidence of 
effectiveness regarding the Department's programs, and we have not been 
shy about proposing the elimination of programs that either are not 
effective or have limited impact. This is why, with the help of the 
Congress, we have eliminated or consolidated no fewer than 49 programs 
over the past 3 years, for a total savings of $1.2 billion. In my view, 
we have been very successful in cutting the ``fat'' from Federal 
education programs; sequestration would require us to cut into the bone 
and risk significant damage to students and schools across the Nation.
impact on education programs of sequestration if pell grant program is 
                                 exempt
    Question. In a September 2011 analysis of sequestration's impact, 
the Congressional Budget Office (CBO) estimated that nonexempt, 
nondefense discretionary programs will face an across-the-board cut of 
7.8 percent in fiscal year 2013. At that time, it was unclear how the 
Pell grant program factored into CBO's analysis and whether the Office 
of Management and Budget (OMB) believed the program was subject to 
sequestration or if it was exempt.
    As you know, I released a report on July 25th entitled ``Under 
Threat: Sequestration's Impact on Nondefense Jobs and Services'', that 
provided a detailed, State-level analysis of sequestration's effect on 
dozens of education, health, and labor programs using CBO's 7.8-percent 
across-the-board cut estimate. I recently learned that OMB has ruled 
that the Pell grant program is exempt from sequestration. Given that 
the Pell grant program's discretionary costs represented 33 percent of 
the Department of Education's total discretionary budget in fiscal year 
2012, I would like to know how OMB's recent decision affects the cuts 
that will need to be made to nondefense discretionary spending, 
particularly at the Department, to achieve the required savings under 
sequestration.
    Answer. Pell grants will be exempt from the fiscal year 2013 
sequester. In its September report pursuant to the Sequestration 
Transparency Act of 2012, OMB took the Pell grant exemption and many 
other factors into account and estimated that the sequester for 
nondefense discretionary programs would be 8.2 percent.
                                 ______
                                 
                Question Submitted by Senator Herb Kohl
      sequestration guidance for institutions of higher education
    Question. Over the past few weeks, we have heard more and more 
about how sequestration might affect our Research I universities and 
what it will mean for student financial aid and support programs. 
However, our smaller regional colleges and universities still have a 
lot of questions about what sequestration might mean for them. Does the 
Department of Education have any guidance for our smaller institutions 
of higher education?
    Answer. The administration continues to urge the Congress to pass a 
balanced package of deficit reduction that would replace the potential 
sequestration. As the September report on sequestration stated, ``. . . 
no amount of planning can mitigate the effect of these cuts.'' However, 
the exemption for Pell grants would make it easier for these smaller 
institutions than without the exemption.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                           impacts on reform
    Question. I commend the administration on its strong commitment to 
education reform through initiatives like Race to the Top, Investing in 
Innovation (i3), the Charter Schools Program, and the Teacher Incentive 
Fund. Targeted investments in such evidence-based programs have 
leveraged significant education reforms in Louisiana and across the 
country.
    Mr. Secretary, can you please address how sequestration might alter 
the administration's education reform agenda and its impact on our 
Nation's efforts to close the achievement gap?
    Answer. Reducing investments in education is not the way to close 
the achievement gap or stimulate reform. The sequester would cut 
significant funding from our foundation formula programs, like title I 
and Individuals with Disabilities Education Act (IDEA), that provide 
resources for districts and schools serving our neediest students. It 
would be hard to avoid reductions in the number of teachers at a time 
when school enrollment is increasing. That would not be the formula for 
future success in turning around our economy or preparing more students 
to be ready for college or careers. I agree that our reform initiatives 
have been levers in producing reforms. I think we need to do more, not 
less, to stimulate reforms. Now more than ever, when we need to boost 
our economy by filling jobs with a future, we should be increasing our 
investments in approaches like Race to the Top.
                       preparation for sequester
    Question. I appreciate that the Department has started 
communicating with Chief State School Officers about sequestration so 
that they can start preparing for the impending cuts. Since there is no 
guarantee the Congress will prevent sequestration, I hope that you will 
continue to communicate with our State education leaders regarding 
sequestration.
    Mr. Secretary, can you please discuss the next steps the Department 
will take to prepare for sequestration and to ensure that our States 
are prepared, as well?
    Answer. We are glad that the guidance on the major formula programs 
with advance funding (title I of Elementary and Secondary Education Act 
[ESEA], IDEA part B, Teacher Quality, and Career and Technical 
Education) was helpful to the States. We will continue to monitor 
progress in the Congress. As we have said before, the administration 
continues to urge the Congress to pass a balanced package of deficit 
reduction that would replace the potential sequestration. As the 
September report on sequestration stated, ``. . . no amount of planning 
can mitigate the effect of these cuts.'' We believe the reductions in 
spending would be significant and hope they can be avoided.
                        preventing sequestration
    Question. Although this hearing is focused on the impact of 
sequestration on education, I think it's worth discussing efforts to 
prevent sequestration from happening in the first place.
    Mr. Secretary, how much outreach has the Department conducted on 
Capitol Hill to educate Members of Congress and their staff on the 
severity of circumstances surrounding these cuts, and will the 
Department increase its efforts as fiscal year 2013 approaches?
    Answer. The Sequestration Transparency Act of 2012 (Public Law 112-
155) required the President to submit to the Congress a report on the 
potential sequestration triggered by the failure of the Joint Select 
Committee on Deficit Reduction to propose, and the Congress to enact, a 
plan to reduce the deficit by $1.2 trillion as required by the Budget 
Control Act of 2011. In response, in September, the Office of 
Management and Budget issued a detailed report based on assumptions 
required by the STA. The report provided the Congress with a breakdown 
of exempt and nonexempt budget accounts, an estimate of the funding 
reductions that would be required across nonexempt accounts, an 
explanation of the calculations in the report, and additional 
information on the potential implementation of the sequestration.
    In addition to that report, the administration has also been 
actively discussing the repercussions in hearings like this one and in 
communications that provide as much information as possible at this 
point in the process. The President has proposed alternatives to the 
sequester on at least two occasions, and the administration believes 
that its balanced approach to deficit reduction is preferable to the 
arbitrary across-the-board reductions.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
       education program priorities if sequestration takes effect
    Question. Mr. Secretary, if the Congress is able to come up with a 
plan that would lessen the sequestration amount but still require 
additional discretionary spending reductions, where would you propose 
to take these cuts, and what are the priorities you want protected?
    Answer. I believe that education is an investment that is even more 
important in our tough economic times. I would not be reducing our 
education investments. Where it was possible, we have already made many 
reductions and achieved significant long-term savings. For example, we 
have already eliminated 49 programs in the past 3 years. Those programs 
didn't produce expected results, were duplicated by other programs, or 
had achieved their original purpose. Those eliminations save $1.2 
billion each year. We also made changes in our student aid programs 
including $68 billion in savings by eliminating unnecessary subsidies 
to banks. We invested these savings in Pell grants and increased the 
maximum Pell grant award. And in order to ensure that the Pell grant 
program remains fully funded, we made hard choices to reduce student 
loan subsidies for graduate students and ended the year-round Pell. In 
addition, we kept the interest rate on subsidized Stafford loans for 
low-income students from doubling from 3.4 to 6.8 percent.
    actions taken to increase program efficiencies given potential 
                             sequestration
    Question. Within the Department, what steps have you taken to try 
and lessen the impact of sequestration on critical education programs, 
and, in particular, what are you doing to increase efficiencies knowing 
there could be an upcoming reduction in resources?
    Answer. No amount of planning will prepare for the arbitrary 
sequester. While we have issued guidance on how we will handle advance-
funded appropriations, we have not been planning for significant 
reductions in our key programs. We are operating under the continuing 
resolution now, which assumes that funding for fiscal year 2013 will 
approximate the levels appropriated in fiscal year 2012.
   sequestration impact on unobligated balances, hold-harmless, and 
                    maintenance-of-effort provisions
    Question. The Department of Education has provided limited guidance 
to States about how the sequester will affect certain programs--in 
particular, how education programs that are advance-funded are 
impacted. However, it remains unclear how unobligated balances from 
fiscal year 2012 will be affected and how hold harmless and/or 
maintenance-of-effort (MOE) provisions will be impacted. Can you 
provide the subcommittee details on how these provisions will be 
affected?
    Answer. We do not believe that unobligated balances from fiscal 
year 2012 (i.e., funding that the Department has not obligated to 
States, school districts, or other recipients) will be affected by the 
fiscal year 2013 sequester. There would be no changes in hold-harmless 
and/or MOE provisions. Those are usually not dependent on the final 
level of appropriation for a given authority.
   option for new state and local flexibilities under sequestration?
    Question. Dr. June Atkinson, the State Superintendent for North 
Carolina, testified that the Department of Education should offer 
States and districts new flexibilities if sequestration is implemented. 
Does the Department have the authority to provide such flexibilities, 
and, if so, what specific flexibility, if any, is the Department 
considering providing to States and districts if sequestration is 
implemented?
    Answer. At this point, we do not see additional flexibilities 
arising from the sequester. The sequester will reduce the 
appropriations that are provided. The basic authorizing statutes will 
not be changed by the reduction in funding.
sequestration impact on local education agencies with greater reliance 
                           on federal funding
    Question. It is estimated that the Federal contribution comprises 
on average only about 10.8 percent of a local school district's total 
funding. On the local level, this means that an automatic cut of 7.8 
percent to the Federal share for an average school district would equal 
a cut of about .84 percent of its total funding. However, concerns have 
been raised that local school districts that rely on Federal funding 
for a larger portion of their budget, such as title I school districts, 
will have greater challenges implementing sequestration cuts. What 
actions could the Department of Education take to lessen the impact on 
school districts that rely heavily on Federal funding?
    Answer. The sequester would significantly reduce Federal funding. 
The cuts in formula programs that receive advance funding for next 
school year will have to consider reductions in staff and services. 
Those districts relying heavily on Federal funding will have to make 
the largest adjustments. We would try to share examples of cost-cutting 
efforts that would minimize the negative impact on students and 
teachers, but at this point, we are not engaging in such planning.
       sequestration impact on origination fees for student loans
    Question. Mr. Secretary, you discuss in your testimony the impact 
that budget sequestration would have on the ability to administer 
student aid programs. It is my understanding that under sequestration 
the Department of Education would also be required to increase the 
origination fees for Federal student loans which would increase 
borrowing costs for students. Can you discuss the changes that the 
Department expects to make to origination fees on student loans under 
sequestration?
    Answer. The Department is proud of its role overseeing the Federal 
student aid programs which assist nearly 15 million students annually 
to afford the cost of a college education. Part of this role includes 
offering low-interest student loans to students and families regardless 
of income, with favorable repayment and forgiveness options, and with 
low origination fees. Unfortunately, during a period of sequestration 
the Department would be required to raise existing origination fees for 
Direct Loans by the percentage specified in the sequestration order. 
All loan types--Stafford, unsubsidized Stafford, PLUS, and 
Consolidation loans--are subject to this increase.
    Currently, subsidized Stafford and unsubsidized Stafford loans have 
a 1-percent origination fee, and PLUS loans have a 4-percent 
origination fee. (Consolidation loans do not have such a fee.) The 
borrower is charged a calculated origination fee equal to a percentage 
of the principal amount of the loan. The fee is then subtracted from 
the principal amount before the loan funds are disbursed to the 
borrower. Thus, a borrower would see a smaller disbursement than a loan 
in the same amount before sequestration.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
 sequestration impact on local education agencies heavily dependent on 
                            impact aid funds
    Question. I understand that sequestration for the Impact Aid 
program will take effect on January 2, 2013, while sequestration for 
the majority of the other large elementary and secondary education 
programs will not go into effect until the 2013-2014 school year. I 
have a few questions regarding sequestration for Impact Aid.
    Will heavily impacted districts receive the blanket 7.8-percent cut 
you described in your testimony on January 2, 2012, or will the 7.8-
percent cut be applied to the Impact Aid program as a whole, with the 
possibility that the heavily impacted districts may receive less of a 
cut, because these districts have no other options with which to make 
up the loss of local tax revenue?
    Answer. Most Federal support for the major K-12 education programs 
is appropriated on a ``forward-funded'' basis, so a sequestration for 
those programs would not have an impact until the 2013-2014 school 
year. In contrast, Impact Aid is a ``current-funded'' program. The 
Department obligates the great majority of the funding very soon after 
we receive an appropriation or during the period of a continuing 
resolution, and the program generally supports school district 
operations in the year of the appropriation. Because of this difference 
in timing, the January 2, 2013, effective date of a sequestration would 
affect the Impact Aid funding that eligible districts receive this 
school year.
    We do not yet know how a sequestration would take effect on a 
program-by-program basis and, thus, don't know whether the reduction 
would be the same for all programs within the Impact Aid account. I do 
note that heavily impacted school districts eligible under section 
8003(b)(2) are funded from the same appropriation line item as school 
districts that receive regular Impact Aid payments under section 
8003(b)(1). The authorizing statute requires that both types of 
payments be reduced in a similar manner when funds are insufficient to 
provide payments at 100 percent of the Learning Opportunity Threshold 
payment or 100 percent of full 8003(b)(2) funding. Therefore, in the 
event of sequestration, heavily impacted districts would receive the 
same cut to their Impact Aid payments as regular districts.
     departmental guidance to impact aid districts on planning for 
                             sequestration
    Question. How are you working with the specific Impact Aid 
districts so they can plan for reduction in Federal assistance? The 
State of Illinois has two communities that receive heavy-impact aid, 
and the funding from this program contributes significantly to their 
budget.
    Answer. In a series of webinars for Impact Aid grantees during 
early September, the Department provided a funding outlook for fiscal 
year 2013 to alert school districts to the possibility of reduced 
payments. The Department described multiple scenarios under a 
continuing resolution for part of the fiscal year, and shared basic 
information on the possibility of sequestration. The Department will be 
prepared to implement sequestration and provide guidance to grantees if 
necessary, but the administration remains confident that the Congress 
will pass legislation to avoid such drastic and untargeted cuts.

                         CONCLUSION OF HEARING

    Senator Harkin. I will gavel to close unless somebody had 
something they wanted to offer.
    Going, going, thank you very much. The subcommittee will 
stand in recess.
    [Whereupon, at 11:54 a.m., Wednesday, July 25, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
